October 31, 2002

The Honorable Donald L. Evans
Secretary of Commerce
Washington, D.C. 20230


Mr. Secretary:

I am pleased to provide you with the Inspector General's Semiannual Report to Congress for the second half of fiscal year
2002. Section 5 of the Inspector General Act requires that you transmit this report, with any comments you may wish to add,
to the appropriate congressional committees within 30 days of your receiving it.

This semiannual period marks the end of a fiscal year in which America has faced some sobering, new uncertainties in
economic and foreign affairs. Many of these matters directly touch the Department of Commerce—particularly its efforts to
support economic expansion and advance U.S. national security, foreign policy, and global competitiveness. This Semiannual
Report to Congress details our reviews of a number of Commerce programs and activities that pertain to these efforts and
reveals a Department committed to its mission and to ensuring the integrity of its operations. We have noted improvement in
some areas previously found deficient, while identifying new or persistent weaknesses in other areas that must be addressed.
We are confident that with your guidance, your senior officials will continue to pursue resolution of these problems.

One measure of the commitment to this goal is the overall success of the Department at meeting the critical management
challenges before it, as identified by my office. You will note that we have revised our list of top challenges to reflect a variety
of changing circumstances facing the Department: (1) we combined two challenges related to financial management because
Commerce’s ability to maintain a clean opinion on its consolidated financial statements depends heavily on its ability to
strengthen its financial systems and controls; (2) we changed the focus of our USPTO challenge to reflect the bureau’s
progress toward transitioning to a performance-based organization; and (3) we have added a challenge that speaks directly to
the uncertainties we have come to face in this past year—enhancing emergency preparedness, safety, and security of
Commerce facilities and personnel.

This past year—as America has strived to prosper and remain secure—Commerce's responsibility for promoting the nation's
well-being, as well as ensuring the security of its own facilities, systems, and personnel, has grown heavier. Our work during
this reporting period confirms its determination to fulfill this responsibility. My staff and I look forward to supporting your
efforts to ensure the sound management of the Department as it endeavors to meet the many critical missions with which it
has been charged.

Sincerely,




Johnnie E. Frazier
TABLE OF CONTENTS
IG's Message to Congress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii


Major Challenges for the Department . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
      Strengthen Financial Management Controls and Systems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
      Strengthen Department-Wide Information Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
      Enhance Export Controls for Dual-Use Commodities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
      Effectively Manage Departmental and Bureau Acquisition Processes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
      Enhance Emergency Preparedness, Safety, and Security of Commerce Facilities and Personnel . . . . . . . . . . . . . . . . . . . . . . . . .7
      Successfully Operate USPTO as a Performance-Based Organization                                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
      Increase International Compliance with Trade Agreements and Expand Market Access for American Exporters . . . . . . . . . . . .9
      Increase the Effectiveness of Marine Resource Management                                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10
      Continue to Improve the Department's Strategic Planning and Performance Measurement in Accordance with GPRA . . . . . . .11
      Effectively Manage Major Commerce Renovation and Construction Projects . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .12


Department of Commerce Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .13


Agency Overviews
      Bureau of Industry and Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14
      Economic Development Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16
      Economics and Statistics Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .26
      Minority Business Development Agency . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .28
      National Oceanic and Atmospheric Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .30
      National Telecommunications and Information Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .38
      Technology Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .39
      United States Patent and Trademark Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .45
      Department-Wide Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .49


OIG Highlights: Special Items of Note . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .57


Tables and Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .61
      Statistical Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .61
      Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .62
      Tables and Appendixes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .64


Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .70


Types of OIG Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .73



September 2002/Semiannual Report to Congress                                                                                                                                                     v
IG'S MESSAGE TO CONGRESS

                                                                       of Standards and Technology (NIST) (see pages 53, 45, and 39,

F
       iscal year 2002 concludes with America confronting some
       especially trying times, as the nation and each of its citi-    respectively). We are pleased to report that the Department and
       zens grapple with the new realities that define our security    its operating units have made strides toward improving informa-
on both foreign and domestic soil. Leaders at all levels of gov-       tion security, and we urge them to continue to act on
ernment have been vigilant in their efforts to restore corporate       recommendations we have made that remain open. We also dis-
accountability, maintain a stable economy, and ensure the protec-      cuss the outcome of our evaluation of security provisions in
tion of Americans everywhere.                                          departmental contracts for information services and equipment
                                                                       (see page 51)—a review that uncovered some serious weakness-
The Department of Commerce plays a pivotal role in promoting           es in contract documents, which the Department is working to
economic growth and sustainable development, sponsoring tech-          address.
nological innovation, and administering the nation's system for
control of dual-use goods and technologies. Accordingly, the           Financial/Operational Management. During this reporting peri-
Office of Inspector General has spent the past 6 months evaluat-       od, we concluded an evaluation of the Department's effort to
ing the Department's efforts in these and other areas that are         complete its integrated financial management system, and noted
critical to its sound and competent functioning. We have noted in      needed improvements in planning and management (see page
many of its programs and activities a strong emphasis on individ-      52). We reviewed bankcard programs, testified before Congress
ual and management accountability. We have found continuing            about Commerce's oversight of purchase card use (see page 57),
dedication to improving the security of the Department's critical      and collaborated with the Department of Education OIG to pro-
assets and some noteworthy progress as a result.                       duce a guide for conducting effective purchase card reviews (see
                                                                       page 58). We examined operations at the Office of Administrative
Our emphasis on security, effective management, and accounta-          Services and found that, among other things, its management of
bility during this semiannual period also reflects congressional       the employee awards program was seriously deficient. As a result
priorities for all federal agencies. At Commerce these priorities      cash awards sometimes greatly exceeded departmental thresh-
have prompted such work as the following:                              olds, and payroll taxes were not routinely withheld from award
                                                                       payments (see page 49).
National/Systems Security. We conducted our annual follow-up
review of actions taken by Commerce units—principally the              Other Areas of Focus. We completed reviews of a range of other
Bureau of Industry and Security (BIS)—to implement recom-              departmental activities, such as the following acquisition, finan-
mendations we have made over the past 3 years for improving            cial assistance, and research efforts and, as appropriate, made
dual-use export controls, as required by the National Defense          recommendations:
Authorization Act (NDAA) for Fiscal Year 2000 (see page 14).               ■   Our assessment of NOAA's high-cost acquisition pro-
Given the nation's heightened concern about homeland security                  gram to upgrade its fleet of research vessels (page 31)
and the acquisition of weapons of mass destruction by rogue gov-               highlighted a series of weak management controls that
ernments and terrorist groups, Commerce's role in setting and                  threaten to delay ship delivery.
implementing dual-use export control policy and regulations will
                                                                           ■   Reviews of 19 financial assistance awards made by
likely remain a priority area for congressional scrutiny, as it will
for our office.                                                                EDA (page 16), MBDA (page 28), NIST (page 41), and
                                                                               NOAA (page 34) resulted in our questioning $3.4 mil-
Equally important to the national interest is the security of the              lion in federal claimed costs and recommending $11.2
Department's information assets. Hence, we detail the findings of              million in funds to be put to better use. We also identified
our Commerce-wide evaluation of information security pro-                      opportunities to improve management and administration
grams, mandated by the Government Information and Security                     of individual financial assistance programs.
Reform Act, as well as our agency-specific reviews at the U.S.             ■   An examination of the Salmon Research Plan at the
Patent and Trademark Office (USPTO) and the National Institute                 Northwest Fisheries Science Center (page 32) revealed




September 2002/Semiannual Report to Congress                                                                                         vii
IG’s Message to Congress



       that this planning document has many strengths. Whether      itoring the Department's continuing efforts to strengthen financial
       its implementation will actually improve the quality of      management systems and controls. With acquisition reform well
       the center's salmon-related work, however, has not been      under way, we will now watch how well Commerce manages its
       rigorously evaluated by a documented peer-review             procurement processes. And with the U.S. Patent and Trademark
       process; such a process could better ensure that the plan    Office making steady progress toward incorporating perform-
       addresses program concerns in order of importance. In        ance-based processes, we will evaluate selected aspects of its
       addition to implementing an effective plan, the center       operations. Completely new is the challenge to improve and
       needs to establish better processes for managing             develop the procedures and policies necessary to ensure the safe-
       research projects and priorities.                            ty and security of Commerce facilities and personnel, which will
                                                                    allow the Department to assure the American public that in crisis
You will note that with this Semiannual Report to Congress we       situations, Commerce functions and responsibilities can and will
have revised our list of Top 10 Management Challenges facing        be carried out.
the Department to reflect either significant progress, a shifting
emphasis, or a new area of concern. Much of the work we             For all of the work contained in this semiannual report, we have
describe here corresponds to these challenges and thereby pro-      routinely delivered our findings and recommendations to the
vides a look at Commerce's progress toward resolving them.          Department, and it has been generally open and responsive to
Accordingly, as implementation of the Commerce Administrative       addressing them. We look forward to detailing its progress at
Management System (CAMS) nears completion, we turn to mon-          resolving these and other issues in semiannual reports to come.




viii                                                                           U.S. Department of Commerce/Office of Inspector General
MAJOR CHALLENGES
FOR THE DEPARTMENT

                                                                    CHALLENGE 1: STRENGTHEN
T
        his section highlights OIG’s Top 10 Management
        Challenges that faced the Department at the close of this
        semiannual period. We view these issues as Commerce’s       FINANCIAL MANAGEMENT
top challenges because they meet one or more of the following       CONTROLS AND SYSTEMS
criteria: they are important to the Department’s mission or the
nation’s well-being; they are complex; they involve sizable         The Chief Financial Officers Act of 1990, the Government
expenditures; or they require significant management improve-       Performance and Results Act of 1993, the Government
ments. Given the diverse nature of Commerce activities, many of     Management Reform Act of 1994, and the Federal Financial
these issues cut across bureau and program lines. We believe that   Management Improvement Act of 1996 were designed to
by addressing these challenges the Department can enhance pro-      improve financial management and accountability in the federal
gram efficiency and effectiveness; eliminate serious operational    government. These statutes require the preparation of informa-
problems; decrease fraud, waste, and abuse; and achieve sub-        tion needed by Congress, agency executives, and the public to
stantial savings.                                                   assess management’s performance and stewardship. Information
                                                                    required includes audit reports of agency financial statements
                                                                    that present an entity’s financial position and results of opera-
  TOP 10 MANAGEMENT                                                 tions. These reports must state whether an agency’s financial
  CHALLENGES                                                        management systems comply with federal requirements.

   1. Strengthen financial management controls and systems.         The Department received an unqualified (clean) opinion on its
                                                                    FY 2001 consolidated financial statements—the third consecu-
   2. Strengthen Department-wide information security.              tive year for this accomplishment despite continuing obstacles,
                                                                    including the absence of a single, integrated financial manage-
   3. Enhance export controls for dual-use commodities.             ment system. (See March 2002 issue, page 83). The audits of the
   4. Effectively manage departmental and bureau                    Department’s FY 2001 statements identified two reportable con-
      acquisition processes.                                        ditions (one of which is considered a material weakness1) and
                                                                    several instances of noncompliance with laws and regulations,
   5. Enhance emergency preparedness, safety, and security          none of which was a new matter. This number of deficiencies is
      of Commerce facilities and personnel.                         lower than in previous years as a result of the Department’s sig-
                                                                    nificant progress in recognizing and recording appropriations,
   6. Successfully operate the U.S. Patent and Trademark
                                                                    along with improvement in its account balance reconciliations.
      Office as a performance-based organization.
   7. Increase international compliance with trade agree-           Notwithstanding substantial improvements in financial manage-
      ments and expand market access for American                   ment, maintaining a clean audit opinion remains a major
      exporters.                                                    challenge, especially under the accelerated financial reporting
                                                                    dates mandated by the Office of Management and Budget (OMB)
   8. Increase the effectiveness of marine resource                 for FY 2002 and beyond. Further improvements in financial
      management.                                                   management systems and operations are essential to enable the
   9. Continue to improve the Department's strategic plan-          Department and its entities to correct the material weaknesses
      ning and performance measurement in accordance                and other deficiencies identified in the audits of FY 2001 state-
      with the Government Performance and Results Act.              ments and produce timely, useful financial information. We

  10. Effectively manage major Commerce renovation and
                                                                    1
      construction projects.                                         Material weaknesses are serious flaws in the design or operation of an internal
                                                                    control component that increase the risk that errors, fraud, or noncompliance in
                                                                    material amounts may occur and not be readily detected.




September 2002/Semiannual Report to Congress                                                                                                     1
Major Challenges for the Department



retained an independent certified public accounting firm to audit       Department’s financial systems, and will keep Congress and
the Department’s consolidated financial statements for FY 2002          other stakeholders informed of our findings.
and will present the findings of this audit in our March 2003
Semiannual Report to Congress.

The Department recognizes the need for ongoing efforts to create        CHALLENGE 2: STRENGTHEN
a financial management environment that provides reliable finan-
cial and performance information and complies with federal laws
                                                                        DEPARTMENT-WIDE
and regulations. Such information is vital to sound decision mak-       INFORMATION SECURITY
ing. Therefore Commerce continues to focus on strengthening
financial management systems by implementing the Department-            Commerce’s information technology systems and the data they
wide Commerce Administrative Management System to comply                process and store are among the most critical assets of virtually all
with federal laws and regulations and provide Commerce with             the Department’s line offices and operating units. For example,
accurate, timely, and reliable financial management and perform-        NOAA’s satellite, radar, and other weather forecasting data and
ance information.                                                       systems protect lives and property; BIS’s export license data helps
                                                                        control the release of dual-use commodities to foreign lands;
The Department expects that by October 2003, Commerce’s out-            ESA’s economic indicators have policy-making and commercial
dated and fragmented financial systems will have been replaced          value and can affect the movement of commodity and financial
by CAMS. While most operating units will use CAMS, three                markets; USPTO’s patent and trademark information is essential
units—International Trade Administration (ITA), U.S. Patent and         to administering patent and trademark law, promoting industrial
Trademark Office, and National Technical Information Service—           and technical progress, and strengthening the national economy.
will not, but will submit data along with all other units into a
Commerce-wide financial database, which will serve as the               Keeping IT systems and data secure is of overriding importance
source for the Department’s consolidated financial reports. The         to the Department and the entire nation: loss of or serious dam-
Department expects that CAMS, in conjunction with the data-             age to any one of Commerce’s critical systems could have
base, will bring Commerce into compliance with federal financial        devastating impacts. However, weaknesses in information secu-
systems requirements, including that for a single, integrated           rity continue to exist throughout Commerce. Thus, identifying
financial management system.                                            those weaknesses and recommending solutions remain a top pri-
                                                                        ority for the Office of Inspector General.
Since 1995 the Office of Inspector General has conducted reviews
of the CAMS program, assessed the operational system in its annu-       During this semiannual period, OIG completed its second year of
al financial statements audits, and monitored program or system         information security evaluations under the Government
progress. In recent semiannual reports we expressed concern about       Information Security Reform Act (GISRA), which requires each
the management of CAMS development and maintenance, as well             federal agency to review its information security program annu-
as the efficiency and economy of CAMS’s implementation. In the          ally and each OIG to perform an annual independent evaluation
last semiannual we noted that, as a result of our reviews of CAMS       of that program. Agency heads must provide both of these assess-
over the past several years, the Department has taken steps to          ments to OMB.
address many of our recommendations. During this reporting peri-
od, we completed our review of program management controls at           Our evaluation this year found that Department-level executive
the CAMS Support Center (CSC) (see page 52). We identified a            support for information security continues and has prompted sen-
need for the Department and the center to (1) improve plans for         ior management officials in the operating units to increase their
major systems activities to support CSC’s budget submission and         attention to this area. As a result the Department has made sig-
capital asset planning, (2) track the actual cost of major system       nificant progress over the past year in establishing the foundation
activities, (3) improve the CAMS Capital Asset Plan and CAMS            for an effective information security program, but much remains
Quarterly Reports, and (4) use an automated management system           to be done, given the severity of Commerce’s information secu-
to monitor cost, schedule, and technical performance.                   rity weaknesses and the magnitude and complexity of the effort
                                                                        needed to address them.
The Department’s response indicates it is taking actions consis-
tent with our recommendations: it is working to improve the             For example, we found numerous systems operating without
CAMS budgeting process as the project moves into the opera-             required risk assessments or approved security plans. Some that
tions and maintenance phase, has begun tracking actual costs as         had approved security plans provided no evidence that risk
of this fiscal year, intends to improve the quarterly reports, and is   analysis—a prerequisite for the security plan—had been con-
working toward a performance-based management system. We                ducted. Most operational systems have not been accredited (that
will continue to monitor development and implementation of the          is, they have not received management’s formal authorization to



2                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                      Major Challenges for the Department



operate, including its explicit acceptance of risk). Those that are    and none were accredited. As with Commerce as a whole, we
accredited frequently lack evidence of the requisite security test-    believe that information security at USPTO is a material weak-
ing and evaluation, thus diminishing the assurance that                ness and should be reported as such until all the bureau’s
accreditation is intended to impart. We believe that in the coming     mission-critical systems are accredited (see page 45).
year, the Department should focus on implementing approved
security plans of adequate content and quality for all operational     As part of our GISRA review, we assessed USPTO’s implementa-
systems and putting those systems through rigorous certification       tion of system-specific security controls, particularly focusing on
and accreditation processes. The Department reported informa-          the Patent Application Capture and Review System (PACR). The
tion security as a material weakness in its FY 2001                    bureau relies on PACR to capture, store, maintain, retrieve, and
Accountability Report; we believe it should continue to be report-     print digital images of U.S. patent applications and has identified
ed as such until Commerce systems that are part of the nation’s        it as a highly sensitive system. We concluded that physical securi-
critical infrastructure, as well as those that are mission critical,   ty measures in place during our assessment generally provide
have been accredited (see page 53).                                    appropriate protection for PACR equipment. However, we deter-
                                                                       mined that a risk assessment has not been conducted, the security
                                                                       plan is not approved, security controls have not been tested and
NIST Evaluation                                                        reviewed, and contingency planning and specialized security
                                                                       training is needed. USPTO agreed with our recommendations and
As part of our Department-wide GISRA review, OIG assessed the          reported on corrective actions under way or planned (see page 46).
information security program at NIST and found that the bureau
is taking steps to improve its program but has yet to meet many
important security requirements. At the time of our evaluation,        Contract Security Weaknesses
NIST lacked a comprehensive information security program pol-
icy, did not have a documented risk assessment or approved             During this semiannual period we also concluded a review of the
security plan for any of its operational systems, and had accredi-     Department’s IT service contracts, finding that security provi-
tations for only two systems. Since the completion of our              sions to safeguard sensitive but unclassified systems and
fieldwork, the director of NIST has taken important steps toward       information were either insufficient or nonexistent. We recom-
improving information security, including issuing several memo-        mended that the Department (including USPTO) establish
randums acknowledging responsibility for the security of NIST’s        standard contract provisions for safeguarding the security of
data and IT systems and directing all members of senior manage-        unclassified systems and disseminate a clear, detailed policy for
ment to give information security high priority. NIST agreed with      acquiring these systems and services. We further recommended
the findings in our report and has begun to implement our rec-         that the Department determine whether current contracts need to
ommendations (see page 39).                                            be modified to include information security provisions, recogniz-
                                                                       ing that in some cases contract costs could increase as a result of
                                                                       such changes. The Department agreed with our recommendations
Separate GISRA Review for USPTO                                        and is taking steps to correct the deficiencies (see page 51). We
                                                                       will monitor and report on its progress.
In its efforts to position itself as a performance-based organiza-
tion—given the greater independence and flexibility provided by
the American Inventors Protection Act of 1999 (P.L. 106-113)—
the United States Patent and Trademark Office conducts its own         CHALLENGE 3: ENHANCE
information security review and submits its GISRA report sepa-         EXPORT CONTROLS FOR
rately from the Department. OIG must therefore conduct a
separate GISRA assessment of USPTO.                                    DUAL-USE COMMODITIES
Our independent evaluation found that the Under Secretary of           The adequacy of export controls is a continuing concern.
Commerce for Intellectual Property and Director of USPTO has           Opinions vary on how well the government’s export control poli-
made a commitment to protecting the bureau’s information assets        cies and practices balance the need to protect U.S. national
and is devoting additional attention and resources to their securi-    security and foreign policy interests with the desire to promote
ty. But because of inadequate attention to these matters in the        U.S. trade opportunities and competitiveness. Striking this bal-
past, significant weaknesses exist in USPTO’s planning and             ance is a significant challenge for the parties involved,
budgeting for information security and implementation, review,         particularly for Commerce’s Bureau of Industry and Security
and oversight of security measures. At the time of our evaluation,     (BIS), which oversees the federal government’s export licensing
more than 80 percent of the bureau’s operational systems lacked        and enforcement system for dual-use commodities (goods and
risk assessments, about one-third had outdated security plans,         technologies that have both civilian and military uses).



September 2002/Semiannual Report to Congress                                                                                           3
Major Challenges for the Department




             Federal Agencies Participating in the Dual-Use Licensing Program


                                               U.S. Department of Commerce, Bureau of
                                           Industry and Security (BIS), is the primary agency
                                           responsible for managing and enforcing the licens-
                                            ing process for dual-use exports. Dual-use items
                                              are commercial products that could have both
                                                    civilian and military applications.



                                                                                                  U.S. Department of Energy,
        The CIA and the Department                     U.S. Department of State
                                                                                                   Office of Arms Controls and
       of the Treasury (U.S. Customs                   manages and enforces the
                                                                                                 Nonproliferation, Export Control
           Service) provide relevant                 munitions licensing process and
                                                                                                Division, licenses nuclear technolo-
       information to assist Commerce                 advises Commerce regarding
                                                                                                 gy and technical data for nuclear
             with license review.                    dual-use commodity licensing.
                                                                                                power and special nuclear materials.



                                             U.S. Department of Defense, Defense Threat
                                          Reduction Agency—Technology Security, is respon-
                                           sible for the development and implementation of
                                          policies on international transfers of defense-related
                                            technology, and reviews certain dual-use export
                                              license applications referred by Commerce.



Strengthening dual-use export licensing and enforcement requires       Subsequently, the National Defense Authorization Act for Fiscal
new, comprehensive legislative authority to replace the expired        Year 2000, as amended, directed the inspectors general of the
Export Administration Act of 1979 and appropriately address cur-       Departments of Commerce, Defense, Energy, State, and the
rent export control needs and realities. Passed during the Cold        Treasury, in consultation with the directors of the CIA and FBI,
War, the act sought to prevent the export of critical goods and        to report to Congress by March 31, 2000, and annually until the
technologies to Communist bloc countries. In today’s political cli-    year 2007, on the adequacy of export controls and counterintelli-
mate, rogue countries and terrorist groups seeking weapons of          gence measures to prevent the acquisition of sensitive U.S.
mass destruction and the systems to deliver them pose new threats      technology and technical information by countries and entities of
to U.S. national security and foreign policy goals. Legislation is     concern. In addition, the NDAA for FY 2001 requires the OIGs
needed to address these threats, as well as to bolster BIS’s regula-   to discuss in their annual interagency report the status or disposi-
tory authority, stiffen penalties for violations, and demonstrate      tion of recommendations made in earlier reports submitted in
America’s commitment to maintaining strong export controls             accordance with the act. To date, we have completed three addi-
while encouraging other countries to do the same.                      tional reviews of export controls in compliance with the act, as
                                                                       well as three separate follow-up reports.
Given the importance of export controls to national security, we
have devoted considerable attention to the challenges facing BIS.      Although our assessments have identified significant improve-
Specifically, we responded to a request from the Senate                ments in export controls since 1993, the 1999 report detailed
Governmental Affairs Committee to follow up on a 1993 intera-          some weaknesses in the licensing process. First, the processes for
gency OIG review of the export licensing process. At the               commodity classification and commodity jurisdiction were not
conclusion of that follow-up work, we, along with OIGs from the        timely and did not clearly specify the role of each agency.
Central Intelligence Agency and the Departments of Defense,            Second, the intelligence community did not review all dual-use
Energy, State, and the Treasury, issued a special interagency          export license applications or consistently conduct a comprehen-
report in June 1999 on the export licensing processes for dual-use     sive analysis of applications it did review, and license
commodities and munitions.                                             applications were not screened against a key database maintained



4                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                     Major Challenges for the Department



by the U.S. Customs Service. Third, there were some recurring        tion initiatives were in accordance with federal policies and reg-
problems with BIS’s monitoring of licenses that had reporting        ulations. The OIGs found limited effort to coordinate either
requirements.                                                        systems interaction or systems modernization.

Subsequent OIG reviews have added items to the list of areas         In the months since we issued our report on BIS, the bureau has
that require BIS’s attention: the bureau needs to clarify the        taken action to correct some of the weaknesses we identified.
licensing policy and regulations regarding the release of con-       However, OIG recommendations made to the relevant agency
trolled technology—commonly referred to as “deemed                   heads to help ensure better integration of the licensing systems
exports”—to foreign nationals. It also needs to conduct more         and avoid duplication may require action by Congress or OMB.
outreach to federal and private research facilities to ensure that
they are aware of deemed export regulations and apply for
required licenses when appropriate.                                  Focused Priorities

The bureau also needs to improve its management of the list of       The challenges for BIS, as well as for the administration and
controlled dual-use commodities and technologies, known as the       Congress, remain (1) passing a new Export Administration Act,
Commerce Control List. We have recommended that BIS make             (2) targeting federal licensing and enforcement efforts on those
the list more user-friendly, improve the timeliness with which it    exports that present the greatest proliferation and national securi-
implements agreed-upon multilateral changes to the list, and         ty risks, and (3) streamlining or eliminating controls that
address the inappropriate use of national security controls on       unnecessarily hamper trade. We will continue to monitor BIS
some items.                                                          efforts to improve dual-use export controls through the annual
                                                                     reviews required by the National Defense Authorization Act.
Furthermore, we have several concerns about the overall effec-
tiveness of the Committee on Foreign Investment in the United
States (CFIUS), specifically CFIUS’s lack of mandatory foreign
investment reporting, the low number of investigations conduct-      CHALLENGE 4: EFFECTIVELY
ed on company filings, the role of the Treasury in overseeing        MANAGE DEPARTMENTAL
CFIUS activities, and—within Commerce—the division of
responsibilities between BIS and ITA for the CFIUS program.          AND BUREAU ACQUISITION
                                                                     PROCESSES
The interagency OIG review team has agreed to conduct an in-
depth examination of the Committee’s effectiveness as part of its    Federal acquisition legislation in the 1990s mandated sweeping
future work under the National Defense Authorization Act.            changes to the way federal agencies buy goods and services.
                                                                     Today acquisition reform initiatives are well under way, and the
                                                                     task before Commerce has shifted from successfully implement-
Upgrades to Automated Systems                                        ing reform initiatives to effectively managing the processes those
                                                                     initiatives have fostered. Accordingly, we have revised this top
During the last reporting period, we completed a review of           10 challenge to reflect this new focus.
BIS’s efforts to modernize its automated licensing and enforce-
ment systems. These enhancements are important for the               Effective acquisition processes are critical to the Department:
Department because BIS needs a more efficient system for pro-        Commerce annually spends more than $1 billion through con-
cessing export license applications and monitoring/enforcing         tracts and other procurement vehicles. The Department must
compliance. Our review found that BIS has made some                  balance the desire to streamline the acquisition process with the
progress on its systems redesign effort. For example, two com-       need to ensure that taxpayer dollars are wisely spent and laws and
ponents of the system are expected to be implemented in fiscal       regulations followed.
year 2003. However, our review also determined that BIS need-
ed to (1) better plan to ensure the long-term success of the         Acquisition reform was intended to reduce the time and money
project and (2) implement established best practices for infor-      spent purchasing needed goods and services and improve the effi-
mation technology management.                                        ciency of the process. To accomplish these goals, reform
                                                                     initiatives encouraged contracting officers to (1) rely on per-
In addition to our assessment of Commerce’s system, the intera-      formance-based service contracting and use performance-based
gency OIG review team looked at the various automated dual-use       measurement tools such as earned value and risk management,
and munitions export licensing systems—maintained by                 (2) consider past performance as a criterion for selecting con-
Commerce, Defense, Energy, and State—to determine whether            tractors, and (3) make increased use of commercially available
the systems could better interact and whether system moderniza-      products. The initiatives emphasized results-based acquisition



September 2002/Semiannual Report to Congress                                                                                          5
Major Challenges for the Department



and promoted life-cycle management of information technology          concurred with our recommendations and is taking actions to
as a capital investment. For high-volume, low-dollar purchases,       address them.
they called for using the government purchase card whenever
possible to eliminate lengthy procurement lead times.                 The complex nature of certain acquisitions, such as those for per-
                                                                      formance-based IT services, increases the importance of including
The resulting streamlined processes, however, must not neglect        the whole acquisition team in the entire contracting cycle—from
basic acquisition principles: careful acquisition planning, prudent   planning to closeout. Teams should include not only experienced
review of competitive bids, adept contract negotiations, well-        contracting and procurement staff, but also program, technical,
structured contracts, and effective contract management. These        security, budget, financial, logistics, and legal personnel. We
are the principles we focus on in evaluating the Department’s         believe that the inadequacy of security provisions in IT service
performance in meeting this top 10 challenge.                         contracts is attributable, in part, to the lack of sufficient involve-
                                                                      ment of program managers and IT personnel during acquisition
Government-wide, the new acquisition methods have brought             planning, requirements definition, and contract award.
new concerns. Oversight organizations such as the General
Accounting Office (GAO) and OMB’s Office of Federal                   Commerce has continued to implement various reform initiatives
Procurement Policy (OFPP), along with the IG community,               and has taken steps to improve acquisition management.
report a variety of problems with agencies’ implementation of         Automation of the procurement process has been a primary
some procurement practices.                                           focus, as has been the qualifications and training of the acquisi-
    ■   GAO and OIGs have identified problems with some agen-         tion workforce. The Department’s Office of Acquisition
        cies’ use of purchase cards, primarily due to weak internal   Management (OAM) has focused its attention on strengthening
        and administrative controls, improper purchases, lack of      overall management of the procurement function within the
        proper accountability, and inadequate training for            Department and the need for additional tools and training for pro-
        cardholders.                                                  curement staff. According to the Department, efforts OAM is
                                                                      making to improvement management include evaluating
    ■   GAO and OFPP have found deficiencies—such as failure          Commerce’s delegation and warrant program with the goal of
        to obtain competitive quotes—in the use of government-        realigning contracting authorities to increase overall effective-
        wide agency contracts (GWACs) and other multiple              ness and accountability throughout the Department’s
        award instruments.                                            procurement community. OAM has reportedly also launched an
    ■   With the government’s increased emphasis on competitive       initiative to restructure the Department-wide certification pro-
        sourcing, GAO and OFPP remain concerned about the             gram for COTRs. This initiative includes a new training plan to
        procurement practices of many agencies, criticizing in par-   enhance COTR performance and the addition of a performance
        ticular their lack of focus on results.                       plan element to improve their accountability.

We also have concerns about service contracting within the            OAM has taken steps to provide oversight and performance
Department. In past reports we have identified problems with the      measurement of acquisition activities, using a risk management
use of performance-based service contracting: specifically, fail-     program to monitor the effectiveness of reform initiatives
ure to use performance-based task orders where they would be          Department-wide. Furthermore OAM completed a review of pro-
beneficial; insufficient planning for contract administration and     cedures used by operating units to issue task and delivery orders
monitoring; and the need for increased training of contracting        under General Services Administration (GSA) Federal Supply
officer’s technical representatives (COTRs). In this semiannual       Schedules and other multiple award contracts and is working on
period, we completed a review of IT service contracts throughout      reviews of interagency agreements, memorandums of under-
the Department to determine whether they contain information          standing, and purchase card policy. Finally, OAM is
security provisions that adequately safeguard sensitive but           collaborating with the Office of the Chief Information Officer
unclassified systems and information. (See page 51.) We found         and the Commerce budget office to integrate budget and planning
that such provisions were either missing or inadequate and rec-       for IT acquisitions. We are currently reviewing purchase card
ommended that the Department develop policy, incorporate              activities. We will discuss our results in the next semiannual
appropriate contract provisions, and require training to help         report. We will also continue to assess the status of the
ensure that contracts provide for adequate information security       Department’s other acquisition efforts to ensure they meet the
and that acquisition, program, and technical personnel know how       goals of acquisition reform. Where necessary we will make rec-
to plan, implement, and manage such contracts. The Department         ommendations for improvement.




6                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                                                   Major Challenges for the Department




CHALLENGE 5: ENHANCE                                                               Complying with these directives, and related ones, is a complex,
                                                                                   resource-intensive undertaking for Commerce, given the size of
EMERGENCY PREPARED-                                                                its workforce, its diverse and important missions, and the geo-
NESS, SAFETY, AND                                                                  graphical spread of its approximately 500 facilities across the 50
                                                                                   states and 160 offices overseas. Heightened security requires a
SECURITY OF COMMERCE                                                               variety of measures: infrastructure risk assessments, emergency
FACILITIES AND PERSONNEL                                                           backup sites, upgraded physical security, and employee aware-
                                                                                   ness and training, to name a few. The Department’s personnel are
As the threat of terrorism against U.S. interests has escalated at                 being asked to safeguard life and property under emergency cir-
home and abroad, the need to strengthen security and emergency                     cumstances and to ensure that essential functions continue during
preparedness in both the public and private sectors has taken on                   any of a broad spectrum of emergencies. We believe that
new urgency. Federal agencies have rededicated themselves to                       Commerce is making progress on many of these fronts, but the
ensuring the integrity of their operations, the protection of their                challenge is massive.
people, their ability to continue essential services and opera-
tions during a crisis, and the suitability of risk and sensitivity                 In our March 2002 report on the status of emergency prepared-
designations2 for personnel in positions of public trust. As part                  ness and security programs at a cross-section of Commerce
of this national effort, the Department has identified and                         facilities in the Washington, D.C., area and across the nation, we
addressed many of the vulnerabilities in its emergency pre-                        concluded that significant improvements had been made since
paredness plans and procedures and in the physical security of                     September 11 in the Department’s readiness to deal with future
its facilities. It is also working to address identified vulnerabil-               emergencies. However, we noted that significant vulnerabilities
ities in its procedures for designating positions according to risk                still existed. We also identified some significant safety issues at
and sensitivity and for conducting appropriate background                          the Commerce headquarters building in Washington, D.C., and in
investigations of the people hired to fill sensitive and security                  certain NOAA facilities in Seattle, Washington. (See March 2002
positions. Strengthening policies and procedures to ensure the                     Semiannual Report to Congress, pages 77-82.)
thoroughness of personnel background checks is an important
step that must be taken as departmental managers strive to                         Commerce’s challenge to strengthen emergency preparedness,
improve their response capabilities in emergencies and during                      security, and safety extends to its overseas operations, especially
security threats.                                                                  those not collocated with U.S. embassies and consulates. In these
                                                                                   latter situations the Department has primary responsibility for the
Homeland Security Presidential Directive-3 (HSPD-3), dated                         safety and security of its people and facilities. In recent inspec-
March 12, 2002, established a Homeland Security Advisory                           tions of overseas posts operated by the U.S. and Foreign
System for the nation and requires executive branch agencies to                    Commercial Service (US&FCS), we identified the need for more
implement protective physical security measures to reduce vul-                     timely security upgrades, better management of resources, and
nerability or increase response capability during periods of                       improved oversight of security operations. (See March 2002
heightened alert. Subsequently the Department issued a memo-                       issue, page 40, and September 2000 issue, page 47.)
randum to all Commerce operating units directing senior
officials to survey their current safety status and implement any                  Given the heightened awareness of our vulnerability to acts of
measures required by the directive that are not already in place,                  terrorism, the Department will have to regularly revisit its proce-
along with supplementary measures that local conditions may                        dures for ensuring the safety and security of its employees and
require.                                                                           operations, and modify them as needed. We will continue to mon-
                                                                                   itor its efforts in this regard and report our findings accordingly.
In addition, Presidential Decision Directive 67, dated October
1998, directs federal agencies to develop continuity of operations
plans (COOPs) to ensure the performance of essential functions
during any situation that may disrupt normal operations. The                       CHALLENGE 6:
chaos of September 11 highlighted the need for each federal
agency to have a COOP in place that details the orderly transition                 SUCCESSFULLY OPERATE U.S.
to emergency operations and ensures that essential services and                    PATENT AND TRADEMARK
functions continue during a crisis, be it generated by terrorist-
related incidents, natural disasters, or other events.
                                                                                   OFFICE AS A PERFORMANCE-
                                                                                   BASED ORGANIZATION
2
 Risk designations reflect the potential damage an individual in a position of
public trust could cause to the efficiency and integrity of government programs    The American Inventors Protection Act of 1999 established the
and operations. Sensitivity designations reflect the potential adverse impact on
national security associated with a position.                                      U.S. Patent and Trademark Office as a performance-based organ-



September 2002/Semiannual Report to Congress                                                                                                        7
Major Challenges for the Department



ization, giving it greater flexibility and independence to operate    fiscal years 2000 and 2001, virtually negating its efforts to
more like a business. As such, USPTO has not only broader             increase staffing. Trademark filings, on the other hand, peaked in
responsibility for managing its operations but also expanded con-     2000 at 375,000 applications, but declined by 21 percent (to
trol over its budget allocations and expenditures, personnel          296,000) in FY 2001. Because this downward trend is expected to
decisions and processes, and procurement operations.                  continue, the bureau has started to downsize its trademark staff.

Despite the act’s potential benefits, USPTO’s continuing trans-       Our prior audits of USPTO reported on some of the challenges
formation remains a formidable challenge as the agency strives to     facing the bureau in recruiting and training examiners and in hir-
keep pace with increasingly complex technology and customer           ing additional administrative judges to hear appeals. As a
demands for higher quality products and services. In June 2002        performance-based organization, USPTO has greater flexibility
the bureau responded to the concerns of its many stakeholders by      to design incentives to attract and retain these highly skilled
issuing the 21st Century Strategic Plan, which it believes will       employees. During the last semiannual period we completed a
help guide the way to meeting the many challenges that have           review of attrition problems in two patent examiner work groups
accompanied its transition to performance-based operations. The       (see March 2002 issue, page 71). We made a number of recom-
bureau must continue to develop the necessary personnel,              mendations for improving the screening and hiring process and
procurement, and administrative policies, as well as perform-         thereby ultimately improving retention.
ance-oriented processes and standards for evaluating
cost-effectiveness, while meeting its performance goals under the     Construction of New Facility
Government Performance and Results Act (GPRA) and the time-
liness standards of the American Inventors Protection Act.            USPTO and GSA are currently undertaking one of the federal gov-
                                                                      ernment’s largest real estate ventures—construction of USPTO’s
The 5-year strategic plan, according to USPTO, is aggressive and      2.4 million-square-foot office complex in Alexandria, Virginia.
far-reaching, and provides a road map for major changes in            When completed in 2005, the 5-building complex will provide
patent and trademark processes. It is intended to (1) reduce patent   space for USPTO employees and operations currently scattered
pendency from the current 25 months to 18 months by 2008, (2)         among 18 buildings in nearby Crystal City, Virginia. Now that con-
move to a paperless environment and promote e-government, (3)         struction has begun, USPTO must aggressively hold the line on
enhance employee development, (4) explore competitive sourc-          project costs, monitor construction progress, and help ensure the
ing, and (5) improve and maintain quality control. USPTO’s            project stays on schedule and within the legislatively mandated cap
strategic plan also calls for the agency to work with worldwide       on the cost of completing the build-out of the facility’s shell. We
intellectual property offices to create a global framework for        will be monitoring this major challenge and will follow up on
enforcing intellectual property rights.                               issues we identified during the project’s planning and design, such
                                                                      as space planning and allocation, relocation strategies, and actual
Agency management believes that failure to implement the new          versus target costs and completion schedules.
plan will delay USPTO’s full implementation of e-government
initiatives and increase pendency rates. It should be noted, how-
ever, that several of the initiatives envisioned in the
plan-outsourcing preexamination reviews and changing fee struc-
tures, for example-require congressional approval.

During the next 2 years, we will review some of the operational
changes the plan proposes. We view completion of this transition
as critical to USPTO’s operating success and its ability to
address other challenges we identified in recent years, as
described below.

Staffing to Handle Changes in Patent and Trademark
Application Activity

The number of patent application filings skyrocketed in recent
years. In FY 2001 USPTO received more than 326,081 applica-
tions for patents—an 8.9 percent increase over the number
received in FY 2000. To address the expanding workload, USPTO         During construction its working title is "Building E," but USPTO will
hired 789 patent examiners, but lost 700 through attrition during     officially name this structure the Remsen Building. It is scheduled to be
                                                                      completed by the end of 2003.




8                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                                     Major Challenges for the Department



IT Capabilities                                                       satisfactory conclusion. Team members are drawn from center
                                                                      staff and other ITA operating units including Market Access and
USPTO continues to face significant challenges in delivering          Compliance, Trade Development, the U.S. and Foreign
essential information technology capabilities. The American           Commercial Service, and other Commerce agencies, as appropri-
Inventors Protection Act of 1999 requires greater operational effi-   ate. In addition to the activities coordinated by the center, ITA’s
ciency from the bureau, further intensifying the demands placed on    other operating units perform a substantial amount of market
IT solutions and USPTO’s ability to develop new and upgrade           access and trade compliance work. Overall, ITA’s approach to
existing systems. Our March 2002 evaluation of USPTO’s infor-         trade compliance and market access is to try to solve problems at
mation security program found that in general, the bureau’s           the lowest level possible—avoiding formal dispute settlement
documented policies and procedures are consistent with accepted       structures such as the World Trade Organization, which can take
security practices, but many important security requirements are      years to resolve trade disagreements.
not implemented, and fundamental responsibilities are frequently
not carried out (see March 2002 issue, page 74). USPTO concurred      On the import side, unfair foreign pricing and government subsi-
with our findings and has begun implementing our recommenda-          dies can disrupt the free flow of goods and adversely affect U.S.
tions. While the results of our evaluation suggest that information   companies’ global competitiveness. ITA’s Import Administration
security has yet to become an integral part of USPTO’s business       (IA) works with the International Trade Commission to enforce
operations, the bureau’s response to our recommendations indi-        the nation’s antidumping and countervailing duty laws. IA inves-
cates genuine concern about the security of its IT systems and a      tigates complaints from U.S. industries against foreign producers
commitment to a stronger security program (see page 45).              and governments to determine whether dumping or subsidization
                                                                      has occurred and, if so, to what extent. The commission deter-
                                                                      mines whether U.S. industry has suffered material injury as a
                                                                      result of the dumped or subsidized products. If both agencies
CHALLENGE 7: INCREASE                                                 determine that injury has occurred, IA instructs the U.S. Customs
                                                                      Service to assess duties against imports of those products.
INTERNATIONAL
COMPLIANCE WITH TRADE                                                 In 2001 GAO identified monitoring and enforcement of trade
                                                                      agreements as a major management issue for Commerce, citing
AGREEMENTS AND EXPAND                                                 two main reasons for this problem—first, the Department’s
MARKET ACCESS FOR                                                     shortage of staff with the expertise to monitor compliance with
AMERICAN EXPORTERS                                                    trade agreements, and second, its difficulty obtaining balanced,
                                                                      comprehensive input from the private sector.
To compete effectively in today’s global marketplace, U.S. com-
panies need help addressing unfair trade practices, violations of     The Secretary of Commerce has taken steps to address the con-
trade agreements, inadequate intellectual property protection, and    cerns of both Congress and GAO by making monitoring and
other impediments to the import and export of goods and servic-       enforcing trade agreements a top priority for ITA and for the
es as well as addressing confrontational situations with foreign      Department as a whole. Commerce received additional funding
firms operating in U.S. markets. Commerce must ensure that its        for trade compliance activities in FY 2001.
trade compliance and market access efforts adequately serve U.S.
companies by helping expand trade, open world markets, and            To effectively monitor and enforce trade agreements, ITA must
eliminate unfair competition from imports priced at less than fair    maintain sufficient staff. Currently, we are reviewing ITA’s abili-
market value or subsidized by foreign governments.                    ty to recruit, hire, and retain personnel for selected positions on
                                                                      the Market Access and Compliance staff.
Commerce, through various offices within the International
Trade Administration, works with the Office of the U.S. Trade         To improve compliance with trade agreements, ITA also needs to
Representative, the Departments of State and Agriculture, and         promote a more coordinated federal effort. We noted that the
numerous other federal agencies to monitor and enforce trade          bureau’s trade agreement compliance process, as managed by the
agreements. The number and complexity of agreements have              Trade Compliance Center, needs to better coordinate and track
increased substantially in recent years.                              trade compliance and market access activities within ITA. The
                                                                      results of this review are described on page 50 of our March 2002
To help in its compliance efforts, ITA created the Trade              Semiannual Report to Congress.
Compliance Center in 1996. The center monitors U.S. trade
agreements and reviews complaints from a variety of sources.          In the future, we intend to review other aspects of ITA’s approach
When warranted, it forms a compliance team to bring a case to         to market access and trade compliance, as well as its administra-




September 2002/Semiannual Report to Congress                                                                                          9
Major Challenges for the Department




              The Magnuson-Stevens Act of 1976 established a U.S. exclusive economic zone (EEZ), which ranges between 3 and 200
              miles offshore and consists of areas adjoining the territorial sea of the United States, the Commonwealth of Puerto
              Rico, the Commonwealth of the Northern Mariana Islands, and U.S. overseas territories and possessions. NMFS is
              responsible for conserving and managing the fish, sea turtles, whales, seals, dolphins, and other marine mammals and
              their habitats within the EEZ.


tion of the antidumping and countervailing duty regulations. In           managing marine fisheries and established a regional fishery
the meantime, ITA must work closely with U.S. companies, other            management system to help the agency carry out its mission. A
federal agencies, and foreign governments to identify trade com-          1996 amendment to the act strengthened NMFS’s role in protect-
pliance problems, develop workable solutions for them, and thus           ing and sustaining fisheries.
enhance American firms’ access to foreign markets.
                                                                          The Department has reported that overfishing and overcapitaliza-
                                                                          tion in commercial and recreational fisheries have resulted in
                                                                          estimated losses of billions of dollars in economic growth, thou-
CHALLENGE 8: INCREASE THE                                                 sands of jobs, and countless fishing opportunities. While certain
                                                                          fisheries appear to be well managed and produce positive bene-
EFFECTIVENESS OF MARINE                                                   fits, others are severely depleted and must be restored and
RESOURCE MANAGEMENT                                                       properly managed to realize their long-term potential. At the
                                                                          same time, threatened or endangered fish species need to be
For nearly 30 years the National Marine Fisheries Service                 replenished. Among 52 distinct groups of Pacific salmon, for
(NMFS) has had to balance two competing interests: promoting              example, 26 are threatened or endangered.
commercial and recreational fishing as vital elements of our
national economy and preserving populations of fish and other             NMFS has recently taken steps to restore Pacific salmon runs. In
marine life. The Marine Mammal Protection Act of 1972 and the             accordance with the Endangered Species Act, the agency’s spe-
Endangered Species Act of 1973 gave NMFS responsibility for               cific responsibility is to manage protected species through
preventing the extinction of marine fish, mammals, and turtles, as        conservation programs and recovery plans. Its Federal Columbia
well as anadromous fish, such as Pacific salmon, which migrate            River Power System 2000 Biological Opinion and the broader
between the ocean and inland waterways. The Magnuson-                     Federal Caucus Basin-wide Salmon Recovery Strategy estab-
Stevens Act of 1976 made NMFS the primary federal agency for              lished performance standards to guide recovery of Pacific salmon



10                                                                                    U.S. Department of Commerce/Office of Inspector General
                                                                                                      Major Challenges for the Department



in the Columbia River Basin. NMFS has also put together teams         set goals for program performance and report outcomes meas-
to develop recovery plans for threatened and endangered Pacific       ured against those goals. As the administration moves toward
salmon species.                                                       integrating budget and performance information and using per-
                                                                      formance data to make funding decisions, the credibility of
OIG recently evaluated the role of NMFS’s Northwest Fisheries         reported performance results will be critical.
Science Center in supporting salmon recovery efforts. We focused
on the center’s implementation of its Salmon Research Plan,           Since 1997 OIG has assessed Commerce’s efforts to implement
which establishes priorities to ensure that the most important sci-   GPRA. To ensure the collection and reporting of accurate, appro-
entific work is conducted. While the plan is an important step        priate, reliable, and useful data to decision makers, this office has
toward meeting the center’s goal of strengthening its salmon              ■   provided implementation advice and assistance,
research program, we found a number of deficiencies. As a result,
we recommended that the center improve its peer review process-
                                                                          ■   monitored reviews by certified public accounting
es, implement comprehensive multiyear plans to measure                        firms of performance data contained in the annual
progress in meeting the goals of the Salmon Research Plan from                financial statements,
one year to the next, and develop better procedures for monitoring        ■   made presentations to departmental officials on the
and evaluating ongoing research and related costs. (See page 32.)             importance of ensuring that performance-related
                                                                              information is reliable,
We also completed a review of NMFS’s plans to design and                  ■   given informal comments to the Department on
construct the first of possibly four acoustically quiet, state-of-            various GPRA-related documents, and
the-art fisheries research vessels and found a number of                  ■   audited internal controls for selected data on
management control weaknesses. For example, the National
                                                                              bureau performance.
Oceanic and Atmospheric Administration (NOAA) has not
enforced the contract’s scheduling requirements, adequately
tracked program costs, fully documented the program’s man-            Although we believe the Department has made progress toward
agement structure, or maintained an official contract file for the    meeting the challenge of how best to plan and measure its per-
acquisition. (Details regarding these and our other findings          formance, significant opportunities for improvement remain. For
appear on page 31.)                                                   one, Commerce should clearly articulate the level of reliability
                                                                      that can be placed on the performance data it provides in its
We are currently evaluating methods used to enforce fisheries         Annual Program Performance Report to meet GPRA and other
management plans. We intend to monitor NOAA’s efforts to              reporting requirements.
increase the effectiveness of its marine resource management and
will follow up on actions it takes in response to our recommen-       Also, our audits of several performance measures used by depart-
dations regarding the Northwest Fisheries Science Center and the      mental units (BIS, NIST, NTIA, and USPTO) indicate a
vessel acquisition program.                                           widespread need for stronger internal controls to ensure accurate
                                                                      reporting of performance data and improved explanations and
                                                                      disclosures of results. For example, procedures should be estab-
                                                                      lished to ensure that (1) reported information is reconciled
                                                                      against supporting data and (2) only data from the appropriate
CHALLENGE 9: CONTINUE TO
                                                                      time period is included in performance results.
IMPROVE THE DEPARTMENT’S
STRATEGIC PLANNING AND                                                These issues are again emerging in our current audit of selected
                                                                      performance measures at NOAA. We are concerned that—for the
PERFORMANCE                                                           measures we are evaluating—NOAA may need to (1) improve
MEASUREMENT IN                                                        internal controls, (2) restate data that was incorrectly reported in
ACCORDANCE WITH THE                                                   the past, (3) provide additional disclosures and explanations of
                                                                      performance results, and (4) assess the value of certain measures
GOVERNMENT PERFORMANCE                                                to determine whether they should be dropped, revised, or
AND RESULTS ACT                                                       unchanged.

Congress and agency managers require relevant performance             We will continue to evaluate performance measurement and
measures and credible performance data to effectively fulfill their   reporting at NOAA and other bureaus and, as warranted, make
oversight responsibilities with respect to federal programs. The      recommendations to the Department and its operating units
Government Performance and Results Act of 1993 was designed           regarding the accuracy, appropriateness, reliability, and useful-
to ensure the availability of such data by mandating that agencies    ness of its performance data.




September 2002/Semiannual Report to Congress                                                                                         11
Major Challenges for the Department




CHALLENGE 10: EFFECTIVELY                                             Major Construction and Renovation
                                                                      Projects (Current and Planned as of
MANAGE MAJOR                                                          9/30/02)
COMMERCE RENOVATION
                                                                        Operating Unit     Number of Projects       EstimatedCosts
AND CONSTRUCTION                                                                                                     (in millions)
PROJECTS
                                                                        NOAA                         27                   $558
The Department has plans for numerous major3 renovation and
construction projects:                                                  NIST                          2                   $235
       ■   NOAA has 27 projects scheduled or in process. These          USPTO                         1                 $1,200
           include modernization of the National Ocean Service’s
                                                                        Census Bureau                 1                   $340
           Marine and Environmental Health Research lab in South
           Carolina, and a National Marine Fisheries Service lab        Office of the Secretary       1                   $360
           in Hawaii.
                                                                      Note: A project may include more than one building.
       ■   NIST will continue its multimillion-dollar program to      Source: Commerce Office of Real Estate Policy and Major Programs.
           upgrade existing laboratories in Gaithersburg, Maryland,
           and Boulder, Colorado, and to complete construction of
           the Advanced Measurement Laboratory building, a new        Effective renovation and construction management is a critical
           facility in Gaithersburg, Maryland.                        challenge for the Department because of the numerous inherent
       ■   USPTO is implementing its billion-dollar plan to           risks involved in planning and managing large, costly, and com-
           consolidate employees and operations in a new, five-       plex capital improvement and construction projects.
           building facility under construction in Alexandria,        Departmental leadership and OIG oversight are needed to max-
           Virginia (see page 8).                                     imize Commerce’s return on its investment in these projects.
                                                                      Past OIG reviews of major renovation and construction ventures
       ■   The Census Bureau intends to construct two buildings at    have demonstrated that up-front oversight—that is, close moni-
           its headquarters in Suitland, Maryland, to provide         toring during planning and implementation—is essential.
           employees with safe, modern facilities.                    Detecting and addressing potential problems during the devel-
       ■   Commerce plans to modernize its headquarters building      opmental stages rather than after a project is completed save
           in Washington, D.C.                                        time and money. For this reason, we plan to actively monitor the
                                                                      progress of some of the Department’s current and planned con-
                                                                      struction projects at Census, NIST, NOAA, USPTO, and other
                                                                      locations as appropriate.




3
    Projects costing $2 million or more are considered major.




12                                                                               U.S. Department of Commerce/Office of Inspector General
                       Department of Commerce
                       Organization Chart




September 2002/Semiannual Report to Congress    13
                             BUREAU OF INDUSTRY
                             AND SECURITY


 T       he
         Bureau of
         Industry and
 Security is primarily responsi-
 ble for administering and enforcing
                                         SOME KEY RECOMMENDATIONS FROM
                                               EXPORT CONTROL REVIEWS REMAIN
                                                   UNIMPLEMENTED
 the nation’s system for controlling                     As required by the National Defense Authorization Act, we conducted our annu-
 exports of sensitive dual-use goods and                  al follow-up review on the status of recommendations regarding dual-use export
 technologies. BIS’s major functions                         controls for which Commerce operating units—principally the Bureau of
 include formulating and implementing export                  Industry and Security—are responsible. This year’s review looked at rec-
 control policy; processing export license appli-               ommendations from the three reports we have issued thus far: (1)
 cations; conducting various policy, technical,                  Improvements Are Needed in Programs Designed to Protect Against the
 and economic analyses; promulgating regulations;                 Transfer of Sensitive Technologies to Countries of Concern (March
 conducting industry outreach; and enforcing the                    2000), (2) Management of the Commerce Control List and Related
 Export Administration Act and regulations. BIS’                     Processes Should Be Improved (March 2001), and (3) BXA Needs to
 activities also include promoting federal initiatives               Strengthen Its ECASS Modernization Efforts to Ensure Long-Term
 and public-private partnerships across industry sec-                 Success of the Project (February 2002).
 tors to protect the nation’s critical infrastructures. BIS
 is divided into two units:                                           These Department-specific assessments are conducted in addition to
                                                                       the annual interagency reviews we perform with the inspectors gen-
 Export Administration implements U.S. export con-                    eral of Defense, Energy, State, and the Treasury in consultation with
 trol and nonproliferation laws and policies through                  the directors of the CIA and FBI.
 export licensing, commodity classifications, and advi-
 sory opinions; technical, economic, foreign                          We found that, while BIS has taken action on some of our recom-
 availability, and policy analyses; promulgation of                  mendations, key recommendations from all three reports have yet to
 regulations; and industry outreach. It also conducts               be acted on. With the exception of one open item, BIS has responsibil-
 various defense industry activities and enforces                  ity for implementation of the recommendations.
 industry compliance with arms control treaties.

 Export Enforcement participates in reviews
 of export license applications and conducts                REVIEW RESULTS
 criminal and administrative investigations
 relating to the export control portions of             March 2000
 the Export Administration Act and
 regulations. It also administers and              The focus of our first-year NDAA review was enforcement and implementation of
 enforces the antiboycott provi-                the deemed export regulations,4 as well as industry and federal compliance with them;
 sions of the act and                       the effectiveness of the Visa Application Review Program; and BIS’s success at supporting
 regulations.                          federal efforts to monitor foreign investment in U.S. companies. We made 24 recommenda-
                                    tions to BIS, NOAA, ITA, and NIST for improving programs designed to protect against the
                              transfer of sensitive technologies to countries of concern. Five of our 24 recommendations remain open.
                      Four of these were addressed to BIS, and concern the need to (1) discuss with NOAA the applicability of deemed


4
  According to the Export Administration Regulations, any release to a foreign national of technology or software subject to the regulations is deemed to be an export
to the home country of the foreign national. These exports are commonly referred to as “deemed exports,” and may involve the transfer of sensitive technology to for-
eign visitors or workers at U.S. research laboratories and private companies.




14                                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                                                Bureau of Industry and Security



export controls to NOAA’s activities; (2) work with the             nisms, and feasibility of established time frames; (3) validate sys-
National Security Council to review the deemed export policy        tems requirements; (4) document security requirements and
and process; (3) improve the investigative tracking system          calculate associated costs; (5) revise and approve the project
regarding visa referral information; and (4) periodically assess    management plan; (6) complete target architecture and select a
the visa application review program and develop performance         location for ECASS; (7) determine whether the Department of
measures to help determine whether resources dedicated to the       Defense can use ECASS for its licensing needs; (8) work with
program are justified.                                              other licensing agencies to develop a central data repository for
                                                                    records pertaining to reviewed license applications; and (9)
The remaining open recommendation urged NOAA to establish           develop an interagency agreement that documents the responsi-
procedures for ensuring that any technical information or know-     bilities and coordination of all dual-use licensing agencies.
how it releases to foreign nationals complies with federal export
licensing requirements.

                                                                    PROMPT ACTION NEEDED
March 2001
                                                                    Given BIS’s key role in administering the dual-use export control
We examined BIS’s policies and procedures for the design, main-     process, we believe the bureau should take quick action to
tenance, and application of the Commerce Control List (CCL),        address all of the open recommendations.
which specifies the commodities, software, and technologies sub-
ject to Export Administration Regulations. We made 14
recommendations for improving the list and related operations;      Status of OIG Recommendations
the bureau has fully implemented only 5. The remaining open
items deal with improving various aspects of the CCL, the com-        Fiscal                    Number of                             Number
modity classification process, commodity jurisdiction                 Year                   Recommendations                          Closed
determinations, and licensing of night vision technology.
                                                                      2000                            24*                                 19
                                                                      2001                            14                                    5
February 2002
                                                                      2002                            13                                    4
Our most recent review assessed BIS’s efforts to modernize its      * Combined number of recommendations made in our March 2000 report on pro-
Export Control Automated Support System (ECASS) for dual-           grams designed to protect against transfer of sensitive technologies to countries
use export licensing. We examined whether the bureau had            of concern, made to BIS, NOAA, ITA, and NIST.
adequately considered life-cycle resources and business process
changes; developed a realistic system-design schedule; and
established an infrastructure for monitoring costs, schedule, and
deliverables. BIS has fully implemented only 4 of our 13 recom-     In addition, we asked BIS to look into our concerns about the
mendations. Action is still needed to (1) factor into ECASS, as     adequacy of export license application review by one of the other
appropriate, changes proposed in the 1998 business process          federal agencies involved in the process and to open discussions
reengineering study and a 2001 internal licensing task force        with that agency about its limited analysis of license applications.
report; (2) determine needed resources, potential funding mecha-    (OFFICE OF INSPECTIONS AND EVALUATIONS: IPE-15290)




September 2002/Semiannual Report to Congress                                                                                                    15
                                ECONOMIC DEVELOPMENT
                                ADMINISTRATION


T         he
          Economic
          Development
Administration was estab-
lished by the Public Works and
                                      EDA helps American businesses generate
                                         employment and America’s communities
                                             weather adverse economic events or
                                                 trends. To fulfill its mission, EDA has
                                                    developed eight assistance pro-
                                                                                                   EDA Assistance Programs
                                                                                                            Public Works Program
                                                                                                       Economic Adjustment Program
Economic Development Act of 1965                       grams,      which    it  refers  to   as        Research  and National Technical
to generate new jobs, help retain exist-                 “investment       programs,”      that              Assistance  Program
ing jobs, and stimulate commercial and                      provide financial assistance              Partnership Planning for Economic
industrial growth in economically distressed                  through grants to state and           Development Districts, Indian Tribes,
areas of the United States. EDA continues to                    local governments and                      and Other Eligible Areas
fulfill this mission under the authority of the                  nonprofit economic de-
                                                                                                        Short-Term Planning to States,
Economic Development Administration Reform                         velopment organizations.
                                                                                                         Sub-State Planning Regions,
Act of 1998, which introduced the concept of                        The monies are used to
                                                                                                               and Urban Areas
Comprehensive Economic Development                                  fund such efforts as
Strategies, a local planning process designed to                     economic development           Technical Assistance Program (Local)
guide the economic growth of an area. Based on                       planning,   public works             University Center Program
these locally and regionally developed strategies,                    projects, and revolving
                                                                                                    Trade Adjustment Assistance Program
EDA works in partnership with state and local gov-                    loan funds.
ernments, regional economic development districts,
public and private nonprofit organizations, and
Indian tribes to help distressed communities
address problems associated with long-term eco-                      REVOLVING LOAN FUNDS
nomic deterioration and recent, severe economic
dislocations, including recovery from the eco-                     EDA’s Economic Adjustment Program provides, among other things, grants
nomic impact of natural disasters, the closure of                 to capitalize revolving loan funds (RLFs). As of September 30, 2002, there
military installations and other federal facili-                 were 611 RLFs with a total of $550 million in federal funds. The program
ties, changes in trade patterns, and the                       focuses on communities and regions that have experienced or are threatened
depletion of natural resources. EDA pro-                     by serious structural damage to their underlying economic base. RLFs offer
vides eligible recipients with technical                   loans to local businesses that otherwise cannot secure sufficient private financing.
assistance, as well as grants for public                During this semiannual period we completed audits of 9 revolving loan funds, sev-
works and economic development,                       eral done at the request of EDA, and found that of these, 6 have excess cash reserves
planning, training and research,                   resulting from lack of demand for loans and 8 committed significant violations of pro-
and economic adjustment.                       gram regulations including mismanagement of funds. Recommendations to correct these
                                          problems involve $9.2 million in funds that could be put to better use. EDA management has
                                       been active in implementing our recommendations.


        AUDIT PREVENTS INELIGIBLE LOANS
BEING MADE IN OKLAHOMA

In February 1999 an Oklahoma development district received a $350,000 Long-Term Economic Development (LTED) grant to capital-
ize a revolving loan fund. The grant agreement required the district to provide a $117,000 matching share, which brought the RLF’s total
capitalization to $467,000. Like other RLF grant agreements, it also required that the recipient meet grant disbursement milestones.




16                                                                                   U.S. Department of Commerce/Office of Inspector General
                                                                                                    Economic Development Administration



During our September 2001 audit of the RLF (ATL-14301-1) to           In November 2001 EDA asked the city to calculate the current
determine why the district had not drawn down any of the grant        dollar value of the RLF so that termination could be finalized, but
funds, we found that the lack of funds usage (therefore, failure to   the city claimed it was unable to do so. EDA then asked us to
meet RLF disbursement milestones) resulted from a lack of             determine the RLF balance due.
demand for RLF program loans. We recommended, therefore,
that EDA terminate the award and deobligate the grant funds.
EDA concurred and complied with our recommendations.                  City failed to account for RLF assets

The district, however, appealed the agency’s decision, stating that   Our audit found that the city failed to maintain adequate records
it had approved two loans at about the time EDA terminated the        to account for RLF principal, interest earned, loan repayments,
grant and claimed that the RLF was legally obligated to fund the      and other financial aspects of the EDA award. The RLF agree-
loans. EDA’s appeal decision instructed the district to provide a     ment obligated the city to submit semiannual reports to EDA, but
legal opinion that the two loan commitments were legally bind-        it had not done so for a decade. Its last report, issued in 1992,
ing and certify that the loans were made in compliance with           revealed total RLF assets of $335,540: $47,002 in cash and
program requirements. The decision also provided for an OIG           $288,538 in outstanding loans. During our 2002 audit we found
audit of the two loan applications. We conducted our audit in         that the city had two accounts relating to the RLF with combined
May 2002 and determined that neither application was in com-          assets of $216,570 as of December 31, 2001. However, we had
pliance with RLF requirements, which generally do not permit          no basis to conclude that the balances in these accounts accurate-
loans to borrowers who can obtain financing from private              ly reflected the current RLF balance because the city was unable
lenders, because both applicants were eligible to obtain private      to provide us with any transaction histories to allow us to deter-
funding. In fact, one borrower had been offered a loan with an 8.5    mine whether loan repayments and interest were properly
percent interest rate from a local bank but accepted the RLF loan     credited or whether any inappropriate withdrawals had been
because its interest rate was 6 percent. The second borrower          made.
applied for funding to expand his company but was shown dur-
ing our audit to have already obtained alternative financing.
                                                                      City failed to adequately pursue
Based on our findings, we recommended that EDA neither obli-          defaulted loans
gate nor disburse the $300,000 federal share requested by the
district to fund the two loans. While it disagreed with our inter-    In 1992 the city reported three defaulted loans totaling $62,307
pretation of program requirements, the district concurred with        and three current loans for $226,231. Our review of the 1992 loan
our audit findings, as did EDA. Implementing our recommenda-          files indicated that the city did not adequately pursue collection
tion will allow $300,000 in EDA funds to be put to better use.        on the defaulted loans. Of the then-current loans, one has since
(ATLANTA REGIONAL OFFICE OF AUDITS: ATL-14301-2)                      been paid in full and the other two are in default. Two of the
                                                                      defaulted borrowers, who together owe the RLF more than
                                                                      $140,000, still operate the businesses for which the loans were
TERMINATION FOR CAUSE                                                 made. Although the city appeared to make some initial collection
PROMPTED BY GROSS                                                     efforts in 1993, there was no information in loan files to docu-
                                                                      ment whether attempts have been exhausted or collections made.
MISMANAGEMENT OF OHIO                                                 Because the city neglected its obligations under the RLF award
LTED GRANT                                                            by failing to pursue collection in a prudent and timely manner, we
                                                                      have held the city accountable for the total amount of the default-
At EDA’s request we performed an audit of an RLF established          ed loans in computing the value of the RLF.
in 1980 through a $400,000 LTED grant awarded to an Ohio city.
Our objective was to determine the fund’s current assets so that
EDA could terminate the award and recoup the fund balance.            Fund administrator improperly borrowed
                                                                      $38,223 from the RLF
The audit, conducted in February 2002, was our second exami-
nation of this RLF. The first, conducted in 1991, revealed            We found that between 1991 and 1993, the city improperly
management and compliance deficiencies so serious that we rec-        allowed its loan administrator to borrow $38,223 from the RLF
ommended EDA phase out the grant and obtain repayment of the          to continue operations over a 2-year period, and there was no evi-
RLF balance—$178,769 (DEN-0298). EDA concurred with                   dence of repayment. We therefore determined that the city should
these recommendations, but has since been unable to obtain            be held accountable for the amount borrowed, which was includ-
either the balance or the documents needed to terminate the grant.    ed in the cash asset total we used to calculate monies due to EDA.




September 2002/Semiannual Report to Congress                                                                                       17
Economic Development Administration



$513,480 due to EDA on termination of                                 Our audit also disclosed that the city was not in compliance with
the RLF                                                               several RLF administrative requirements regarding submission
                                                                      of mandated RLF status reports and annual plan certifications to
When a recipient fails to comply with the conditions of an RLF        EDA. In addition, $57,977 in unsupported administrative costs
grant and fails in its fiduciary responsibilities as trustee, EDA     was charged to the RLF during the audit period. To correct the
may terminate the grant for cause and recover its fair share of the   administrative findings, we recommended that EDA require the
RLF’s value. Due to the seriousness and persistence of the city’s     city to submit annual RLF plan certifications, ensure that semi-
compliance failures, we recommended that EDA take immediate           annual status reports are accurate and timely, and reimburse the
action to terminate the grant and obtain reimbursement for the        fund for $57,977 in unsupported administrative costs.
current value of the RLF, which we calculated to be $513,480,
based on the 1992 fund balance of $335,540 plus imputed inter-        City officials agreed with the audit findings, noting that our rec-
est of $l77,940 as of December 31, 2001. EDA concurred with           ommendations either have been or would soon be implemented.
our recommendations. (DENVER REGIONAL OFFICE OF                       (ATLANTA REGIONAL OFFICE OF AUDITS: ATL-15125)
AUDITS: DEN-14962)


                                                                      ARKANSAS DISTRICT CITED FOR
NEW YORK RLF MAINTAINED                                               UNALLOWABLE LOANS,
EXCESS CASH RESERVES FOR 11                                           UNCOLLECTED DEBT, AND
YEARS                                                                 UNSUBMITTED DOCUMENTATION
In September 1979 EDA awarded a $2,223,000 LTED grant to a            In 1978 an Arkansas economic development district received a
city in New York to establish an RLF. One year later the award        $720,000 Economic Adjustment Assistance grant to establish a
was amended to add $1,777,000, increasing the RLF’s capitaliza-       revolving loan fund with which to implement a comprehensive
tion to $4 million. In May 1997 EDA approved the city’s request       economic adjustment program for nine Arkansas counties. No
to amend the grant agreement, allowing the city to use RLF funds      local match was required.
to make loan guarantees.
                                                                      Our audit, conducted during April 2002, evaluated the district’s
At EDA’s request we performed a financial and compliance audit        financial management of the RLF and its compliance with appli-
during April 2002 to determine (1) the financial status of the        cable administrative requirements. Based on our examination of
RLF; (2) the city’s compliance with applicable federal laws and       16 loans active as of September 30, 2001, the following instances
regulations, and terms and conditions of the grant; and (3)           of noncompliance were found:
whether specific administrative costs charged to the RLF were             ■   From 1992 through 2001 the district awarded 16 loans;
allowable.
                                                                              12 of them had a $264,000 leverage shortfall. For the
                                                                              remaining 4, although $565,000 was proposed as
Our audit disclosed that the fund had $2,375,749 in excess cash
                                                                              leverage, the district did not confirm $294,000 of the
as of March 2002 and had maintained excess funds for at least
                                                                              proposed amount.
11 years, in violation of EDA guidelines and RLF program
objectives. The excess resulted from the city’s prolonged low             ■   The district awarded three loans totaling $140,000 to
level of RLF activity: the city ceased making loans in early                  refinance existing debt, a use program requirements
1994, and only five loan guarantees have been made since 1997.                generally prohibit. (Certain limited exceptions apply, but
Although the city has recently identified several opportunities               they must be properly documented.) In addition, one of
for rejuvenating the program, we recommended that EDA                         the loans was in default.
require the city to                                                       ■   The district failed to comply with the EDA requirement
    ■   deposit the $2,375,749 in excess funds into a separate,               that sound management procedures be used to collect
        interest-bearing account and remit the interest monthly to            payments on RLF loans. Six loans awarded to five
        the U.S. Treasury;                                                    borrowers from 1992 through 1999 lingered in long-term
                                                                              default, with outstanding balances totaling $221,247 and
    ■   use the excess funds within 6 months to make direct
                                                                              past due interest totaling $93,707. Two loans to one
        loans or loan guarantees in accordance with RLF
                                                                              borrower had been in default since October 1993, with
        program objectives; and
                                                                              outstanding balances totaling $109,569 and past due
    ■   remit unused excess funds in the account after 6 months               interest totaling $61,178; yet the district had failed to
        to the U.S. Treasury.                                                 take action to collect on the loans.



18                                                                                U.S. Department of Commerce/Office of Inspector General
                                                                                                        Economic Development Administration



RLF Grants Improperly Awarded                                     and $93,707 for past due interest; (4) submit annual reports to
to Refinance Existing Debt                                        EDA in a timely manner; and (5) submit a revised RLF plan that
(for period ending September 30, 2001)                            includes written procedures for monitoring and servicing its RLF
                                                                  loans and handling defaulted loans. (DENVER REGIONAL
  Borrower                 Loan Amount               Balance      OFFICE OF AUDITS: DEN-15019)
        1                     $ 50,000              $ 40,036*
        2                       10,000                 6,236
        3                       80,000                79,709
   Totals                     $140,000              $125,981

*Loan in default at time of OIG audit.


RLF Loans in Default
(for period ending September 30, 2001)

                    Loan           Past Due        Principal
  Borrower         Amount          Interest        Balance
        1         $100,000           $50,473        $ 94,569
        2            15,000              10,705       15,000
                                                                  Lack of written documentation (for example, proof of fire insurance)
        3            50,000               6,240       40,036      increases the risk that RLF funds are not being administered in accor-
                                                                  dance with EDA regulations, placing federal funds at risk.
        6            25,000               6,597       22,974
        5            30,000              11,877       28,668
        6            20,000               7,815       20,000
                                                                  EXCESS CASH RESERVES,
  Totals          $240,000           $93,707       $221,247
                                                                  IMPROPER CLAIMS, AND
Note: Borrowers #1 and #2 are the same company.                   NONCOMPLIANT INDEPENDENT
                                                                  AUDITS FOR MICHIGAN RLF
    ■   From October 1, 1995, until September 20, 2001, the       In 1979 a Michigan city received a $4.85 million LTED grant:
        district did not submit required financial reports.       $1.8 million as a direct loan and $3.05 million for a land write-
    ■   The district did not have written procedures or proper    down program.5 In 1980 EDA transferred $1 million from the
        documentation for monitoring and servicing RLF loans,     write-down program to the city to establish an RLF to address
        as required by EDA. Its loan files consistently lacked,   major industrial dislocations and consequent unemployment.
        among other things,                                       (EDA terminated the program’s remaining $2.05 million in
           - loan applications and committee approvals;           1983.) In 1988 $600,000 of an EDA RLF grant to the state of
           - evidence of leveraging or borrower equity,           Michigan was transferred to the city. Thus the RLF’s total capi-
             or insurance;                                        talization was $1.6 million.
           - credit checks and verification of funds used as

             intended; and                                        As of September 2001, the city reported having made 80 loans:
           - records of correspondence with the defaulted         61 had been fully repaid, 14 were active, and 5 written off.
             borrower.                                            Income earned on the RLF had increased its capital balance to

We recommended that EDA require the district to (1) recall        5
                                                                    Land write-down: A subsidy offered when a development authority acquires a
$85,945 in outstanding balances on the two loans made to refi-    property and sells/transfers it to a private developer for less than the acquisition
nance existing debt; (2) confirm leveraging of $294,000 for two   price as an incentive for business development. Example: if a city sells a
                                                                  cleared land parcel to the developer for $1 instead of the assessed value of
RLF borrowers and ensure that future loans are properly lever-    $200,000, then the developer would have received a subsidy of $199,999 over
aged; (3) pursue collection of $221,247 for six defaulted loans   what was required to enable the project to proceed.




September 2002/Semiannual Report to Congress                                                                                                    19
Economic Development Administration



about $2.9 million—$913,441 in outstanding loans and                  The city agreed and subsequently provided documentation that
$2,023,720 in cash.                                                   the claimed amount actually had been incurred. It also stated
                                                                      that—as we had recommended—it had revised its accounting
We audited the RLF in February 2002 to evaluate the city’s finan-     system to record administrative costs in the general ledger. In our
cial management of the fund and its compliance with                   final report we recommended that EDA ensure that the city’s
administrative and loan documentation requirements. Our audit         administrative cost claims are based on actual expenses incurred,
disclosed excess cash reserves, improper administrative charges,      not estimates. EDA concurred.
and inadequate audit coverage.

                                                                      Independent audits lacked
$749,430 in excess cash reserves                                      required disclosures

The city’s capital utilization rate for September 2001 was 49 per-    The city’s annual audits were not conducted in accordance with
cent—far less than EDA’s required 75 percent utilization. The 14      OMB Circular A-133, as required by the terms and conditions of
active loans represented an outstanding principal balance of          the EDA grant, and therefore excluded EDA-required disclosures
$913,441, and $540,000 was recorded against loan commitments,         such as a schedule of federal assistance and reports on internal
for a total capital utilization of $1,453,441. This left $1,483,720   controls and compliance with laws and regulations.
available for new loans, more than twice as much as the 25 per-
cent reserve permitted by EDA.                                        We recommended that EDA require the city to obtain annual
                                                                      audits that comply with OMB Circular A-133. The city stated that
                                                                      it was unaware of its noncompliance and agreed to obtain the
RLF Financial Status as of September 2001                             required audits for all future periods. (DENVER REGIONAL
                                                                      OFFICE OF AUDITS: DEN-14963)
  RLF capital base                                   $2,937,161
  Capital utilization                                –1,453,441
  Available for new loans                          = $1,483,720       U.S. VIRGIN ISLANDS AUDIT
  Cash balance allowed by EDA                          –734,290       DISCLOSES ADMINISTRATIVE,
                                                                      FINANCIAL, AND REPORTING
  Excess Cash Reserves                              = $ 749,430
                                                                      PROBLEMS

                                                                      An economic development agency in the U.S. Virgin Islands
The city agreed with our finding of excess cash reserves but
                                                                      administers two EDA revolving loan funds. The first, established
requested that EDA delay implementing our recommendation
                                                                      in 1986 with a Sudden and Severe Economic Dislocation (SSED)
until after its September 2002 semiannual report, claiming that all
                                                                      grant of $300,000 and a recipient match of $100,000, was creat-
excess cash reserves were currently earmarked for loans:
                                                                      ed to provide needed financing for new and existing businesses
$440,000 currently approved but not yet disbursed and applica-
                                                                      in economically depressed areas of the islands. The second,
tions totaling $900,000 awaiting review. Under the
                                                                      established in 1990 with a $500,000 award, was provided to
circumstances, we recommended that EDA require the city to
                                                                      assist businesses adversely affected by Hurricane Hugo. As of
sequester any excess cash reserves as of September 30, 2002, in
                                                                      March 2002 the RLFs had made 34 loans totaling $1.3 million;
an interest-bearing account and remit interest earned on the
                                                                      however, no loans from either fund had been made since 1994.
account to the U.S. Treasury.
                                                                      At the request of EDA, in April 2002 we conducted an audit to
                                                                      determine the financial status of the two RLFs and the recipient’s
$197,323 in improper
                                                                      compliance with applicable federal laws and regulations, EDA
administrative expenses
                                                                      grant terms and conditions, and RLF plans. Our audit uncovered
                                                                      numerous problems with the administration and financial man-
Administrative costs claimed, totaling $197,323, were improper-
                                                                      agement of the RLFs:
ly based on a percentage of the RLF’s interest income rather than
actual costs incurred. Although the city maintained meticulous            ■   The recipient’s accounting records were inadequate and
loan files and the claimed expenses appear low compared to the                did not support the cash balance it reported for the two
actual costs required to administer the program, the lack of doc-             RLFs (roughly $971,000).
umentation for costs claimed is not justified.                            ■   Contrary to EDA requirements for the revolving loan




20                                                                                U.S. Department of Commerce/Office of Inspector General
                                                                                                    Economic Development Administration



        fund program, the RLFs carried excess cash reserves for        amount represented only 6 percent of the RLF’s available fund-
        3 consecutive years. At the time of our audit the excess       ing rather than the 75 percent utilization rate required by
        cash balance was $576,000.                                     EDA—and no loans had been made in 6 of the last 7 years. In
    ■   Of the 34 loans made, 17, totaling $617,000 (99 percent        the meantime the fund had been accumulating substantial excess
        of outstanding principal), were in default. Of that 17, 5      cash reserves and the cash balance had grown by more than
        had been in default for more than 8 years; 11 were made        $600,000 in the prior 4 years.
        to companies that have since gone out of business; 3
        were made despite the loan officer’s recommendations           In May 2001 the grantee requested that EDA allow expansion of
        that they be denied; and 1, because it was made to a           the RLF project area to include the entire city. However, the city
        legislator, created the appearance of conflict of interest.    is already served by two non-EDA revolving loan funds that
                                                                       together have some $41 million available for lending. EDA’s
Our audit also disclosed that the recipient regularly failed to meet   grant terms and conditions require that its RLF awards not dupli-
RLF reporting requirements, and there was no evidence that             cate programs funded by other sources; therefore we
annual RLF plan certifications were ever prepared.                     recommended that the agency review the city’s request to ensure
                                                                       that it will not duplicate existing loan programs.
To ensure that the RLF is properly managed and accounted for in
the future, we recommended that EDA require the recipient to           We also recommended that EDA require the city to immediately
implement sound lending practices to manage the RLF portfolio          sequester the RLF’s $1.5 million excess cash balance in a sepa-
and include specific audit procedures in its annual operational        rate, interest-bearing account and remit the interest to the U.S.
audit under the Single Audit Act. We also recommended that the         Treasury. (DENVER REGIONAL OFFICE OF AUDITS: DEN-
recipient be directed to return $499,680—the agency’s share of         14885)
excess RLF cash—to the U.S. Treasury.

The recipient agreed with our findings regarding mismanage-
ment of the RLF, but noted that the problems had occurred              FOLLOW-UP OF 1994 AUDIT
under a previous administrator and pledged to improve opera-           REVEALS OLD AND NEW
tions in the future. (ATLANTA REGIONAL OFFICE OF                       PROBLEMS WITH ARKANSAS RLF
AUDITS: ATL-15126)
                                                                       A planning and development district in east Arkansas received an
                                                                       LTED grant for $500,000 in September 1982 to establish a
                                                                       revolving loan fund. Over the years, EDA twice amended the
LACK OF LOAN ACTIVITY FUELS                                            original grant, ultimately increasing the federal share to
                                                                       $2,011,747. With a district match of $136,402, total RLF capital-
ACCUMULATION OF $1.5 MILLION                                           ization amounted to $2,148,149.
IN EXCESS CASH RESERVES FOR
WISCONSIN RLF                                                          In 1994 we audited the RLF to assess the district’s financial man-
                                                                       agement and compliance with EDA’s administrative
In September 1985 EDA awarded an $800,000 LTED grant to a              requirements. We found the district’s handling of the RLF was
city in Wisconsin to establish a revolving loan fund that—with the     noncompliant in several respects. Specifically, the recipient
city’s required match of $400,000—was capitalized at $1.2 mil-         maintained excess cash balances in the RLF, and insufficient loan
lion. The RLF targeted a part of the city plagued with                 documentation and inadequate accounting systems exacerbated
long-standing economic distress and high rates of unemployment         the likelihood of loan losses.
and business failure. Its purpose was to fund small business expan-
sion and create jobs to replace those lost from business closures or   During this semiannual period our follow-up audit of the
relocations. The RLF is administered by a local development cor-       Arkansas RLF program disclosed that not only had the district
poration that operates a total of six funds for the city. As of        failed to correct the deficiencies we previously noted but further
September 30, 2001, the RLF had total assets of $2,153,000—            mismanagement was evident. The district continues to carry
$2,030,876 in cash and $122,124 in outstanding loans.                  excess cash reserves and lacks proper loan procedures and docu-
                                                                       mentation. The district also (1) inappropriately used RLF funds
We performed our audit in December 2001 to evaluate the finan-         to refinance existing debt, (2) had a leverage shortfall for nine
cial management of the RLF and the grantee’s compliance with           loans, (3) did not confirm millions of dollars in leverage claims,
applicable RLF administrative requirements. We found that the          and (4) did not actively pursue collection of defaulted loans. In
city was not making use of the fund—the outstanding loan               addition, the district provided inaccurate semiannual reports to




September 2002/Semiannual Report to Congress                                                                                       21
Economic Development Administration



EDA, including a September 2001 report that overstated the           authority to provide a $750,000 match. The RLF was estab-
RLF’s cash balance by $1.7 million.                                  lished to assist defense-dependent businesses convert to
                                                                     non-defense-related ventures and to help other businesses cre-
                                                                     ate new jobs for dislocated workers.
Evidence of Mismanagement
Disclosed by 2002 Audit                                              We performed an audit during April 2002 to determine (1) the
                                                                     financial status of the RLF, (2) the fund administrator’s compli-
  Noncompliance            Number of Loans           Amount          ance with applicable laws and regulations as well as with the
  Refinanced debt                     7               $679,718       terms and conditions of both the EDA grant and the RLF plan,
                                                                     and (3) the propriety of administrative costs charged to the RLF.
  Leverage shortfall                  9               $391,335
                                                                     Our audit disclosed that the RLF had $735,048 in excess cash
  Unconfirmed leverage             24               $5,000,000       as of March 2002 and had retained excess funds for three
  Unpursued defaulted loans           7               $154,792       consecutive semiannual periods, contrary to EDA guidelines
                                                                     and RLF program objectives. The excess exists because the
                                                                     grantee has not made enough new loans in recent years
We recommended that EDA require the district to take the             to expend revenue generated by loan repayments and invest-
following actions:                                                   ment income.
    1. Return $147,490 in excess cash reserves to EDA.
                                                                     In response to our draft report, the development authority
    2. Recall $505,947 in outstanding debt on the seven              advised us that a recent amendment to its RLF plan would allow
       ineligible loans that were made to refinance                  it to lend up to $1.31 million to a local firm for a term of 15
       preexisting debt.                                             years, thereby eliminating the excess cash balance. While we
    3. Confirm leveraging of $5 million for 24 RLF borrowers         acknowledge that the amendment provides the RLF the author-
       and ensure that future loans are leveraged adequately.        ity to make this previously undisclosed loan, we are concerned
    4. Pursue defaulters for collection of principal and past due    about its high dollar value and lengthy term, as well as the for-
       interest.                                                     tuitous timing of the proposed transaction. Accordingly, if the
                                                                     loan is approved, we plan to conduct a follow-up audit to deter-
    5. Work with its accounting firm to ensure that its              mine whether it complies with all applicable RLF eligibility
       semiannual reports are accurate and reconcile to RLF          requirements. Otherwise, our initial recommendation—that
       financial statements.                                         EDA recoup the $500,458 federal share of the excess cash—
    6. Revise its RLF plan to specify written procedures for         should be promptly implemented.
       monitoring and servicing loans, handling defaults,
       producing accurate reports, and maintaining required
       loan documentation.                                           Additional Findings

The district agreed to return the excess cash reserves to the gov-   Our audit also disclosed that the fund administrator has not com-
ernment. (DENVER REGIONAL OFFICE OF AUDITS:                          plied with certain other RLF administrative requirements.
DEN-14884)                                                           Specifically, it did not record $16,410 in RLF loan fees as income
                                                                     or deposit this income into the RLF account and did not submit
                                                                     required RLF status reports to EDA for three consecutive semi-
                                                                     annual periods. Additionally, the grantee has not submitted
                                                                     required annual RLF plan certifications to EDA and erroneously
AUDIT OF PENNSYLVANIA RLF
                                                                     charged $4,875 in administrative costs to the RLF.
DISCLOSES EXCESS CASH AND
FINANCIAL MANAGEMENT ISSUES                                          The administrator has since deposited the $16,410 to the RLF
                                                                     account and reimbursed the fund for the $4,875 in incorrect
The closing of three U.S. Navy facilities in eastern                 administrative charges. To correct the other deficiencies, we rec-
Pennsylvania prompted EDA to award a $2.7 million Sudden             ommended that EDA direct the grantee to submit annual RLF
and Severe Economic Dislocation grant to a local industrial          plan certifications and RLF status reports that are complete, accu-
development authority in April 1993. The grant included $1.6         rate, and on time. (ATLANTA REGIONAL OFFICE OF AUDITS:
million to establish a revolving loan fund and required the          ATL-15123)




22                                                                              U.S. Department of Commerce/Office of Inspector General
                                                                                                                 Economic Development Administration




PUBLIC WORKS PROGRAM
The Public Works Program (PWP) empowers distressed commu-
nities in economic decline to revitalize, expand, and upgrade
their physical infrastructure to attract new industry, encourage
business expansion, diversify local economies, and generate or
retain long-term, private sector jobs and investment. In many
cases, Public Works Program projects are used to upgrade or
expand an area’s economic infrastructure to support the next gen-
eration of industry or commerce. Whenever possible, this
program seeks to redevelop existing facilities and industrial/com-
mercial locations. EDA encourages such redevelopment projects
because they promote sustainable economic development by tak-
ing advantage of readily available infrastructure and markets.
During this reporting period we audited two PWP grants result-
ing in recommendations involving $1.1 million that could be put
to better use and $98,000 in questioned costs.



DUPLICATE FUNDING JUST ONE
                                                                                 Picture of the "flyover" road (two-way access ramp) built above railroad
OF SEVERAL ISSUES REVEALED                                                       tracks near the marine terminals.
IN AUDIT OF WASHINGTON
ROAD PROJECT                                                                     that no funds had been disbursed because the city had yet to sub-
                                                                                 mit any cost claims against the grant. However, it had submitted
In August 1997 EDA awarded a public works grant to a city in                     claims against—and received reimbursement from—a $10.3 mil-
Washington State for construction of a two-way access ramp                       lion U.S. Department of Transportation grant it obtained through
extending from a bridge, over railroad tracks near the city’s                    the state transportation department for essentially the same
marine terminals, and connecting to an existing roadway system.                  purpose as the EDA award. We found the city’s performance
The project, which also included construction of several surface                 under the terms of the EDA grant agreement to be deficient in
streets,6 was intended to improve access to a proposed 29-acre                   several respects.
industrial campus of a major pharmaceutical company. The
enhancements would also relieve vehicle congestion and improve                   First, the city failed to notify EDA of the DOT grant, despite the
traffic flow in the area.                                                        award’s terms and conditions requiring such notification. City
                                                                                 officials reported that they sought the additional funding after
Total estimated cost of the project was $12.5 million, of which                  estimates of the project’s costs were revised upward (final costs
the EDA grant would cover $3 million and the city and other                      were $18.3 million). Although they contended that the EDA proj-
local contributors would provide $9.5 million. By late 2001 the                  ect manager knew of the DOT award, they could not supply
city had substantially completed the construction project, but                   documentation showing that they had formally notified the
EDA had not yet disbursed any of the grant funds. In addition, the               agency. We recommended that EDA amend its award agreement
city had exceeded the approved EDA budget by about $6.4 mil-                     to reflect the additional project costs and funding.
lion, with the bulk of the overrun (nearly $5.3 million)
attributable to land and right-of-way expenditures, which had                    Second, in meeting its cost-sharing requirement for the DOT
been greatly underestimated in the original budget proposal.                     grant, the city counted costs that were applicable to its matching
                                                                                 share under the EDA grant. In accordance with federal regula-
We performed an audit to determine why no EDA funds had been                     tions, we recommended that EDA accept for reimbursement only
disbursed and whether the grantee’s financial management sys-                    those allowable costs that had not been already claimed against
tems complied with federal and EDA requirements. We found                        the DOT grant.

6                                                                                City officials generally agreed with our audit findings and are
 A surface street allows access by traffic signal or stop sign or allows turns
across opposing traffic, as opposed to a freeway where access is provided only   working with EDA to address our concerns and recommenda-
by ramps and merges, with no stopping or turning across opposing traffic.        tions. (SEATTLE REGIONAL OFFICE OF AUDITS: STL-14837)




September 2002/Semiannual Report to Congress                                                                                                       23
Economic Development Administration




PROBLEMS WITH CALIFORNIA                                                    tion rates. Also, it awarded several personal services con-
PROJECT’S EDA AWARD                                                         tracts to the consultant serving as MBOC director to
                                                                            simultaneously head the EDA grant project. We concluded
MIMIC THOSE FOUND IN ITS                                                    that the consulting agreements were not competitively
MBDA PROGRAM                                                                awarded and duplicated other agreements the city had with
                                                                            this same consultant. In addition the city could not demon-
A southern California transportation authority representing a con-          strate the reasonableness of the compensation in any of the
sortium of cities is conducting a $2.4 billion public infrastructure        duplicative agreements; and the contracts for these services
improvement project to consolidate four access rail lines serving           were unclear and inconsistent in estimates of time, effort,
two major ports into a single, rail-cargo expressway that links the         and rate of payment. They also omitted federally required
ports to transcontinental rail yards 20 miles away. In 1996 EDA             contract clauses.
awarded to the lead city the first of five grants to fund a business
                                                                            Financial management. The city could not adequately
outreach program designed to help minority, female, and disad-
                                                                            document time and labor expenses charged to the grants
vantaged enterprises secure 22 percent of contract dollars
                                                                            and failed to apply proper rates for fringe benefits and indi-
awarded by contractors building the transportation corridor. The
                                                                            rect costs.
program is currently operating under the fifth award.

The initial grant and follow-ons have been administered by the
city’s Minority Business Opportunity Committee (MBOC), a                Recommendations
component of the mayor’s Office of Economic Development.
This is the same organization that operates another Commerce-           Taken together, the procurement and financial management fail-
funded program through a cooperative agreement from MBDA                ings weakened the recipient’s control over the project and the
(see page 28).                                                          federal funds, leading us to question nearly a quarter of the costs
                                                                        claimed against the three EDA grants and to recommend that
We conducted an audit of three of the grants to determine               EDA take the following actions:
whether the recipient was achieving award objectives; claiming              1. Disallow $215,868 in questioned costs and recover the
reasonable, allowable, and allocable costs; and complying with                 federal share—$97,897.
federal requirements and grant terms and conditions. Many of the
problems we uncovered are closely related to those we found                 2. Advise the recipient that no costs claimed under the per-
during our audit of the city’s MBDA-funded program.                            sonal services contracts for the project director are
                                                                               allowable for EDA participation.
                                                                            3. Review the personal services contract currently in force
Summary of findings                                                            and a schedule of payments made and claimed under the
                                                                               ongoing award and determine whether the conditions we
We found that the recipient consistently met its program objec-                noted in our audit continue.
tives for the period under audit. It failed, however, to implement          4. Given that the corridor project is nearing completion,
key management controls for procurement and financial manage-                  require the recipient to justify a continued need for a
ment systems.                                                                  project director. If one is needed, require the recipient to
    Procurement. The city could not document the methods                       demonstrate full compliance with minimum federal pro-
    used to acquire consulting services and establish compensa-                curement standards.



Summary of Grants under Audit

                                                   Federal Rate        Federal Share                                   Total Estimated
  Grant               Award Period                     (%)             Not-to-Exceed             Local Share            Project Cost
     A              02/01/98 - 09/30/99                 68.3             $220,000                 $102,011                  $322,011
     B              05/01/99 - 06/14/00                 46.4               99,999                   115,724                  215,723
     C              06/15/00 - 12/31/01                 38.3              150,000                   241,953                  391,953
  Totals                                                                 $469,999                 $459,688                  $929,687




24                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                             Economic Development Administration



    5. Confirm that the recipient is now completing required      Interagency funding issues
       certifications and utilizing city time sheets to support
       time and labor charges, and ensure that approved rates     Because the financial and compliance deficiencies we found in
       for fringe benefits and indirect costs are being           this audit parallel those identified in our audit of the MBDA
       correctly applied.                                         cooperative agreement, we also recommended that EDA coordi-
                                                                  nate with the Department’s grants officer and MBDA to resolve
                                                                  findings common to both. (SEATTLE REGIONAL OFFICE OF
                                                                  AUDITS: STL-14900-2)




September 2002/Semiannual Report to Congress                                                                               25
                          ECONOMICS AND
                          STATISTICS
                          ADMINISTRATION

T        he
         Economics
         and Statistics
Administration analyzes
economic developments, formu-
                                    CENSUS LESSONS LEARNED
                                            ESA’s Bureau of the Census conducts some of the most important work of our nation—taking
                                               the measure of America through tabulations of population, economic, geographic, education,
                                                 housing, and other statistics. In our March 2002 semiannual report, we featured a special
lates policy options, and produces a               report, Improving Our Measure of America: What Census 2000 Can Teach Us in
major share of U.S. government eco-                  Planning for 2010 (Report No. OIG-14431). That report summarizes the findings of a
nomic and demographic statistics. The                  decade of monitoring, evaluating, and reporting on the work of the 2000 decennial
Chief Economist monitors and analyzes                   census. The report offers insights intended to help the bureau capitalize on its suc-
economic developments and directs stud-                   cesses, improve areas of weakness, and anticipate emerging challenges as it plans
ies that have a bearing on the formulation                 for Census 2010; the essentials of these insights have been condensed into 10 les-
of economic policy. ESA has two principal                   sons learned:
agencies:
                                                             1. Reach early consensus on the 2010 design to facilitate effective planning
                                                             and obtain sufficient funding.
Bureau of the Census is the country’s preem-
inent statistical collection and dissemination                2. Produce accurate, complete address lists and maps.
agency. It publishes a wide variety of statisti-              3. Conduct a carefully targeted and aggressive public awareness campaign.
cal data about the nation’s people and                       4. Strengthen quality control of nonresponse follow-up.
economy, conducting approximately 200
annual surveys, in addition to the decennial                 5. Implement clear policies and guidance for managing temporary staff.
census of the U.S. population and the decen-                6. Determine whether sampling has a role beyond measuring coverage.
nial census of industry.                                  7. Implement rigorous system and software development processes and effective
                                                         information security measures.
Bureau of Economic Analysis prepares,
                                                       8. Upgrade and maintain contracting and
develops, and interprets the national
                                                      program management expertise.
income and product accounts (sum-
marized by the gross domestic                      9. Generate timely, accurate management and
product), as well as aggregate                   operational information.
measures of international,                   10. Mitigate potential disruptions and distractions
regional, and state eco-                  to the work environment and workforce.
nomic activity.
                                   During the 2000 decennial, the Census Bureau delivered 117
                             million questionnaires to houses, apartments, mobile homes, and
                       other sites. Recipients were asked to complete a questionnaire for their
            household and mail it back to the bureau. For households that did not receive a
mailed questionnaire or did not return the form, the bureau conducted nonresponse follow-up
(NRFU)—dispatching enumerators to personally contact residents and obtain questionnaire
information. When enumerators were unable to contact the occupant of a unit, they were to
gather “proxy” information from knowledgeable neighbors under very specific Census guide-
lines. But proxy information tends to be incomplete and less reliable than information
received from an occupant of the household. Also, high percentages of questionnaires con-
taining proxy-provided data indicates that enumerators were having problems collecting the
necessary data.




26                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                          Economics and Statistics Administration



Quality data is critical to the integrity of the entire census.              personal visits. Also, the number of suspect questionnaires we
Problems with data quality and quality control, when prevalent               examined indicated that crew leaders, too, failed to follow proce-
and when identified while NRFU operations are still in progress,             dures. In addition, reinterviewers did not follow procedures when
can lead to large-scale reenumerations such as occurred in three             reviewing questionnaires for completeness and accuracy. We
Florida counties.7                                                           believe these findings warrant the bureau’s attention. In this and
                                                                             previous OIG reports, we highlighted actions the bureau needs to
                                                                             consider to better ensure data quality and control for Census 2010:
                                                                                 ■   Continue to select a sample of questionnaires for
ALLEGED DATA FALSIFICATION                                                           reinterview throughout nonresponse follow-up.
IN PHILADELPHIA                                                                  ■   Improve local offices’ handling of reinterview forms to
                                                                                     ensure that selected questionnaires are verified.
UNDERSCORES IMPORTANCE
                                                                                 ■   Separate the reinterview process from the field operation
OF QUALITY CONTROL                                                                   it is evaluating.

During this last semiannual period, we completed our review of
                                                                                 ■   Develop a management reporting process for
nonresponse follow-up operations in the North Philadelphia                           quality assurance.
Local Census Office. The purpose of our review was to examine
allegations that, to complete nonresponse follow-up on time,
some enumerators at that office falsified data included on Census
questionnaires. Because NRFU operations had concluded and the                             INVESTIGATIVE
office was closed, we were unable to determine the validity of the
charges. Nevertheless, we informed the bureau of the allegations                          HIGHLIGHTS
and asked that it evaluate the Philadelphia office’s nonresponse
follow-up data collected during the latter phase of the operation.
                                                                             FORMER CENSUS EMPLOYEE
Upon completing its review, the bureau informed us that it
believed the quality of the data was satisfactory overall. But this          CONVICTED OF THEFT OF
situation again highlights the importance of, and need for, the              DEBIT CARDS
bureau to strengthen quality control of nonresponse follow-up,
number 4 in our list of lessons learned.                                     We previously reported the arrest of a former Census field repre-
                                                                             sentative in Santa Ana, California, on charges that she had cashed
In our review of this situation, we also sought to determine                 16 debit cards given to her for use as incentives for survey par-
whether enumerators complied with Census Bureau procedures                   ticipants. (See March 2002 issue, page 91.) On April 5, 2002, the
for collecting data and performing quality control checks; we                defendant was convicted of grand theft and embezzlement in
found several conditions regarding data quality and quality con-             Orange County Superior Court, and was sentenced to 45 days in
trol. Some enumerators did not follow prescribed procedures                  jail and 3 years’ probation, and ordered to make restitution of
regarding the number of attempts to make to collect information              $1,180 to the government. (DENVER FIELD OFFICE OF
from occupants, and they arbitrarily used proxies when making                INVESTIGATIONS)




7
 U.S. Department of Commerce, Office of Inspector General, September 2000.
Reenumeration at Three Local Census Offices in Florida: Hialeah, Broward
South, and Homestead. Report No. ESD-13215.




September 2002/Semiannual Report to Congress                                                                                               27
                                  MINORITY BUSINESS
                                  DEVELOPMENT AGENCY


T       he
        Minority
        Business
Development Agency
was created to help
                              MBDA’S MINORITY BUSINESS OPPORTUNITY
                                   COMMITTEE PROGRAM
                                        MBOC seeks to promote full inclusion of the minority business sector in the nation’s economic
minority-owned and                       infrastructure by providing a variety of programs to minority business owners interested in effec-
operated businesses achieve                tively marketing their products and services locally. MBOCs provide current business
effective and equal participation            information; identify potential sales opportunities, financing resources, and joint venture part-
in the American free enterprise               ners; and give other appropriate support to position these enterprises for long-term growth.
system, and overcome the social
and economic disadvantages that
have limited their participation in              DEFICIENCIES AND NONCOMPLIANCE FOUND
the past. MBDA provides                          IN CALIFORNIA MBOC OPERATIONS
management and technical
assistance to minority firms upon               A city in southern California has received continuous funding to operate an MBOC since
request, primarily through a                    January 1994, initially through noncompetitive joint project agreements and later through
network of business development                competitively awarded cooperative agreements. The city assigned responsibility for the
centers. It also promotes and                 MBOC award to the mayor’s Office of Economic Development, with MBOC staff assum-
coordinates the efforts of other            ing responsibility for day-to-day administration of the agreement.
federal agencies in assisting
or providing market                      We performed a financial and compliance audit of three budget periods funded under the
opportunities for                      award—calendar years 1999, 2000, and 2001. Our purpose was to determine whether the recipi-
minority businesses.                 ent was performing in accordance with award objectives; claiming project costs that were
                                  reasonable, allowable, and allocable; and maintaining administrative requirements and controls that
                               complied with award terms and conditions. Total estimated cost of the project for the 3 years was
                           $2,144,765, with the federal share not to exceed $1.3 million.

               Overall, we found that the city’s performance was deficient in several respects and that it failed to comply with several
uniform administrative requirements and federal cost principles. As a result of the noncompliance, we questioned costs of $424,438
and recommended that MBDA reduce total allowable project costs by an additional $408,430 in program-related income. Our specif-
ic findings are detailed below.


Performance deficiencies

The city’s claims for a key performance measure—the dollar value of contracts and procurements generated for minority business
enterprises (MBEs)—were not always accurate or supported. Included in the count were opportunities produced by and claimed for
other programs administered by the MBOC with funding from other agencies—including Commerce’s Economic Development
Administration (see page 24) and the Department of Transportation (DOT). Claims for these opportunities resulted in multiple reports
of the same contracts and procurements and a consequent overstatement of the MBOC’s influence and accomplishments.

In addition, the MBOC served a broader clientele than was authorized under the award, and its organization and operations were not
clearly established or documented.




28                                                                                   U.S. Department of Commerce/Office of Inspector General
                                                                                                    Minority Business Development Agency



Opportunities Produced by or Claimed                                  We also recommended that the city be directed to clearly estab-
for Other Funding Sources                                             lish and verify the organizational structure and the procedures of
                                                                      the award-funded entity and document ongoing operations.
                                     Dollar Value of
                                  Procurements Claimed
  Other Funding Source           Total                  MBE           Noncompliance

  Calendar Year 1999                                                  The city failed to comply with federal requirements for managing
                                                                      financial assistance awards and adequately supporting costs
  DOT/EDA                   $ 49,724,194          $     4,872,043
                                                                      allowable for federal participation. Specifically, it did not imple-
  DOT/EDA                     249,715,762             110,743,217     ment key management controls for procurement, program-related
                                                                      income, and financial management systems. This failure led to a
  DOT/EDA                     115,301,272             115,301,272     variety of problems: for example, consulting agreements were
  DOT/EDA                      42,518,194              40,267,949     duplicative and not competitively procured; program income was
                                                                      not properly reported to MBDA and unused program income was
  DOT/EDA                         722,840                 17,600      not used to offset allowable costs; time and labor expenses were
                                                                      not adequately supported; and rates for calculating fringe benefits
  DOT                          47,011,598               3,143,838
                                                                      and indirect costs were not properly applied. These deficiencies
  Total for CY 1999         $504,993,860          $274,345,919        and others we identified weakened the recipient’s control over
                                                                      both the project and award funds.
  Calendar Year 2000

  DOT                       $ 113,814,388         $ 12,116,262        We recommended, for the years audited, that the Commerce
                                                                      grants officer disallow $832,868 ($424,438 in questioned costs
  DOT                          36,277,372               2,848,410     plus $408,430 in offsets to allowable costs) of the $2,074,886 in
  DOT/EDA                     132,130,868              41,180,356     project costs claimed; recover the federal share ($499,746) of the
                                                                      disallowed amount; and notify the city that
  DOT/EDA                     166,845,170              54,763,227         1. it may not use MBDA funds to cover costs claimed and
  HUD                           1,884,073                245,351             incurred under inappropriately procured consulting
                                                                             contracts;
  Total for CY 2000         $450,951,871          $111,153,606            2. it must comply with requirements for identifying,
  Calendar Year 2001                                                         recording, reporting, protecting, and using program-
                                                                             related income in the approved budget period and
  DOT/EDA                   $ 20,065,137          $ 1,944,910                through official recipient accounts and financial
  DOT/EDA                     391,134,061             132,092,858            management and procurement systems; and
                                                                          3. it must apply all unexpended program-related income
  Total for CY 2001         $411,199,198          $134,037,768               at year-end against total allowable project costs.

                                                                      In addition we urged the grants officer to confirm the city’s claims,
We recommended that the city be required to upgrade procedures        made subsequent to our audit, that time and labor expenses are
for compiling statistics to (1) ensure the reported dollar value of   being properly documented; and ensure that the city correctly cal-
contracts and procurements is complete, current, consistent,          culates fringe benefits and indirect costs charged to the award.
accurate, and verifiable; (2) reflect only contracts awarded to
MBDA-defined minority business enterprises for the stated
reporting period; and (3) claim actions that result solely from       Interagency funding issues
MBDA funding to the MBOC.
                                                                      The financial and compliance deficiencies we found in our audit
In addition we recommended that the city be instructed that           of the MBDA cooperative agreement parallel those uncovered in
efforts expended for beneficiaries other than those qualifying as     a separate audit of EDA grants the city is using to fund a business
MBDA-defined minority business enterprises are unallowable            outreach program, also operated by that city’s MBOC (see page
under the cooperative agreement and, if the MBOC continues to         24). Therefore, we recommended that the Department’s grants
serve ineligible beneficiaries, it must establish a cost accounting   officer coordinate with MBDA and EDA in overseeing the effec-
system that identifies, segregates, and accounts for ineligible       tive and timely resolution of issues common to both awards.
activities and excludes those costs from MBDA award reporting.        (SEATTLE REGIONAL OFFICE OF AUDITS: STL-14900-1)




September 2002/Semiannual Report to Congress                                                                                         29
                        NATIONAL OCEANIC
                        AND ATMOSPHERIC
                        ADMINISTRATION

T       he
        National
        Oceanic and
Atmospheric Administration
studies climate and global change;
                                   TRAVEL CARD PROGRAM AT OAR’S
                                         ENVIRONMENTAL TECHNOLOGY
                                             LABORATORY IS GENERALLY SOUND,
                                                 BUT COULD BENEFIT FROM TIGHTER
ensures the protection of coastal
oceans and the management of marine                  INTERNAL CONTROLS
resources; provides weather services; and
manages worldwide environmental data.                  As part of our focus on government charge card operations at Commerce, we
NOAA does this through the following                    completed an assessment of the travel card program at the Environmental
organizations:                                           Technology Laboratory (ETL)—a component of NOAA’s Office of
                                                           Oceanic and Atmospheric Research (OAR).
National Weather Service reports the weather of
the United States and provides weather forecasts and        The General Services Administration began the government travel card
warnings to the general public.                              program to control travel payments and expenses. Regulations man-
National Ocean Service issues nautical charts;                  date that federal employees use the card when on official travel,
performs geodetic surveys; conducts research; and               unless they have been exempted from doing so. Employees are
develops policies on ocean mining and energy.                    responsible for all costs charged. All uses other than for official trav-
                                                                 el are strictly forbidden. Those who misuse the card or fail to pay
National Marine Fisheries Service conducts a program             undisputed amounts are subject to disciplinary action, and can have
of management, research, and services related to the             the cards canceled and their wages garnished.
protection and rational use of living marine resources.
                                                                 Our audit sought to determine whether ETL’s internal controls over
National Environmental Satellite, Data, and
                                                                travel cards adequately ensured proper use and prompt payment by
Information Service observes the environment by
                                                               employees. We focused on charges incurred during FY 2001.
operating a national satellite system.
Office of Oceanic and Atmospheric Research                    We found that with few exceptions, ETL employees used the travel card
conducts research related to the oceans and inland           appropriately and paid their bills on time. However, certain internal con-
waters, the lower and upper atmosphere, space              trols were not strictly implemented, a situation we believe leaves open the
environment, and the Earth.                               possibility for problems. Specifically, we noted the following:
                                                          1. ETL did not have a list of all cardholders, so managers could not readily
Office of Marine and Aviation
                                                       identify which employees had cards and ensure that the cards were issued only
Operations operates NOAA’s ships and
                                                     to those who truly needed them.
aircraft and provides NOAA pro-
grams with trained technical and                  2. When cardholders left ETL employment, the laboratory did not always send
management personnel from                     copies of their destroyed cards to the travel card program coordinator—a required
the nation’s seventh uni-                  procedure that helps ensure departing employees no longer have access to their travel
formed service.                        card accounts.
                                3. Three ETL employees used their travel card to pay for non-travel-related business expenses such as
                          journal subscriptions, which should properly have been charged to purchase cards.
         4. Three employees charged conference registration fees to their travel cards. These costs are expenses of the office and can
      be paid directly by the government agency.

To strengthen ETL’s monitoring of the travel card program, we recommended that ETL management develop and keep current a list of
cardholders; take prompt action to close travel accounts of former employees by submitting destroyed cards and appropriate paperwork



30                                                                              U.S. Department of Commerce/Office of Inspector General
                                                                                                  National Oceanic and Atmospheric Administration



to the NOAA travel card program coordinator and following up                  In September 1998 NOAA formed a project team consisting of
to ensure the accounts are closed; discontinue the practice of                representatives from several of its components to procure the
using travel cards to pay for business expenses not specifically              vessels and manage the acquisition. Congress appropriated $59.7
related to travel; and send annual reminders to cardholders                   million in FYs 2000 and 2001 for design and construction of the
regarding what constitutes appropriate travel-related charges                 first FRV and for management of the acquisition effort. NOAA
(e.g., transportation services, lodging). (BUSINESS AND TRADE                 planned to use another $5.4 million in FY 2002 for managing
AUDITS DIVISION: BTD-14908)                                                   acquisition of subsequent vessels. If all four ships are construct-
                                                                              ed, costs could exceed $200 million.

                                                                              In January 2001 NOAA awarded a contract to design and build
WEAK MANAGEMENT                                                               the first vessel, but there have been problems since the outset.
                                                                              The contractor had difficulty meeting the bonding requirement,
CONTROLS HAMPER NOAA’S                                                        which delayed initiation of the work. Subsequently, the firm’s
EFFORT TO UPGRADE ITS                                                         parent company and its affiliates (including the contractor) filed
                                                                              for reorganization protection under the U.S. bankruptcy code.
FLEET OF RESEARCH                                                             Although the company’s future is uncertain, the firm has contin-
VESSELS                                                                       ued the contract work.

NOAA’s National Marine Fisheries Service (NMFS) relies heav-                  We conducted an audit of the FRV contract to (1) determine
ily on at-sea research to fulfill its mission of protecting the               whether construction of the vessel was meeting the program’s
nation’s living marine resources, and uses a fleet of nine fisheries          performance goals for cost and timeliness; (2) evaluate corrective
research vessels (FRVs) to conduct a variety of science-based                 action NOAA has taken or will take for any deviations from
ocean activities. Eight of these ships were constructed during the            goals; and (3) assess the effectiveness of NOAA’s management
1950s and 1960s, and all are fast approaching the end of their                controls over the acquisition program. We identified a number of
service lives.                                                                weaknesses in those controls, some of which rendered NOAA
                                                                              unable to provide the documentation we needed to achieve our
NOAA is in the process of upgrading this fleet with up to four                first two objectives. We therefore recommended that NOAA take
new state-of-the-art research vessels, to be built under its high-            the following actions to improve management controls and thus
priority FRV-40 acquisition program. These ships will enable                  ensure that the contract work proceeds efficiently for the first and
NMFS to stay at sea for as long as 40 days and to conduct a wider             all subsequent vessels:
range of scientific studies.                                                      ■   Comply with federal requirements for contract files.
                                                                                      The FRV project team has not established an official
                                                                                      contract file that contains all essential documents relating
                                                                                      to the FRV acquisition, as required by the Federal
                                                                                      Acquisition Regulation (FAR). Without this file,
                                                                                      NOAA cannot effectively document procurement
                                                                                      actions and decisions.
                                                                                  ■   Enforce the contract’s scheduling requirements. The
                                                                                      contractor has not provided NOAA with updated
                                                                                      schedules, as required by both the contract and FAR, so
                                                                                      neither party can systematically and objectively track the
                                                                                      progress and timeliness of the contract work.
                                                                                  ■   Strengthen procedure for tracking FRV program
NOAA reports that this state-of-the-art ship will be its first acoustically
                                                                                      costs. The reporting procedure established by the project
quiet fisheries research vessel capable of conducting a variety of scien-             team does not generate critical cost accounting and cost-
tific missions including fisheries stock assessments, physical and                    goal information that the acquisition/program manager
biological oceanography, marine mammal research, and atmospheric                      needs to monitor whether the FRV project is staying
and sea surface research. It will provide the best available data to                  within cost goals. NOAA should amend this procedure
rebuild and sustain our fisheries and to meet the global challenge of                 for periodic financial reporting to include all essential
maintaining sustainable ecosystems and protecting the integrity of long-              information needed to direct the program.
term research analyses.
                                                                                  ■   Immediately implement a detailed award fee plan. At
Source:                                                                               the time of our audit, NOAA had yet to implement an
http://www.nmfs.noaa.gov/BudgetFactSheets/YOTO_FISHSHIPS.pdf                          effective award fee plan to encourage superior



September 2002/Semiannual Report to Congress                                                                                                 31
National Oceanic and Atmospheric Administration



        performance by the contractor. The current plan lacks           Second, we found that NOAA has no written contingency plan to
        definition; clear, results-oriented evaluation criteria;        ensure the uninterrupted flow of scientific data, should delivery
        examples of significant events that constitute superior         of the research vessels be significantly delayed or the contract
        performance; and detailed guidance for evaluators. Each         terminated. It must develop such a plan to ensure NMFS’ ability
        day that passes without an acceptable plan in place             to fulfill its stewardship role for the marine environment.
        compromises the contractor’s ability to excel and
        increases the risk that goals for cost, performance, and
        product delivery will not be met.                               AGENCY RESPONSE
    ■   Institute a clear, well-documented program
        management structure. The current organizational                NOAA concurred with all but one of our recommendations-that a
        structure of the project team does not clearly delineate        detailed award fee plan be developed and implemented immedi-
        and document specific authorities and responsibilities for      ately. While the agency agreed that such a plan was needed and
        individual team members, nor does it specify lines of           has begun developing one, it believes implementation should be
        communication and reporting relationships. This lack of         delayed until the contractor’s bankruptcy status is resolved. We
        specificity compromises the team’s efforts to administer        contend, however, that the plan is needed now because contract
        the contract effectively and increases the possibility of       work continues despite the bankruptcy filing. (SCIENCE AND
        missed project milestones, friction among team members,         TECHNOLOGY DIVISION: STD-14428)
        and high turnover among project staff.

Two other weaknesses emerged during our audit that also require
action. First, we found that NOAA did not conduct a preaward            STRONGER MANAGEMENT
survey for the FRV contract. A preaward survey is an assessment
of a potential contractor’s ability to fulfill contract requirements.   RESEARCH PROCESSES AT
By failing to take this step, NOAA missed some key indicators of        NORTHWEST FISHERIES
the contractor’s uncertain financial status. NOAA should conduct
preaward surveys for any future FRV contracts to be certain of
                                                                        SCIENCE CENTER WOULD
choosing a financially sound contractor.                                ENHANCE SALMON
                                                                        RECOVERY EFFORTS
                                                                        The National Marine Fisheries Service (NMFS) is responsible for
                                                                        preventing the extinction and protecting the habitats of marine
                                                                        fish, mammals, sea turtles, and anadromous fish (salmon and
                                                                        other species that migrate between the ocean and inland water-
                                                                        ways). In the Pacific Northwest, NMFS’s endangered species
                                                                        activities are handled primarily by its Northwest Regional Office
                                                                        and Northwest Fisheries Science Center.

                                                                        The regional office identifies and lists species that are endan-
                                                                        gered or threatened in its area of coverage, which encompasses
                                                                        much of the Columbia River Basin and large stretches of the
                                                                        Pacific Ocean. It creates management policies and plans to pro-
                                                                        tect the listed species and their habitat, and works with groups
                                                                        whose proposed projects could harm the listed species to mitigate
                                                                        the harm. The science center, in turn, supports the region by
                                                                        assessing the status of all species and conducting scientific
                                                                        research to determine how best to protect and recover them and
                                                                        their habitats. The center has a large groundfish program and con-
                                                                        ducts research on a variety of other marine species, but much of
                                                                        its activities focus on Pacific salmon.

                                                                        In 2000 the NMFS regional office issued a biological opinion on
                                                                        ways to mitigate the impacts of federally operated dams, power-
Columbia River Basin.                                                   houses, and associated reservoirs on salmon migration up and



32                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                           National Oceanic and Atmospheric Administration



down the Columbia and Snake Rivers. Despite the center’s years          plans, and use this revised process to formally peer review the
of salmon research, it discovered that it lacked basic scientific       Salmon Research Plan.
information—such as population estimates and the impact of var-
ious risk factors on population growth—needed to provide                Multiyear plans. A multiyear plan is a management control that
pertinent direction for actions affecting salmon. In response, it       takes broad objectives, such as those posed by the 10 questions in
developed the Salmon Research Plan. Built on a framework of 10          the Salmon Research Plan, and details a blueprint for measuring
broad questions (and numerous, specific subquestions), the plan         progress toward achieving them from one year to the next.
sets an ambitious, interdisciplinary agenda for salmon
recovery designed to ensure that center projects directly further       Multiyear plans (1) provide a framework for integrating research
recovery efforts.                                                       programs across functional and organizational boundaries; (2)
                                                                        establish a mechanism for evaluating ongoing research, identifying
We conducted a performance audit to assess management con-              data gaps, and involving stakeholders; (3) allow transparency for
trols used to implement the plan, specifically focusing on (1)          programs by providing interim performance measures that link to
procedures for obtaining peer review, (2) strategies and process-       longer term strategic goals; (4) enhance efforts to obtain needed
es for implementing the plan, and (3) methods for ensuring that         resources; and (5) provide methods to better anticipate, evaluate,
ongoing work answers the 10 research questions. To determine            and complete research activities within realistic time frames.
appropriate controls for a science research program, we reviewed
relevant guidance from OMB, the National Academy of Science             At the time of our review, the center had developed multiyear
and its National Research Council, the U.S. General Accounting          plans for only 3 of the 10 research questions, and had given
Office, and other organizations.                                        regional managers only limited involvement in decisions related
                                                                        to the Salmon Research Plan. We advised the science center to
We concluded that the Salmon Research Plan is an important step         develop appropriate multiyear plans, work with regional staff to
toward meeting the center’s goal of strengthening its salmon            identify potential funding for projects in these plans, and subject
research program. The plan establishes research priorities and          the plans to appropriate peer review. We also noted that manage-
supports NMFS’s strategic goal of recovering and maintaining            ment at the center and the regional office need to establish a
endangered species. In developing the plan, the center followed         reliable method for involving the region and other stakeholders in
best practices for building solid research programs and incorpo-        developing the multiyear plans.
rated elements that satisfy some of OMB’s subsequently issued
criteria for supporting the President’s FY 2004 science agenda.         Processes for managing ongoing work. We found that the cen-
The OMB criteria direct managers to create well-conceived plans         ter lacked adequate controls for (1) documenting how ongoing
that, for every program, (1) identify goals, priorities, and links to   research is answering the questions in the plan; (2) ensuring that
national and “customer” needs; (2) justify how funds will be allo-      its annual planning and project approval process documents the
cated to ensure quality; and (3) implement appropriate outcome          specific ways in which proposed work will support the plan; and
measures and milestones for tracking progress toward goals and          (3) tracking actual time spent on projects—data needed to make
assessing whether funding should be increased or redirected. The        informed decisions about costs and funding levels. The science
Salmon Research Plan already demonstrates progress toward               center should assess and document the extent to which existing
meeting these criteria. With some additional work, it can more          projects support finding answers to the salmon questions, clearly
clearly reflect them.                                                   link the Salmon Research Plan to its annual planning and project
                                                                        approval process, and implement a system to track full program
Our other findings and recommendations are as follows:                  costs. In addition, we believe the center should make the research
                                                                        questions a standard component of its program review criteria.
Peer review. Despite the many positives of the research plan, its       Program reviews are a form of peer review in which experts from
true value for improving the quality of the center’s salmon-relat-      within and outside an agency evaluate the relevance of research
ed work has not been rigorously evaluated via a documented              to agency goals. Including the 10 questions in the review criteria
peer review process. Although the center conducts peer review           would further document a program’s value in relation to the
of some products, it does not have a documented peer review             Salmon Research Plan.
policy or a well-defined process for performing such reviews of
its research plans. NMFS needs to issue guidance that clearly           NOAA agreed with our recommendations and added that all of its
delineates the requirements for documented peer review                  NMFS science centers could benefit from taking similar actions.
processes. The science center should then document its existing         (SCIENCE AND TECHNOLOGY AUDITS DIVISION: STD-
process, add a step for obtaining formal comment on research            14440)




September 2002/Semiannual Report to Congress                                                                                         33
National Oceanic and Atmospheric Administration




FISCAL MISMANAGEMENT                                                     mended that for this second award, NOAA ensure the recipient
                                                                         performs all required tasks and carefully monitors incurred costs.
FOUND IN AUDIT OF NOAA                                                   (SEATTLE REGIONAL OFFICE: STL-14956)
COOPERATIVE AGREEMENT
A nonprofit fisheries research organization received a 3-year
cooperative agreement from NOAA in April 1998. The
$3,207,915 award was to be used for research on protecting and
enhancing salmon species in the Pacific Northwest. The agree-
ment specified 31 tasks that the recipient was to complete.

Our audit, conducted in April 2002, sought to determine whether
the organization had (1) accomplished the award objectives, (2)
complied with federal regulations and award terms and condi-
tions, and (3) claimed costs that were reasonable, allowable, and
allocable.

Our review disclosed that the recipient failed to perform 8 of the
31 tasks required by the agreement and could not properly docu-
ment the completion of work for the remaining 23. We also found
that the organization had violated federal financial management
regulations by inadequately managing the costs of the tasks.             Artificial streambed located at NMFS field station.
Specifically, it redirected the funds allocated for the 8 tasks it did
not perform to other tasks; its financial reporting system did not
compare actual expenditures against budgeted amounts for each
task order, did not account for the 8 tasks that were not per-
formed, and did not record the overexpenditures that occurred for        ACCOMPLISHMENTS AND
15 tasks; and the recipient’s expenses exceeded the project budg-
et by $11,674. The noncompliance with regulations and terms of
                                                                         CROSSCUTTING ISSUES
the agreement and the inadequate administration of the award             IDENTIFIED AT 14 WEATHER
caused us to question $428,695 in claimed costs.                         FORECAST OFFICES
                                                                         The National Weather Service (NWS) operates 121 weather fore-
  Cost Category                             Amount Questioned            cast offices (WFOs) nationwide, each of which provides
  Personnel                                       $322,674               continuous reports on weather conditions affecting its assigned
                                                                         county warning area. In FY 2000 OIG began inspecting these
  Fringe benefits                                    50,104              offices to determine how effectively they (1) deliver warnings,
  Indirect costs                                     55,917              forecasts, and other information to their service users; (2) coordi-
                                                                         nate their activities with state and local emergency managers; and
  Total                                           $428,695               (3) supervise their network of volunteer observers and spotters.
                                                                         We also assessed each office’s management and internal controls;
                                                                         its compliance with Department, NOAA, and NWS policies and
Because this was a cooperative agreement, NOAA personnel had             procedures; and the effectiveness of NWS’s regional oversight.
substantial involvement in directing or redirecting the tasks to be
performed, and apparently made significant modifications to the          During previous reporting periods we completed comprehensive
original work specified in the award. In light of this circum-           evaluations of four WFOs—Raleigh, North Carolina; San
stance, we recommended that NOAA either amend the award to               Angelo, Texas; Missoula, Montana; and Chanhassen,
accurately reflect the actual tasks it directed the recipient to per-    Minnesota—and found issues common to all. Specifically, we
form or disallow the total amount of questioned costs ($428,695)         determined that the four generally provided effective weather
and recover $417,021 for the improper claims.                            services but needed to improve administration and management
                                                                         oversight. They also needed more attention from regional man-
This research organization continues to perform work for NOAA            agers, who should conduct regular reviews of WFO management,
under a different cooperative agreement. We therefore recom-             program, technical, and administrative operations. (For more




34                                                                                   U.S. Department of Commerce/Office of Inspector General
                                                                                           National Oceanic and Atmospheric Administration




Map shows WFOs where OIG performed complete inspections (◆) or limited inspections ( ●).

details about the Raleigh, Missoula, and San Angelo reviews, see       fied during our four comprehensive reviews existed elsewhere. We
the September 2001 issue, pages 43-49; for Chanhassen, see the         also followed up with the first 4 offices to document any improve-
March 2002 issue, page 57.)                                            ments they had made since our initial inspections. At all 14
                                                                       locations, we focused on the seven major areas of office operations
During this semiannual period we conducted limited reviews of 10       defined by NWS: forecasting, outreach, the Skywarn and
additional offices—choosing WFOs from all six regions (see             Cooperative Observer programs, staff training, information tech-
below)—to ascertain whether the strengths and weaknesses identi-       nology, office management/administration, and regional oversight.


    Additional WFOs Reviewed

    Eastern Region                                  Central Region                                    Southern Region
    Mt. Holly, New Jersey                           Denver/Boulder, Colorado                          Miami, Florida
    Sterling, Virginia                              St. Louis, Missouri                               Norman, Oklahoma

    Western Region                                  Alaska Region                                     Pacific Region
    San Francisco, California                       Anchorage, Alaska                                 Honolulu, Hawaii
    Seattle, Washington




September 2002/Semiannual Report to Congress                                                                                        35
National Oceanic and Atmospheric Administration




SUMMARY OF FINDINGS                                                          offices as a result of NWS’s nationwide dissemination of
                                                                             our February 2000 report, which identified these
                                                                             problems at the Raleigh WFO.
Overall, we found that the WFOs did a good job of providing reli-
able and timely forecasts and other weather products (such as            ■   NWS regional offices did not provide adequate oversight
warnings and advisories). We noted a number of operational                   of WFO management, program, technical, and
strengths at the 10 offices and improvements at our original 4               administrative operations.
inspection sites that we attribute to several circumstances: NWS’s
dissemination of our four comprehensive reports to all WFOs, its
instruction to office managers to improve operations and proce-
                                                                     SUMMARY OF
dures as necessary, and its formulation of a team of WFO
meteorologists-in-charge to recommend techniques for improving       RECOMMENDATIONS
operations. Among our specific findings are the following:
                                                                     We made a number of recommendations to the assistant adminis-
    ■   NWS’s forecast performance statistics for FY 2001            trator for NWS to address the crosscutting issues we identified in
        showed that 10 of the 14 offices had a good or               our review of the 14 offices. Among these recommendations
        satisfactory track record of accurately and expeditiously    were the following: NWS regional directors should be instructed
        predicting weather events. The success rates for the         to (1) emphasize quality control of forecasts and forecast prod-
        remaining 4, however, were below regional averages.          ucts to the WFOs and work with them to determine whether any
        The regional offices and WFOs in question need to            of their state or local forecasts should be discontinued; (2) ensure
        determine whether these statistics are an anomaly or a       that the Cooperative Observer Program remains fully staffed by
        trend that needs correction.                                 trained employees, despite turnover; (3) ensure that the WFOs
    ■   The offices conducted effective outreach activities to       implement an office training plan, have individual development
        keep the community informed of weather events and to         plans for all staff, and have appropriate training resources for the
        raise awareness of meteorology and weather safety.           Weather Event Simulator and the Interactive Forecast
    ■   The WFOs we reviewed operate efficient and successful        Preparation System; (4) ask the offices to encourage their staff to
        Skywarn and Cooperative Observer programs, with the          conduct applied research and disseminate the research results via
        exception of the Anchorage office, which faces               their Internet web pages; and (5) ensure that WFO managers and
        formidable challenges because of the size and remoteness     staff are properly trained to comply with regulations and guide-
        of its warning area and harsh winters.                       lines for using purchase cards, convenience checks, and
                                                                     government vehicles, and for managing accountable property.
    ■   The offices generally provided good staff training.
        However, 7 offices did not have individual development
                                                                     In addition we recommended that the various regional headquar-
        plans in place for all employees (although they were
                                                                     ters develop schedules to regularly visit and conduct
        slated to complete such plans by the end of FY 2002),
                                                                     comprehensive reviews of each WFO under their supervision,
        and only 6 have active research agendas, even though
                                                                     with particular focus on the office’s programs, management,
        NWS encourages the offices to conduct operational or
                                                                     technical, and administrative functions, and IT security.
        applied research.
    ■   Each of the 14 offices has security documentation in         We also made a number of recommendations to address new or
        place for its information technology operations and on-      continuing problems identified at individual WFOs during this
        site personnel to oversee IT security. They also             inspection. (OFFICE OF INSPECTIONS AND PROGRAM
        implement IT controls and procedures, such as                EVALUATIONS: IPE-14577)
        periodically revising passwords, updating software
        inventory, and testing office backup and contingency
        procedures.
                                                                                  INVESTIGATIVE
At the same time, we found two administrative and management                      HIGHLIGHTS
deficiencies that require attention:
    ■   Most offices had weak internal controls over staff use of
                                                                     FORMER NOAA ADMINISTRATIVE
        purchase cards, convenience checks, and vehicles, and        OFFICER SENTENCED TO PRISON
        maintained inadequate inventory records of accountable       FOR EMBEZZLEMENT
        property. These deficiencies leave the WFOs vulnerable
        to waste and theft of government resources. We noted         In the September 2001 issue (pages 78-79), we reported the con-
        efforts to improve administrative operations at several      viction of a former NOAA administrative officer on one felony



36                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                        National Oceanic and Atmospheric Administration



count of violating 18 U.S.C. §641, based on his embezzlement of      Administrative Support Center, who had manipulated the
more than $33,000 from the government over a period of nearly        Commerce Administrative Management System to make about
2 years. On May 14, 2002, the defendant was sentenced in U.S.        $19,000 in payments to her personal credit card with government
district court for the Western District of Missouri to 5 months’     funds. On June 19, 2002, the defendant was arrested by an OIG
imprisonment, 5 months’ home detention, and 3 years’ probation.      agent and a federal marshal near Tampa, Florida, and released on
Under the terms of his earlier plea agreement, the defendant is      $25,000 bail after being arraigned on six counts of wire fraud. No
also required to make full restitution to the government. (DEN-      date has been set for trial. (DENVER FIELD OFFICE OF
VER FIELD OFFICE OF INVESTIGATIONS)                                  INVESTIGATIONS)


NEW HAMPSHIRE FISHERMAN
                                                                     FORMER NWS EMPLOYEE
INDICTED FOR GRANT FRAUD
                                                                     SENTENCED FOR MISUSE OF
On April 25, 2002, a four-count indictment was issued in the U.S.    GOVERNMENT PURCHASE CARD
district court for the District of New Hampshire, charging a fish-
erman with false statements, fraud, and embezzlement in              On April 5, 2002, a former employee of an NWS regional office
connection with a $192,000 NOAA fishing industry grant award-        in Alaska was sentenced in U.S. district court for the District of
ed to a nonprofit organization to study the harvest and              Alaska to 5 years’ probation, based on her theft conviction for
commercial development of green sea urchins. The indictment          using a government purchase card to charge nearly $7,500 in
charged the defendant with claiming more than $109,000 in            goods and services for her own use. (See March 2002 issue,
salary and vessel time as project expenses, although he failed to    page 91.) Under the terms of a plea agreement, the defendant
perform the work set out in the grant agreement. In addition, he     is also required to make restitution of the full amount of the
is charged with theft of approximately $16,000 from the govern-      government’s loss. (DENVER FIELD OFFICE OF INVESTI-
ment by retaining the proceeds of sea urchin sales generated by      GATIONS)
the project. The false statement and wire fraud charges against
the defendant each carry a maximum penalty of 5 years in prison,
and the two theft counts could result in a sentence of up to 10      GIFT ACCEPTANCE RESULTS IN
years’ incarceration. Trial is scheduled for November 2002.
                                                                     NWS EMPLOYEE’S DEMOTION
(WASHINGTON FIELD OFFICE OF INVESTIGATIONS)
                                                                     In lieu of a proposed 14-day suspension, an NWS meteorologist
                                                                     agreed to a reassignment of duties and a voluntary reduction in
DEFENDANT ARRESTED IN                                                grade for accepting gifts from an outside source in violation of
FLORIDA ON WIRE FRAUD                                                the standards of ethical conduct for employees. An OIG investi-
CHARGES                                                              gation disclosed that the employee had received free tickets and
                                                                     parking passes from a minor league baseball team in appreciation
In the last issue (page 92), we reported the indictment of a         for weather forecasts provided to the team by his office. (DEN-
former financial accounting technician at NOAA’s Mountain            VER FIELD OFFICE OF INVESTIGATIONS)




September 2002/Semiannual Report to Congress                                                                                     37
                        NATIONAL
                        TELECOMMUNICATIONS
                        AND INFORMATION
                        ADMINISTRATION

                              Advances in telecommunications continue to change the nation’s economic and social fabric in ways that

T        he
         mission of
         the National
Telecommunications and
Information Administration
                                  profoundly affect every American and the world at large: our marketplace, public services and protec-
                                     tions, systems of education, and methods of information exchange are but a few of the fundamental
                                        aspects of society that rely on telecommunications technology.

is to (1) serve through the                 NTIA’s exclusive focus on telecommunications and information technology is unique
Secretary of Commerce as the                  among federal agencies, and puts it at the forefront of America’s evolving communications
principal executive branch advisor             infrastructure. In the new digital era, NTIA is using its expertise and resources to forge
to the President on domestic and                industry innovation and competition, as well as consumer empowerment; facilitate the
international communications and                  availability of wireless services; and expedite the digital conversion of the public
information policies, (2) ensure                   broadcast system.
effective and efficient federal use
of the electromagnetic spectrum,                    NTIA’s two telecommunications investment programs—the Technology Opportunities
(3)develop with other federal                       Program (TOP) and the Public Telecommunications Facilities Program (PTFP)—pro-
agencies policies for international                 vide  grants to state, local, and tribal governments, and nonprofit entities to help finance
communications and standard-setting                a  range  of telecommunications projects in underserved communities. TOP grants sup-
organizations, (4) serve as the                    port  model   projects that demonstrate innovative uses of digital network technologies.
federal telecommunications research               PTFP    grants  support construction and replacement of public radio and television facili-
and engineering center, and                      ties,  and  expansion   of broadcast signals. Since 1994 the two programs have awarded
(5) administer grants under                     grants   totaling approximately    $430 million.
the Telecommunications and
Information Infrastructure
Assistance Program
and the Public
Telecommunications                                     INVESTIGATIVE
Facilities                                             HIGHLIGHTS
Program.

           EMPLOYEE SUSPENDED FOR FALSE TRAVEL
      REIMBURSEMENT CLAIMS

Based in part on the findings of an OIG investigation, an NTIA employee received a 14-day suspension for filing multiple claims for
reimbursement of local taxi fare charges that she had not actually incurred. (SILVER SPRING FIELD OFFICE OF INVESTIGATIONS)




38                                                                                    U.S. Department of Commerce/Office of Inspector General
                         TECHNOLOGY
                         ADMINISTRATION


T        he
         Technology
         Administration serves
the needs of technology-based
industry, advocates federal actions and
                                         INCREASING RELIANCE ON COMPUTING
                                              TECHNOLOGIES INCREASES
                                                   VULNERABILITIES FOR NIST DATA
policies to speed the transfer of technology             Automated teller machines, atomic clocks, mammograms, and semiconductors
from the laboratory to the marketplace, and                are among the innumerable products and services that rely in some way on
removes barriers for commercializing new tech-               the work of NIST. NIST’s mission is to develop and promote measure-
nologies. It includes three major organizations:               ments, standards, and technology to enhance productivity, facilitate trade,
                                                                and improve the quality of life. Most of NIST’s work is done at two
    Office of Technology Policy works to raise                   locations—Gaithersburg, Maryland, and Boulder, Colorado. The
    national awareness of the competitive challenge,              agency has a staff of more than 3,000 full-time scientists, engineers,
    promotes industry/government/ university partner-              technicians, and support personnel, plus 1,600 visiting researchers
    ships, fosters quick commercialization of federal               and 2,000 collaborators at affiliated centers around the country
    research results, promotes dedication to quality,                 and overseas.
    increases industry’s access to and participation in for-
    eign research and development, and encourages the                  An ever-increasing amount of NIST’s work depends on comput-
    adoption of global standards.                                      er models, computer data, and other electronic information. With
                                                                        NIST’s increasing reliance on computing technologies, includ-
    National Institute of Standards and Technology pro-                 ing the use of the Internet and its related information
    motes U.S. economic growth by working with industry                 dissemination techniques, the potential for loss, compromise,
    to develop and apply technology, measurements, and                  and misuse of NIST data and facilities has grown tremendously.
    standards. NIST manages four programs: the Advanced
    Technology Program, the Manufacturing Extension
    Partnership program, a laboratory-based measurement
    and standards program, and the National Quality                  ADDITIONAL IMPROVEMENTS
    Program.
                                                                              WOULD STRENGTHEN NIST’S
     National Technical Information Service is a self-                       INFORMATION SECURITY
     supporting agency that promotes the nation’s
     economic growth and job creation by providing
                                                                            PROGRAM
     access to information that stimulates innova-
     tion and discovery. NTIS accomplishes this                 As part of our review of Department-wide information security measures
     mission through two major programs:                     (see  page 53), we evaluated NIST’s security policies and procedures to
     information collection and dissemina-                 determine   their compliance with the Government Information Security
     tion to the public, and information                Reform    Act  using    NIST’s Security Self-Assessment Guide for Information
     and production services to fed-                 Technology   Systems.   8
                                                                               We  found that NIST is taking steps to improve information
     eral agencies.                               security; for example,  it  has increased its computer security staff, developed issue-spe-
                                              cific policies, procedures, and guidance for handling a number of security concerns;
                                          posted to its intranet a system security plan template, guidance, and list of frequently asked
                                     questions to aid in security plan development; established a security awareness and training pro-
                                gram; and implemented a computer security incident reporting and handling process. However, the

8
  NIST, November 2001. Security Self-Assessment Guide for Information Technology Systems, NIST Special Publication (SP) 800-26. Gaithersburg, MD: National
Institute of Standards and Technology.




September 2002/Semiannual Report to Congress                                                                                                             39
Technology Administration



bureau has yet to meet a number of key GISRA and other feder-                       NIST’s Inventory of Sensitive IT Systems
al requirements, and we made recommendations to resolve these                       Was Incomplete
deficiencies.
                                                                                    We identified three operational systems from the Advanced
                                                                                    Technology Program that were not included in the inventory,
NIST’s Information Security Policy and                                              which suggests that systems in other NIST components may also
Procedures Need to Be Strengthened                                                  be omitted. NIST publication SP 800-18, Guide for Developing
                                                                                    Security Plans for Information Technology Systems, contains
The policy does not address critical roles and responsibilities and                 guidance for identifying systems subject to security controls. We
essential management control elements, such as risk manage-                         recommended that the bureau make this information readily
ment, review of security controls, and certification and                            available to all of its components and see that it is properly fol-
accreditation.9 It assigns responsibility for system accreditation                  lowed. NIST noted that additional guidance was provided on
to the CIO, but not to the senior official whose mission the sys-                   system boundaries to system owners, who used it to reassess the
tem supports.                                                                       system inventory.

We recommended that the director of NIST take the necessary
steps to ensure the development and implementation of a com-                        User Accounts for Off-Site Researchers
prehensive policy by instructing NIST managers to explicitly                        Are Not Always Promptly Closed When
identify and document all information security roles and respon-                    Access Is No Longer Required
sibilities, including those of the director and CIO; by extending
accreditation authority to all senior officials whose mission could                 NIST needs to tighten this control: bureau managers should veri-
be adversely affected by information security weaknesses; and                       fy that systems administrators and information security officers
reviewing and revising, as appropriate, NIST’s Recommended                          are immediately notified when external researchers no longer
Computer Security Procedures for incorporation into the security                    need access to NIST’s computing resources. NIST stated that in
program policy.                                                                     FY 2001, it began developing a system for tracking guest
                                                                                    researchers who have a NIST badge and that the system will be
                                                                                    expanded to track all guest researchers and external collaborators.
Deadlines for Risk Assessments, Security
Plans, and Accreditations Are Unrealistic
                                                                                    Risk Designations for Some Positions Are
At the time of our evaluation, none of NIST’s 109 operational                       Inconsistent with Their Levels of
systems had a documented risk assessment or an approved secu-                       Responsibility and Trust
rity plan. Additionally, all but 2 systems lacked accreditation.
The bureau had established a schedule for completing risk                           Designations of risk reflect the potential damage an individual in
assessments, security plans, and accreditations, but we believe                     a position of public trust could cause to the efficiency and integri-
its time frame was too ambitious to permit sufficient analysis,                     ty of government programs. We found that some positions in the
documentation, and review.                                                          Advanced Technology Program and the Mechanical Engineering
                                                                                    and Physics laboratories—such as systems administrators and
NIST indicated that it had extended its deadline for accreditation                  information security officers—had low risk designations, even
by 30 days. However, given the complexity and importance of                         though the work of such staff directly affects government opera-
the activities required to accomplish accreditation, including                      tions. As a result, employees in these positions had not received
testing of security controls to ensure that they perform as intend-                 appropriate background checks. NIST responded that its man-
ed, we remain concerned that even with the schedule extension,                      agers have been instructed to work with the Department’s Office
there is not enough time to adequately complete all of the requi-                   of Human Resources and Office of Security to verify that all cur-
site activities and documentation. We believe that the                              rent positions are properly designated according to risk and
accreditations should be considered provisional until there is                      appropriate background investigations conducted for staff who
confirmation that each system has all needed security controls                      have information system or security responsibilities.
and that these controls have been tested to ensure they perform
as intended.
                                                                                    NIST Does Not Have an IT Capital Asset
                                                                                    Planning Process
9
  Certification is the formal testing of the security safeguards implemented in a
computer system to determine whether they meet applicable requirements and          The 1996 Clinger-Cohen Act requires agencies to establish a cap-
specifications. Accreditation is the formal authorization by management for sys-
tem operation, including an explicit acceptance of risk.                            ital planning and investment control process for all IT capital



40                                                                                             U.S. Department of Commerce/Office of Inspector General
                                                                                                               Technology Administration



assets to help ensure that appropriate projects are funded and well   procedures, and operational environment are exemplary. NIST’s
managed and to integrate IT planning, budgeting, acquisition,         CIO will co-accredit all systems after a review by the information
and management. GISRA and OMB require agencies to identify            security officer. Finally, a proposal for a new CIO organization
and budget for security measures and resources needed to protect      was submitted to the Department for approval. (OFFICE OF
their IT investments throughout the investment’s life cycle.          SYSTEMS EVALUATION: OSE-15078)
Despite these and other federal directives, NIST has yet to
implement an agencywide IT capital planning and control
process, and thus cannot ensure that IT projects are appropriate-
ly selected, planned, and managed; that information security is a     ADVANCED TECHNOLOGY
factor in each system’s design and a management consideration
throughout its life cycle; or that information security cost esti-    PROGRAM
mates are valid. The bureau should set and meet a deadline for
finalizing and implementing an IT capital planning and invest-        Since 1990 the Advanced Technology Program (ATP) has
ment control process that integrates information security with the    invested nearly $1.9 billion in private sector research and devel-
budget process. According to NIST, a capital investment plan-         opment to accelerate the time-to-market for innovative
ning process was begun in FY 2002 and will be fully                   technologies that promise significant benefits to the nation as a
implemented in FY 2003.                                               whole. ATP develops partnerships with individual firms (single
                                                                      applicants) or consortiums of businesses (joint ventures) as well
                                                                      as with universities and nonprofit organizations, entering into
NIST Needs a Permanent Chief                                          cooperative agreements to share the cost of high-risk research
Information Officer                                                   and development.

To support GISRA requirements for executive oversight of infor-       From 1990 through June 2002, NIST awarded 414 ATP agree-
mation security improvements, in June 2001 the Secretary of           ments to single applicants and 188 agreements to joint ventures.
Commerce directed all operating units to appoint a CIO who            Small businesses constituted 75 percent of the single applicants
would report to the unit’s head or principal deputy, as well as to    and were the lead firm in 36 percent of the joint ventures.
the Department’s CIO. The Secretary further directed secretarial
officers and heads of operating units to give information security    Joint ventures have accounted for approximately 60 percent of
high priority and sufficient resources and to work closely with       total ATP funding and averaged $6 million per agreement, while
their CIOs to implement effective security measures.                  awards to single applicants averaged $1.8 million. Private indus-
                                                                      try has matched ATP’s investment with $1.8 billion over the
At the time of our review, NIST had not appointed a CIO.              program’s 12-year history. ATP’s cost-sharing requirements are
Instead, its CIO office resided in its Information Technology         strict: joint ventures must pay at least half of the project costs.
Laboratory (ITL) and reported to ITL’s acting director, who also      Large Fortune 500 firms participating as single applicants must
served as the acting CIO. NIST needs to define and implement a        pay 60 percent. Small and midsize firms may be reimbursed for
new CIO organizational structure, appoint a CIO as soon as pos-       up to 100 percent of direct costs, but must pay all indirect costs.
sible, and ensure that this official has responsibility for and
authority to develop and maintain an agencywide information           During this semiannual period we audited costs claimed under
security program. NIST should also take other appropriate             five ATP awards—three joint ventures and two individual awards.
actions to ensure that information security receives high priority
in accordance with the Secretary’s direction and that senior man-
agement officials at the bureau understand and implement their
information security responsibilities.                                AUDIT OF PENNSYLVANIA JOINT
                                                                      VENTURE ADMINISTRATOR
                                                                      QUESTIONS $3.3 MILLION IN
AGENCY ACTIONS ON OUR                                                 CLAIMED COSTS
RECOMMENDATIONS
                                                                      In September 1995 NIST awarded $21.3 million in ATP funds to
NIST has accepted and is implementing our recommendations.            a nonprofit corporation located in western Pennsylvania as the
Since the conclusion of our fieldwork, the director of NIST           designated joint venture administrator of a consortium of busi-
issued several memorandums acknowledging his responsibility           nesses developing a national health care “knowledge bank”—a
for the security of NIST’s data and IT systems and directing          searchable multimedia database of expert medical information
upper management to give information security high priority. He       that doctors can browse and retrieve. Estimated costs for the 5-
also directed upper management to ensure the agency’s policies,       year project were $51.3 million, of which joint venture members



September 2002/Semiannual Report to Congress                                                                                       41
Technology Administration



were required to contribute $30 million. ATP funding concluded         joint venture members were materially in compliance with
in September 2000. Over the course of the 5 years, the adminis-        award terms and conditions. However, we questioned
trator claimed $8.6 million in direct costs and $3.1 million in        $367,014 of the total costs for which the two businesses
indirect costs.                                                        received reimbursement—$350,142 in indirect costs that
                                                                       exceed the budgeted amount and negotiated rate, and $16,872
We sought to determine whether the administrator’s claims for          in labor and consulting costs incorrectly charged to the NIST
reimbursement of direct project costs were accurate and whether        project. We also determined that claims submitted for costs
it had complied with applicable legal and administrative require-      incurred beyond the approved project period were ineligible
ments. Our audit disclosed that the administrator claimed              for NIST reimbursement.
$3,255,490 in unsupported or otherwise unallowable costs in the
following categories:                                                  We recommended that NIST disallow the questioned costs,
                                                                       recover disbursed federal funds of $180,284, immediately close
                                                                       out the award, and deobligate the remaining award funds so that
  Questioned Costs                                     Amount          they can be put to better use. (DENVER REGIONAL OFFICE OF
                                                                       AUDITS: DEN-14978)
  Salaries and fringe benefits                       $ 354,475
  Equipment                                              669,989
                                                                       MINOR INFRACTIONS FOUND
  Consulting                                           1,130,700
                                                                       DURING AUDIT OF TEXAS JOINT
  Network contracts                                    1,100,326       VENTURE PARTICIPANTS
  Total                                              $ 3,255,490
                                                                       A joint venture is conducting a $5.8 million broadband commu-
                                                                       nications project under a 30-month ATP cooperative agreement.
We recommended that NIST disallow the full amount questioned           Federal funding for the project is limited to $2,395,768, and the
and recover $1,466,754 in excess federal disbursements. A sepa-        award period is November 2000 through April 2003.
rate audit of the project’s indirect costs is currently under way.
(ATLANTA REGIONAL OFFICE OF AUDITS: ATL-13993)                         We conducted an interim audit of $1,957,530 in costs claimed by
                                                                       all the participants in the joint venture administrator from the
                                                                       project’s inception through March 2002. We also assessed the
                                                                       administrator’s accounting and financial systems and compliance
OIG RECOMMENDS                                                         with ATP terms and conditions.
DISALLOWANCE OF COSTS AND
                                                                       We found that the administrator billed NIST twice for sales tax
RECOVERY OF FUNDS FROM NEW                                             ($15,722) on an equipment purchase and improperly charged
JERSEY JOINT VENTURE                                                   $7,075 for related general and administrative costs. We ques-
                                                                       tioned this total amount ($22,797). The administrator agreed with
In September 1998 NIST awarded an ATP cooperative agreement            our finding and deducted the amount from its March 2002
to partially fund a joint venture for development of propane-          request for NIST reimbursement. We found no other deficiencies
fueled power systems to support telecommunications                     with the administrator’s accounting system and no instances of
applications. The 2-year project had total estimated costs of          noncompliance with applicable laws and regulations. (DENVER
$6,376,772, with the federal share capped at $3,159,324, or 49.54      REGIONAL OFFICE OF AUDITS: DEN-14517)
percent of allowable costs.

For the 2-year award period ending December 31, 2000, the two          CONFLICT OF INTEREST
participants in the joint venture claimed total costs of $5,915,528.
NIST reimbursed $2,929,018, which left $230,306 in undis-
                                                                       RESULTS IN QUESTIONING OF
bursed award funds. The administrator subsequently submitted           COSTS CLAIMED BY
additional claims that extended beyond the approved award peri-        CALIFORNIA RECIPIENT
od, which NIST has not reimbursed.
                                                                       In September 1998 NIST awarded an ATP cooperative agreement
We audited the total claimed costs by the two businesses in the        to a single applicant for a 3-year research project that had total
joint venture. We confirmed that the accounting systems used           estimated costs of $2,279,524. Federal funding for the project
to administer the award were generally adequate and that the           was capped at $2 million.




42                                                                                U.S. Department of Commerce/Office of Inspector General
                                                                                                              Technology Administration



Our audit sought to (1) determine whether the recipient’s            lenges. But the ability of small and midsize firms to integrate new
accounting and financial management systems complied with            technologies and related management practices, and thus
federal regulations and NIST/ATP requirements, (2) verify final      enhance their performance and productivity, is often hindered by
incurred costs, and (3) identify any instances of noncompliance      a lack of financial and technical resources.
with award terms or conditions.
                                                                     The Manufacturing Extension Partnership Program (MEP)
We noted a conflict of interest in the recipient’s awarding of two   attempts to help smaller companies overcome these barriers by
subcontracts and one consultant agreement: both the subcontrac-      entering into cooperative agreements with industry experts to
tor and the consultant were members of the recipient’s board of      provide needed business and technical expertise. During this
directors and thus had the ability to influence their selection as   semiannual period, we audited one MEP cooperative
service providers and the administration of the resulting con-       agreement.
tracts and agreements. Additional questioned costs totaling
$9,652 were comprised of (1) $6,962 in postaward costs, (2)
$2,286 in commercialization costs, and (3) $404 in fines. As a       AUDIT DISCLOSES $2.4 MILLION IN
result, we questioned $540,913 in subcontractor and consultant       QUESTIONED COSTS AND MORE
costs. (DENVER REGIONAL OFFICE OF AUDITS:
DEN-14886)
                                                                     THAN $600,000 IN UNREPORTED
                                                                     PROGRAM INCOME

NO COST OR COMPLIANCE                                                In September 1996 NIST awarded an MEP cooperative agree-
                                                                     ment to a Minnesota firm for a business assistance project with a
ISSUES NOTED IN INTERIM AUDIT                                        total estimated cost of $33,037,125. Federal funding was not to
OF MASSACHUSETTS RECIPIENT                                           exceed $11,012,375, or 33.3 percent of allowable costs. The proj-
                                                                     ect was scheduled to run through June 2002.
We performed an accounting system survey and interim financial
and compliance audit of an ATP cooperative agreement award to        We conducted an interim financial and compliance audit of costs
a Massachusetts firm in March 2001. Total estimated costs for the    claimed during the 2-year period from July 1999 through June
2-year project were $1,992,245, with federal funding during the      2001 to determine whether the recipient’s accounting and finan-
first year limited to $1,128,000.                                    cial management system complied with federal and MEP
                                                                     requirements and whether claimed costs were supported and
We reviewed project costs claimed during the first 9 months of       allowable. As a result of our audit we questioned $2,440,890 in
the award—$1,269,000, for which the recipient received reim-         administrative costs that the recipient had arbitrarily charged as
bursement of $846,000. Our audit found that the claimed costs        direct costs, rather than indirect costs under an approved cost
were accurate and appropriately reimbursed, the firm’s account-      allocation plan, as required by the award and applicable cost prin-
ing system was generally adequate for the purposes of the award,     ciples. We also found that the recipient’s accounting system did
and the company was adhering to award terms and conditions in        not accurately allocate labor and related costs among NIST and
all material respects. (DENVER REGIONAL OFFICE OF                    non-NIST functions; and the firm failed to report $652,334 in
AUDITS: DEN-14989)                                                   program income. The $2,440,890 in unsupported costs and the
                                                                     $652,334 in unreported program income resulted in excess pro-
                                                                     gram income of $3,093,224.

MANUFACTURING                                                        We recommended that NIST disallow the $2,440,890 in unsup-
                                                                     ported costs and recover $813,631 in excess federal
EXTENSION PARTNERSHIP                                                disbursements. We further recommended that the firm be
PROGRAM                                                              required to develop plans and procedures to correct its account-
                                                                     ing and cost allocation deficiencies. Finally we recommended
Manufacturing has long been a staple of the U.S. economy. More       that the firm account for the $3,093,224 in excess program
than 360,000 manufacturers employ some 18 million people and         income, which could be revised downward should unsupported
contribute a combined total of $1.5 trillion to our annual gross     costs be resolved. (DENVER REGIONAL OFFICE OF AUDITS:
domestic product. Two-thirds of the manufacturing workforce is       DEN-14879)
employed by small and midsize firms.

To remain competitive, manufacturers must be able to stay
abreast of ever-changing technologies and meet new global chal-




September 2002/Semiannual Report to Congress                                                                                      43
Technology Administration



                                                             qui tam (whistleblower) suit initiated by five former employ-
                                                             ees of the company, who alleged that the ATP awards had been
            INVESTIGATIVE                                    charged for labor and other costs actually incurred to perform
            HIGHLIGHTS                                       work for the company’s commercial customers. The United
                                                             States intervened in the action in May 1999, following an
NIST TO RECEIVE PAYMENT FROM                                 investigation of the charges by OIG with the assistance of a
                                                             NIST chemist. The final amount of the settlement—the first
ATP RECIPIENT TO SETTLE FALSE                                False Claims Act settlement involving an ATP award—will be
CLAIMS ACT ALLEGATIONS                                       determined by the level of the company’s gross income over
                                                             the next 5 years; a share of the proceeds will be paid to the
A Utah chemical company that received nearly $4 million in   original plaintiffs under the act’s whistleblower provisions. As
Advanced Technology Program funds has agreed to pay NIST     part of the settlement, the company has also agreed not to par-
between $700,000 and $1.2 million over the next 5 years to   ticipate in any nonprocurement program at Commerce for a
settle allegations that the company mischarged the govern-   5-year period. (WASHINGTON FIELD OFFICE OF
ment under two research awards. The settlement resolved a    INVESTIGATIONS)




44                                                                      U.S. Department of Commerce/Office of Inspector General
                        UNITED STATES PATENT AND
                        TRADEMARK OFFICE


T       he
        United
        States
Patent and
                             INDEPENDENT OIG EVALUATION OF USPTO’S
                                  INFORMATION SECURITY PROGRAM REVEALS
                                     WEAKNESSES BUT HIGH-LEVEL
Trademark Office                        COMMITMENT TO IMPROVE
administers the nation’s
patent and trademark laws.                As a performance-based organization, USPTO has greater flexibility and independence in
Patents are granted, and                   managing its operations and thus has undertaken actions separate from the Department to man-
trademarks registered, under a             age information security. Therefore, this year we conducted a separate GISRA evaluation
system intended to provide                  of USPTO’s information security program in addition to our review of the Department’s
incentives to invent, to invest             (see page 53).
in research, to commercialize
new technology, and to draw                We sought to determine whether the bureau’s program and practices comply with the act,
attention to inventions that               which requires that agencies have effective security measures for the information resources that
would otherwise go unno-                  support their operations. We based our evaluation on the findings of the information security-
ticed. USPTO also collects,              related reviews of USPTO we conducted during the fiscal year.
assembles, publishes, and
disseminates technologi-              Until recently, information security had not received adequate attention at USPTO. As a result, sig-
cal information                     nificant weaknesses exist in planning, budgeting, implementing, reviewing, and overseeing this area.
disclosed in                      We found that the bureau is making a determined effort to improve its information security program and
patents.                      its top leadership is committed to this goal. USPTO has developed a corrective action plan that provides
                          a solid foundation for improvement. However, much remains to be done.


EVALUATION RESULTS

    1. GISRA requires that significant deficiencies in security policy, procedures, or practices be reported as a material weakness.
       OMB instructs agencies to identify security weaknesses if there is no assignment of security responsibility, no security plan,
       or no accreditation. USPTO lacks up-to-date security plans and current accreditations for its operational systems—deficiencies
       we believe constitute a reportable material weakness. We recommended that USPTO report information security as a material
       weakness until all mission-critical systems are accredited. In its own GISRA report, USPTO stated that it had declared
       information security a material weakness in FY 2002 because none of its systems has been certified or accredited.
    2. USPTO’s incident response procedures are not consistent with requirements in OMB Circular A-130 and GISRA, in that they
       do not require the bureau to notify or consult OIG and external security offices and authorities about a significant security
       incident. USPTO is revising these procedures to stipulate that incidents be reported to the Department, which will then relay
       the information to the appropriate entities.
    3. Program officials have not given sufficient attention to assessing the risks to the information assets that support their
       operations, determining the level of security required to protect them, and periodically testing and evaluating information
       security controls and techniques. We found that 82 percent of USPTO’s operational systems lacked documented risk
       assessments; 30 percent had outdated security plans; and none had been accredited.
    4. GISRA requires agency CIOs to administer the information security program agencywide, a process that entails developing
       the program, ensuring it is effectively implemented and maintained, and training and overseeing personnel who have
       significant responsibilities for information security. USPTO needs improvements in all of these areas. Specifically, at the time




September 2002/Semiannual Report to Congress                                                                                         45
United States Patent and Trademark Office



       of our evaluation, existing policies and procedures were       USPTO IS ACTING TO
       often not implemented, security impacts of system
       upgrades were not always considered, system security           RESOLVE SECURITY
       documentation was inaccurate, information security             WEAKNESSES IN HIGH-
       training inadequate, and information security
       requirements were neither identified in capital asset plans
                                                                      PRIORITY PATENT
       nor linked to security cost estimates.                         APPLICATION CAPTURE AND
    5. USPTO needs to include information security provisions         REVIEW AUTOMATED
       in its IT service contracts, in light of the findings of our   INFORMATION SYSTEM
       review of 40 such contracts throughout the Department
       (see page 51). Across the board, we found that provisions
                                                                      As part of our GISRA work, we evaluated USPTO’s Patent
       to safeguard sensitive but unclassified systems and
                                                                      Application Capture and Review Automated Information
       information in these contracts (some of which had been
                                                                      System, or PACR. This system captures, stores, maintains,
       awarded by USPTO) were either insufficient or
                                                                      retrieves, and prints digital images of U.S. patent applications
       nonexistent—a problem likely affecting the majority of
                                                                      and is thus critical to USPTO’s daily operations. We used
       IT service contracts throughout the Department.
                                                                      NIST’s Security Self-Assessment Guide for Information
    6. At the time of our evaluation, meeting some important          Technology to assess implementation of a sample of PACR’s
       deadlines in USPTO’s corrective action plan appeared           management and operational controls for information security
       problematic, including those for developing the                (see table below). We originally intended to assess technical
       administrative order on security policies, completing a        controls as well, but opted not to because USPTO was unable to
       certification and accreditation pilot, developing system-      provide consistent information in this area and because the
       level procedures, and preparing a disaster recovery plan.      bureau will evaluate those controls as part of a pilot project it is
                                                                      conducting on certification and accreditation in response to our
In addition to the actions described above, USPTO intends to          agencywide evaluation (see March 2002 issue, page 74).
have updated security plans in place by the end of FY 2002. It has    USPTO is implementing other recommendations from that eval-
funded development of a certification and accreditation process,      uation, which should address many of the problems we
with a goal of accrediting all high-risk systems by the end of FY     identified in our PACR review.
2003 and all remaining systems by the end of FY 2004. The
process will include updates of security plans every 3 years.
                                                                      MANAGEMENT CONTROLS
USPTO is also restructuring the Office of Information System
Security to increase its effectiveness; and the chief information
                                                                      We noted weaknesses in all the management controls we
officer is preparing an administrative order describing USPTO’s
                                                                      assessed. However, weaknesses in the first four controls are
information security policies and clarifying staff roles and
                                                                      being addressed as part of the pilot project.
responsibilities. In addition, all USPTO employees and contrac-
tors completed security awareness training as of June 30, 2002,           1. Risk management. No risk assessment had been per-
and a working group is developing a plan for providing security              formed for PACR; therefore, we could not determine
training specific to the individual responsibilities of all staff            whether security measures were adequate to deal with
members. USPTO has also developed an information security                    existing threats and vulnerabilities.
budget that allocates funding for needed improvements.                    2. System security plan. USPTO had developed security
(OFFICE OF SYSTEMS EVALUATION: OSE-15250)                                    plans for PACR but could not document their official
                                                                             approval. Hence, PACR lacks a critical component needed
                                                                             for accreditation—an approved security plan.
                                                                          3. Review of security controls. OMB requires that agencies
                                                                             perform a formal management review of security controls,
                                                                             which should include an independent assessment, at least
                                                                             every 3 years and whenever a significant system modifi-
                                                                             cation occurs. At the time of our evaluation, PACR
                                                                             controls had not been tested.
                                                                          4. Authorize processing. OMB also requires that manage-
                                                                             ment officials formally authorize (accredit) the use of a
                                                                             system before it becomes operational, and reauthorize it
                                                                             whenever a significant change occurs or at least every 3



46                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                 United States Patent and Trademark Office



       years. PACR has been upgraded several times since its              SCOPE OF OIG REVIEW OF SECURITY
       implementation, but none of the versions have been                 CONTROLS FOR PATENT APPLICATION
       accredited.                                                        CAPTURE AND REVIEW SYSTEM

    5. Life cycle. At the time of our review, USPTO was upgrad-             Control Category    Control                      Assessed
       ing operations by switching to a more capable local area
       network, which required changes to PACR network com-                 Management          Risk Management                  X
       ponents and related software. However, these changes were
       not well planned, nor did they adequately consider network                               Review of Security
       security implications: just prior to the initial transition step                         Controls                         X
       for PACR, USPTO could not identify the necessary                                         Life Cycle                       X
       changes to software and firewall rules. The information
       systems security officer had not been notified of the                                    Authorize Processing             X
       impending firewall changes, even though, at the time, he                                 System Security Plan             X
       was the acting director of the Office of Information
       Security, which is responsible for directing and reviewing           Operational         Personnel Security
       such proposed modifications.
                                                                                                Physical Security                X
In addition, the PACR system documentation we reviewed did                                      Production, Input/ Output
not reflect the current system and four network topology dia-                                   Controls
grams we examined had the same issuing date but each was
different from the others and none accurately described the then-                               Contingency Planning             X
current or planned topology. Although they were describing the                                  Hardware and Systems
same system, the High-level Architecture document and the                                       Software Maintenance
Operational Support Plan contained different information con-
cerning the network topology, equipment lists, and points of                                    Data Integrity
contact. USPTO needs to improve its process for keeping docu-
mentation current and for tracking its status.                                                  Documentation
                                                                                                Security Awareness,
                                                                                                Training, and Education          X
OPERATIONAL CONTROLS
                                                                                                Incident Response
The physical security measures in place during our review pro-                                  Capability
vided appropriate protection for equipment that PACR relies on              Technical           Identification and
to support USPTO operations. Servers that store images of patent                                Authentication
applications, as well as the firewall that prevents unauthorized
access to them, are located in a secure data center that has effec-                             Logical Access Controls
tive electronic entry controls and round-the-clock security                                     Audit Trails
personnel. Scanning servers that create the images are located in
a separate secure facility, but USPTO plans to relocate them with
the storage servers. We noted that in their current location, access      AGENCY RESPONSE
is controlled by a cipher lock, the combination to which is not
changed when employees and contractors who have access con-               USPTO agreed with all of our recommendations and has begun
clude their work with USPTO. We recommended that USPTO                    taking action to address them. (OFFICE OF SYSTEMS EVALU-
implement an agencywide policy for changing cipher combina-               ATION: OSE-14926)
tions periodically as well as whenever an employee or contractor
no longer requires access.

We found problems in the other two operational controls we
assessed. Specifically, USPTO does not have a contingency plan to
compensate for the loss of PACR operations in the event the system
becomes nonfunctional, despite OMB requirements for such plans;
and PACR system administrators have not received specialized secu-
rity training tailored to their information security responsibilities.




September 2002/Semiannual Report to Congress                                                                                         47
United States Patent and Trademark Office




                                                                      SENIOR USPTO OFFICIAL
            INVESTIGATIVE                                             COUNSELED FOR APPEARANCE
            HIGHLIGHTS                                                OF CONFLICT

FALSIFIED TIME AND                                                    A senior USPTO official was counseled for engaging in actions
                                                                      that created the appearance of a conflict of interest after an OIG
ATTENDANCE RECORDS                                                    investigation disclosed his participation in discussions and other
RESULT IN THEFT CHARGES                                               activities involving an outside organization that was negotiating
                                                                      an employment arrangement with his wife. In an effort to elimi-
On September 23, 2002, a criminal complaint was filed in U.S.         nate any real or apparent conflicts in the future, the official was
district court for the Eastern District of Virginia charging a for-   also assigned to head a new unit that-unlike his previous office—
mer USPTO employee with nine counts of theft of government            would not have direct responsibility for matters relating to his
property. The charges were based on an OIG investigation, which       wife’s employer. (SILVER SPRING FIELD OFFICE OF INVES-
disclosed that in her role as office timekeeper, she had inflated     TIGATIONS)
her reported hours of work over a 7-month period to obtain
approximately $7,000 in salary payments to which she was not
entitled. The defendant is scheduled to appear for arraignment at
the end of October. (SILVER SPRING FIELD OFFICE OF
INVESTIGATIONS)




48                                                                               U.S. Department of Commerce/Office of Inspector General
                      DEPARTMENT-WIDE
                      MANAGEMENT


T       he
        United States
        Department of
Commerce promotes job
creation and improved living
                                   STRONGER INTERNAL CONTROLS AND
                                       MANAGEMENT OVERSIGHT NEEDED IN THE
                                           OFFICE OF ADMINISTRATIVE SERVICES
standards for all Americans by              T he Office of Administrative Services (OAS), a component of the Office of the Secretary,
creating infrastructure that fosters         provides administrative support to Commerce headquarters and various units, ranging
economic growth, technological com-            from mail handling, printing, and library services, to property and vehicle management.
petitiveness, and sustainable growth.           In addition, OAS provides Department-wide policy and oversight in such areas as con-
                                                 struction, energy conservation, and environmental management.
The Department has three strategic goals:
     Goal 1: Provide the information and           At the request of the Department’s Chief Financial Officer and Assistant Secretary
     the framework to enable the economy           for Administration (CFO/ASA), we conducted an inspection of internal operations
     to operate efficiently and equitably.         at OAS, specifically focusing on practices involving purchase card and cell phone
                                                    use, cash awards, and overtime.
     Goal 2: Provide the infrastructure for
     innovation to enhance American                Overall, we found problems in each of the areas we evaluated, some of which were
     competitiveness.                              systemic, others that were limited to specific situations, and most of which were
    Goal 3: Observe and manage the                     due to poor management practices and inadequate internal controls. We detailed a
    Earth’s environment to promote                    series of recommendations to resolve these problems in a report to the CFO/ASA,
    sustainable growth.                              who responded with appropriate corrective action. Our key findings and recommen-
                                                    dations, as well as departmental steps taken to address the deficiencies, are
The Department has also established                summarized below.
a Management Integration Goal
that is equally important to all               Purchase card use did not always adhere to policy. OAS participates in the federal
                                               ■

bureaus: Strengthen man-                   purchase card program, which is designed to streamline the process for making small
agement at all levels.                   purchases and reduce associated administrative costs and paperwork. Our examination of
                                     records for purchases made by 26 cardholders between March 2001 and March 2002 revealed
                                  that these employees did not always keep documentation to support purchases and did not use
                              required sources of supply. For 8 percent of the purchases we reviewed, employees did not obtain the
                          necessary approval.

        We recommended that cardholders be required to keep a log of all purchase card transactions and retain all original docu-
        mentation; that approving officials review the log and statement of account, reconcile and approve all purchases monthly,
        and ensure that cardholders secure services and supplies from mandatory sources unless they have written authorization to
        purchase from commercial sources. The Department agreed with our recommendations and has implemented procedures to
        ensure that OAS purchase card usage adheres to applicable policy.

    ■   Awards program was not well managed. OAS employees received approximately $508,476 in departmental awards during
        fiscal years 1999 through 2001. However, we found a disorganized awards process that was poorly supervised and had weak
        internal controls. As a result, Commerce guidelines were violated. Because we were concerned that the deficiencies might be
        symptomatic of a Department-wide problem, we issued a special memorandum to the CFO/ASA prior to completion of our
        review, to alert him to our findings and prompt him to take action without delay. (See box on next page for a full discussion
        of the problems we identified, our recommendations, and the Department’s response.)




September 2002/Semiannual Report to Congress                                                                                      49
Department-Wide Management



   ■   Cell phones were used for personal calls. Some cell                     The Department concurred with our recommendations
       phone records appeared to contain calls that did not                    and has established procedures to ensure that cell phones
       pertain to official government business, and monthly bills              are used for official government business only and oper-
       were sometimes exorbitant—frequently ranging from                       ate on the most economical service plan. In addition,
       $400 to $800, and in two instances topping $1,000. We                   OAS managers are reviewing cellular phone bills to
       recommended that OAS seek full reimbursement for                        determine the total amount that employees owe for per-
       personal calls from any employees who have yet to make                  sonal calls.
       such payment; develop written policies that clearly state
       appropriate and allowable use of government-issued cell             ■   Time and attendance controls and documentation
       phones; provide cell phones only to staff who absolutely                were lacking. We reviewed time and attendance records
       need them to perform their jobs, and tailor their calling               for three employees to verify overtime charges of 1,152
       plan to expected monthly usage; and instruct managers to                hours during 2001—including one claim of 80 overtime
       monitor cell phone bills for evidence of abuse and to take              hours in a 2-week pay period. However, we were unable
       appropriate action.                                                     to substantiate the claimed hours because, among other




  OAS'S PROBLEMS WITH ITS CASH AWARDS PROGRAM REVEAL
  DEFICIENCY IN DEPARTMENTAL PROCESS

  During our OAS review, we found a number of management control weaknesses in the office's administration both of its own cash
  awards program and that of the Department, which we felt warranted the immediate attention of the Chief Financial Officer and
  Assistant Secretary for Administration, as they suggested a possible Department-wide problem. In June 2002 we presented these
  findings to him in a special memorandum:
   ■   Payroll taxes were not withheld from $24,650 in awards paid to 50 employees because OAS failed to provide the
       appropriate paperwork to the Office of Human Resources Management (OHRM), and OHRM did not have a process to
       detect such problems.
   ■   Nine OAS employees received awards that exceeded departmental thresholds—in calendar year 2001, six received more than
       the $1,000 limit for Cash-in-Your-Account (CIYA) awards (the awards ranged from $1,200 to $1,700); in FY 2001, three
       received a combination of awards totaling more than the allowable 10 percent of their base pay (in one case, award amounts
       totaled 30 percent of the employee's base).
   ■   Justification for special act awards was in some cases not provided, in others weak, and in still others did not fit the
       award criteria.

  Our subsequently issued report (IPE-15131) provided the following recommendations to correct these deficiencies: OAS should
  (1) establish a documented awards process that has a designated manager, an awards tracking mechanism, and a training
  component on departmental guidelines; (2) institute reconciliation procedures to verify that award amounts are accurate and
  properly taxed; and (3) develop automated controls to ensure that awards comply with departmental threshold requirements.

  The CFO/ASA agreed with these recommendations and has taken appropriate corrective action. The director of the Office of
  Management Support Services was designated as OAS's incentive awards program officer. OHRM revised the CIYA award policy
  to require that all cash awards be processed through the Department's payroll service, and that the bureaus develop a tracking
  system to document the net dollar value of CIYA awards made to individual employees and monitor compliance with the annual
  $1,000 CIYA award limitation. OAS will also use its tracking system to ensure that total awards for each employee do not exceed
  10 percent of base salary. And, finally, prior to processing CIYA awards, OHRM will conduct a comprehensive technical review
  of them to verify eligibility and conformance with award procedures and dollar limitations.

  Also, in response to our report, the acting director of the Office of Human Resources Management asked Commerce bureaus to
  examine their awards transactions to determine whether CIYA awards were being properly taxed. By the end of September 2002
  it appeared that the failure to withhold taxes from these awards was a problem at four units. Commerce management is working
  to identify all nontaxed awards and correct the weakness.




50                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                                          Department-Wide Management



        things, time and attendance records and overtime             INFORMATION SECURITY
        authorizations were incomplete or missing. OAS needs to
        better manage the time and attendance process to ensure      REQUIREMENTS NEED
        that overtime authorizations are properly completed and      TO BE INCLUDED IN
        approved and that timekeepers maintain all
        documentation for the required period of 6 years. The
                                                                     THE DEPARTMENT’S
        Department has implemented procedures to ensure that         INFORMATION TECHNOLOGY
        OAS’s time and attendance records are better managed.        SERVICE CONTRACTS
    ■   Energy and environmental programs need attention.            As the federal workplace has become more dependent on infor-
        The Department’s Energy Management Program                   mation technology, the government has increased its reliance on
        promotes use of renewable energy technologies among          outside contractors to perform various IT services. These servic-
        the bureaus and helps them reduce energy and water           es may be performed onsite or remotely, from contractors’
        consumption and manage utility costs. The                    facilities. In many cases, contractors have access to sensitive
        Environmental Management Program helps bureaus               information, or, by virtue of the services they perform, may be
        comply with environmental legislation. OAS, which            able to gain such access.
        administers both programs, has been slow to take action
        to ensure that the Department is in compliance with          In September 2001 OIG completed an independent evaluation of
        applicable laws and regulations pertaining to federal        the Department’s information security program, as required by
        energy and environmental programs.                           the Government Information Security Reform Act, in which we
                                                                     identified numerous information security weaknesses. Among
        For example, Commerce’s Strategic Implementation Plan        those deficiencies was the lack of sufficient policy and guidance
        for Energy Management contains 70 action items that          to ensure that contract documents for IT services contain ade-
        have not been completed. OAS recently hired an energy        quate information security provisions.
        management officer, who should be tasked with complet-
        ing the items and given the staff support and resources to   During this semiannual period, we followed up on this finding
        do so. The Department agreed, and has directed the ener-     from our earlier report by reviewing the security provisions con-
        gy manager to help Commerce bureaus address the              tained in a sample of the Department’s IT service contracts. We
        objectives outlined in the energy management plan.           found that contract provisions to ensure the safeguarding of sen-
                                                                     sitive but unclassified systems and information are either missing
        The environmental program is supposed to coordinate          or inadequate, and that federal guidance for establishing such
        reviews and surveys that require Department-wide             provisions is minimal and vague.
        response, develop an inventory of Commerce sites that
        store regulated and/or hazardous materials, perform envi-    We made five recommendations aimed at ensuring that all con-
        ronmental audits, establish an intra-agency task force on    tracting offices within Commerce include adequate information
        environmental compliance, and provide guidance on            security provisions in IT service contracts and thus protect the
        environmental regulations and training in meeting their      Department’s sensitive IT information and assets. Essentially,
        requirements. To date, much of this remains undone. The      we urged the Department to establish standard contract provi-
        environmental manager position has been vacant since         sions for safeguarding the security of unclassified systems and
        May 2002, and in the interim, there has been virtually no    to disseminate clear, detailed policy for acquiring these systems
        progress on developing the program. We recommended           and services. Such policy should require that contracting
        that OAS fill this position as quickly as possible to        offices, with assistance from information security and program
        ensure compliance with regulations as well as to provide     officials, among other things, assess the information security
        adequate protection for the Department. The Department       risk associated with the proposed service or system during the
        is in the process of hiring an environmental manager.        acquisition planning phases; identify and include appropriate
                                                                     security requirements in specifications and work statements;
Overall, we are very pleased with the prompt attention and action    monitor contractor performance to ensure compliance with
taken in response to the matters we raised in our report. (OFFICE    these requirements; and terminate the contractor’s access to
OF INSPECTIONS AND PROGRAM EVALUATIONS:                              systems and networks once the contract is closed out. We also
IPE-15131)                                                           advised that the Department should review all current contracts
                                                                     and solicitations for IT services to determine whether informa-
                                                                     tion security provisions should be added to them, even though
                                                                     such revisions may increase contract costs, and to ensure that




September 2002/Semiannual Report to Congress                                                                                     51
Department-Wide Management



all procurement personnel receive appropriate training in infor-      CAMS’s history of difficulties and its importance to Commerce’s
mation security so that they can properly prepare, negotiate, and     financial management prompted us to recommend that the sup-
monitor these contracts.                                              port center prepare and maintain a plan that (1) specifies full
                                                                      costs for all major system developments and enhancements as
                                                                      well as operations and maintenance activities; and (2) can be sub-
DEPARTMENT’S RESPONSE                                                 stantiated by an analysis of the work required to meet capability
                                                                      and schedule goals. The plan should be updated by the start of the
The Department ’s Chief Financial Office and Assistant Secretary      fiscal year to incorporate the most current information about pro-
for Administration generally agreed with all of our recommenda-       gram funding and system activities, including all associated
tions and is taking actions to implement them. (OFFICE OF             costs. We subsequently received documentation indicating that
SYSTEMS EVALUATION: OSE-14788)                                        the CSC has initiated the development of the planning informa-
                                                                      tion we initially requested. This documentation will enhance
                                                                      departmental managers’ and other stakeholders’ management and
                                                                      oversight of CAMS.
STRONGER MANAGEMENT
CONTROLS WERE NEEDED
FOR CAMS                                                              The total actual costs of CAMS
                                                                      major system activities needed
The Commerce Administrative Management System—an                      to be tracked in a more
important effort to improve and unify Department-wide finan-          transparent manner
cial management—is expected to be successfully implemented
in most Commerce organizations by FY 2004. The exceptions             The Clinger-Cohen Act requires executive agencies to measure
are ITA, USPTO, and NTIS, which will continue to obtain               program progress “in terms of cost, capability of the system to
accounting services from other sources. According to the              meet specified requirements, timeliness, and quality.” Although
Department’s FY 2004 CAMS Capital Asset Plan, starting in FY          the center tracked the cost of “contract tasks,” until recently, it
2004, annual operation and maintenance costs are expected to          did not systematically track the total actual cost of major system
exceed $35 million.                                                   activities. This approach did not provide the level of information
                                                                      we believe is necessary for effectively evaluating progress. We
In October 2001, funding scenarios under consideration would          recommended that the Department take the necessary actions to
have significantly reduced CAMS’s FY 2002 budget for devel-           ensure that the total actual cost of major system activities for
opment and maintenance. The Department believed these                 CAMS is tracked. After our draft report was issued, we received
funding levels would prevent NOAA from completing its CAMS            documentation indicating that the CSC is tracking total actual
implementation in FY 2002. Because we were monitoring                 costs of major system activities.
CAMS’s progress, to conduct our own evaluation we requested
information that we believed the Department would have need-
ed to determine the impact of the proposed funding level. The
Department did not provide all of the information we requested,       CAMS reports needed to provide
and based on the information we received, we were not able to         greater visibility into the program
determine the likely impact of the proposed funding level.
                                                                      Commerce prepares two types of reports on CAMS spending and
                                                                      progress: (1) The annual CAMS Capital Asset Plan, submitted to
                                                                      OMB, is supposed to describe and justify the program; detail its
Plans for CAMS major system                                           cost, schedule, and capability goals; and report progress in meet-
activities needed to be improved                                      ing goals; (2) CAMS Quarterly Reports are supposed to show
                                                                      progress against the Department’s established baseline schedule
At the time of our fieldwork, the CAMS Support Center could           and cost estimates for major systems activities.
not readily provide a detailed plan that specified the cost of all
major system activities. The plan it provided for our review at the   We examined the reports issued in FY 2001 and determined that
beginning of FY 2002 accounted for only a portion of these costs      neither of the reports provided adequate visibility into the pro-
and activities. We were informed that by the beginning of FY          gram’s baseline plans or into the impact of program changes. The
2002, the center knew informally how it would spend its funds         Department, we concluded, could improve both reports so that
but we were not provided a complete, documented plan.                 they provide the information needed to better evaluate CAMS
Notwithstanding the obvious progress made on CAMS recently,           program progress.



52                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                                        Department-Wide Management



We specifically recommended that the Capital Asset Plan be            SECOND DEPARTMENTAL
updated to provide cost estimates that are based on the work to
be performed and supported by an appropriate cost-estimating          GISRA EVALUATION FINDS
methodology, and to include a comparison of actual progress           PROGRESS MADE, BUT
toward meeting schedule and system capability goals. We fur-
ther recommended that the Quarterly Reports describe the
                                                                      MUCH WORK STILL AHEAD
impact of deviations from the baseline on future costs and deliv-
                                                                      OIG conducted its second annual evaluation of Commerce’s
ery schedules.
                                                                      information security program and practices, as mandated by the
                                                                      Government Information Security Reform Act, to determine
When we met with CSC officials in July, after our draft report
                                                                      progress made toward complying with GISRA and any problems
was issued, we obtained the quarterly report for the second quar-
                                                                      that remain. We based our evaluation on the results of security-
ter of FY 2002 and found that it demonstrates some changes
                                                                      related OIG reviews we conducted at the Department and its
consistent with our recommendation. Specifically, the report
                                                                      operating units during FY 2002 and on interviews and written
describes the impact of delays on schedule and users, although it
                                                                      materials we received from chief information officers and senior
does not address their effect on program costs. The Department
                                                                      information security officials at the Department and at BIS, ITA,
believes that additional information is not needed because the
                                                                      NTIA, and NOAA.
report is not intended for the uses we have suggested, but rather
to provide summary status information only. We also were given
                                                                      In last year’s evaluation we reported that the Department was
a draft FY 2004 CAMS Capital Asset Plan, which included
                                                                      striving to improve information security and make it an integral
revised fiscal year costs and estimated future costs. A detailed
                                                                      component of its business operations, but concluded that because
schedule, capability goals, and actual progress information were
                                                                      this issue has received inadequate attention in the past, the effort
not included in the material we received.
                                                                      required to develop and oversee an effective security program
                                                                      was substantial. (See September 2001 issue, page 59.) As we rec-
                                                                      ommended, Commerce identified inadequate information
A performance-based                                                   technology security controls as a material weakness in its FY
management system should be                                           2001 statement on financial and management controls.
implemented and maintained
                                                                      This year we noted that the Department has made considerable
The support center should implement a performance-based man-          strides toward establishing the foundation for an effective securi-
agement system as soon as possible to support day-to-day CAMS         ty program, but numerous weaknesses persist. Most notably,
management and comply with OMB requirements. Performance-             many of the IT systems in the units we evaluated are operating
based management provides objective information about a               without required risk assessments, approved security plans, or
program’s progress to protect against excessive deviations from       accreditations. Commerce established September 30, 2002, as the
goals. At the time of our fieldwork, the center had no integrated     deadline for having approved security plans for all operational
system for tracking cost, schedule, and capabilities. CSC officials   systems. We believe this schedule is unrealistic for developing
indicated that the center did have a budgetary process for col-       high-quality plans, and until all the Department’s national-10 and
lecting and monitoring schedule, cost, and progress data and that     mission-critical systems are accredited, Commerce should con-
an integrated software system that supports full performance-         tinue to report information security as a material weakness. The
based management will be implemented.                                 Department’s FY 2002 GISRA report states that the CIO intends
                                                                      to recommend to the Secretary that information security be
                                                                      repeated as a material weakness.
Summary of
Department’s Response                                                 Despite these serious deficiencies, we found in this year’s review
                                                                      that progress has been made on many fronts and that the
                                                                      Department’s determination to improve information security con-
In its response to our draft report the Department disagreed with
                                                                      tinues. Last fiscal year the Secretary directed top management to
many of our specific findings and indicated it believed it gener-
                                                                      (1) give information security high priority, sufficient resources,
ally had the information needed to manage the CAMS program.
                                                                      and personal attention; and (2) restructure (and thus strengthen)
However, the Department did subsequently agree that further
                                                                      IT management by having a CIO at each unit who reports to the
improvements can be made. (OFFICE OF SYSTEMS EVALUA-
                                                                      unit head and the Department CIO, and giving unit CIOs greater
TION: OSE-14129)
                                                                      authority over IT resources. Action on these directives has fol-

                                                                      10
                                                                           National-critical systems are part of the nation’s critical infrastructure.




September 2002/Semiannual Report to Congress                                                                                                             53
Department-Wide Management



lowed. Officials at every unit we reviewed are giving this issue          ■   Personnel training. The policy stipulates that new
their personal attention and taking steps to improve the status of            employees and contractors must receive information
information security. BIS, ITA, and NOAA, for example, are                    security awareness training within 30 days of hire and
working to ensure that the Department CIO’s information securi-               prior to using any IT resource, and all existing employees
ty guidance is implemented. BIS reallocated $500,000 to                       and contractors who have access to sensitive systems
information security in FY 2002 and ITA devoted $372,000 in                   must have annual refresher training. In the past year the
carryover funds. The Department is expanding information secu-                operating units provided security awareness training for
rity staff at the CIO’s office and requires CIO concurrence with              all employees and contractor personnel either through
IT investment decisions for all major systems. Operating unit                 programs of their own or via web-based training made
CIOs must concur with significant IT investments not subject to               available by the CIO. But the policy falls short of
departmental approval.                                                        adequately addressing the need for appropriate training
                                                                              for personnel with significant information security
In FY 2001 we noted that the process for identifying the                      responsibilities. However, Commerce has formed a
Department’s critical assets—those deemed essential to the mini-              working group whose goal is to improve IT security
mal functioning of the economy—needed to be improved and                      awareness and training Department-wide. As part of its
that Commerce performs too few reviews of unit compliance                     mission the group intends to specify employee functions
with government-wide and Department-wide security require-                    that require general and specialized training.
ments. Commerce officials responded to these findings in FY
2002 by initiating a Project Matrix review—a process that will        The draft policy also directs operating units to maintain a plan for
identify its critical assets and any public or private systems on     correcting identified information security weaknesses, tracking
which they depend—and by establishing a compliance review             progress at eliminating them, and reporting monthly to the
process to evaluate all operating unit information security pro-      Department CIO on the status of these efforts.
grams and systems over a 3-year cycle.


                                                                      Persistent weaknesses
Revised Department-wide information
security policy
                                                                      The many strides the Department has made—though important—
                                                                      remain somewhat overshadowed by the broad-based lack of
In response to our recommendation last year, the Department
                                                                      adequate information security controls, which prompted our
updated and expanded its information security policy. (As of
                                                                      repeat recommendation that Commerce report IT security as a
September 30, 2002, the draft was being circulated for review.) A
                                                                      material weakness. GISRA gives senior agency officials respon-
current and complete policy is essential for establishing an effec-
                                                                      sibility for assessing the information security risks for programs
tive Department-wide security program. The new policy will set
                                                                      and systems over which they have control, determining the levels
requirements that are consistent with GISRA guidance and that
                                                                      of security appropriate to protect associated operations and
target a number of deficiencies we identified in our 2001 evalua-
                                                                      assets, and periodically testing and evaluating information con-
tion and again this year:
                                                                      trols and techniques. The Secretary has charged all operating unit
    ■   Incident response procedures. Last year we found that         heads with these same responsibilities for their organizations.
        only 4 of 15 operating units had a formal incident            GISRA also requires the Department’s CIO to ensure that effec-
        response capability. The draft policy includes guidance       tive policies and procedures are implemented for the systems that
        on incident identification, handling, response, and           support the CIO’s functions. Operating unit CIOs are expected to
        reporting. In a related move, the Department established      do the same.
        a computer incident response team (CIRT) to give
        incident response capabilities to units that do not           However, some program officials and operating unit CIOs have
        have them.                                                    yet to fully execute these responsibilities for many of the sys-
    ■   Information security clauses in IT service contracts.         tems they control. As we have noted, the operating units we
        We noted last year a lack of sufficient policy and            reviewed had largely failed to conduct risk assessments on
        guidance to ensure that contract documents for IT             their systems—a prerequisite for developing security plans—
        services contained adequate information security              despite the Department’s September 30 deadline for having
        provisions and confirmed the widespread nature of this        approved security plans in place. (See, for example, our find-
        deficiency in a more extensive review conducted during        ings for NIST, page 39.) Numerous systems were operating
        this semiannual period (see page 51). The Department’s        without approved security plans or accreditation. We found
        draft policy provides specific guidance to protect            only one instance of documentation of security control testing-
        sensitive systems and information in contracting for IT       this was for a NOAA system at the Office of Oceanic and
        resources and services.                                       Atmospheric Research.



54                                                                                U.S. Department of Commerce/Office of Inspector General
                                                                                                           Department-Wide Management



In addition, the reviews of general controls on financial informa-    PREAWARD FINANCIAL
tion systems, conducted by outside auditors as part of the audit of
Commerce’s FY 2001 financial statements, identified weakness-         ASSISTANCE SCREENING
es pertaining to information security at several bureaus. In
general, the corrective action plans for financial systems, if        As part of our ongoing emphasis on prevention of fraud and mis-
implemented appropriately, will address the weaknesses. In some       management, we continue to work with the Office of Executive
cases, issues have already been resolved.                             Budgeting and Assistance Management, NOAA and NIST grant
                                                                      offices, and EDA program offices to screen the Department’s
Finally, we noted in last year’s evaluation that most FY 2002 cap-    proposed grants and cooperative agreements before award. Our
ital asset plans failed to identify security costs. Most of the FY    screening serves two functions: it provides information on
2003 capital asset plans we reviewed this year did specify those      whether the applicant has unresolved audit findings and recom-
costs, but only a few explained how the funds would be spent and      mendations on earlier awards, and it identifies any negative
several did not detail specific risks and security controls for the   financial or investigative history on individuals or organizations
life cycle of the system. We concluded that the units should bet-     connected with a proposed award.
ter identify these life-cycle issues so that security expenditures
can be better estimated and justified. (OFFICE OF SYSTEMS             During this period we screened 1,132 proposed awards. For 89 of
EVALUATION: OSE-15260)                                                the awards, we found major deficiencies that could affect the
                                                                      ability of the prospective recipients to maintain proper control
                                                                      over federal funds. On the basis of the information we provided,
                                                                      the Department delayed 47 awards until concerns were satisfac-
                                                                      torily resolved and established special conditions for 42 awards
MEMORANDUM NOTES                                                      to adequately safeguard federal funds. (OFFICE OF AUDITS)
IMPROVEMENTS,
REMAINING SAFETY
                                                                      Preaward Screening Results
VULNERABILITIES AT
COMMERCE HEADQUARTERS                                                                                              Award
BUILDING                                                                Results                          Number            Amount
                                                                        Awards delayed to
In our March 2002 Semiannual Report to Congress, we
                                                                        resolve concerns                    47           $29,222,900
detailed the findings of our safety inspection of selected areas
in Commerce headquarters—the Herbert C. Hoover                          Special award conditions
Building—which uncovered a number of potential hazards and              established                         42           $24,816,864
vulnerabilities. (See March issue, page 81.) To assess the
Department’s response to our corrective recommendations, we
conducted another walk-through during this reporting period
and were pleased to find that most of the problems we had             NONFEDERAL AUDIT
identified in the basement and subbasement have been
resolved. These areas have been cleaned up and are in relative-       ACTIVITIES
ly good order: equipment and furniture have either been
removed or stored more appropriately; trash that once littered        In addition to undergoing OIG-performed audits, certain recipi-
the floors has been collected and disposed of; chemicals and          ents of Commerce financial assistance are periodically examined
paint are more carefully stored; and appropriate security             by state and local government auditors and by independent pub-
devices have been installed on doors and in corridors. The            lic accountants. OMB Circular A-133, Audits of States, Local
Office of Security reported that it regularly patrols these areas     Governments, and Non-Profit Organizations, sets forth the audit
as well.                                                              requirements for most of these audits. For-profit organizations
                                                                      that receive Advanced Technology Program funds from NIST are
Only three of our recommendations remain open, including that         audited in accordance with Government Auditing Standards and
the Department implement new safety and cleanliness standards         NIST Program-Specific Audit Guidelines for ATP Cooperative
for contractors, and provide backup for the Energy Management         Agreements, issued by the Department.
Computer System. Commerce officials are working to correct
these lingering safety and security concerns. We will report on       We examined 161 audit reports during this semiannual period to
their progress in future semiannual reports.                          determine whether they contained any audit findings related to




September 2002/Semiannual Report to Congress                                                                                      55
Department-Wide Management



Department programs. For 94 of these reports the Department            Bureau                                                  Funds
acts as oversight agency and monitors the audited entity’s com-
pliance with the OMB circular or NIST’s program-specific               EDA                                              $ 40,406,093
reporting requirements. The other 67 reports are from entities for
which other federal agencies have oversight responsibility. We         NIST*                                              136,727,925
identified a total of 30 reports with findings related to the          NOAA                                                15,133,905
Department of Commerce.
                                                                       NTIA                                                     234,510
                                            ATP                        Multiagency                                        157,740,152
                           OMB            Program-
                           A-133           Specific                    Agency not identified                                   1,972,000
  Report Category          Audits          Audits        Total
                                                                       Total                                            $352,214,585
  Pending
                                                                     * Includes $107,190,891 in ATP program-specific audits.
  (April 1, 2002)               6             57           63
  Received                   138              55          193
                                                                     The audits identified a total of $8,479,480 in questioned costs. In
  Examined                   102              59          161        most reports the subject programs were not considered major
  Pending                                                            programs; thus the audits involved limited transaction and com-
  (September 30, 2002)        42              53           95        pliance testing against laws, regulations, and grant terms and
                                                                     conditions. The 30 reports with Commerce findings are listed in
                                                                     Appendix B-1. (ATLANTA AND DENVER REGIONS’ OFFICE
The following table shows a breakdown by bureau of the $352          OF AUDITS)
million in Commerce funds audited.




56                                                                              U.S. Department of Commerce/Office of Inspector General
OIG HIGHLIGHTS:
SPECIAL ITEMS OF NOTE

IGs FRAZIER, REHNQUIST,                                                become an evermore critical procurement option and their use
                                                                       will inevitably increase. Mr. Frazier suggested that improving the
AND FRIEDMAN TESTIFY                                                   purchase card program government-wide must be guided by
BEFORE CONGRESSIONAL                                                   three key principles:
COMMITTEE ON PURCHASE                                                      ■   Stop any and all personal use of government cards with
                                                                               aggressive oversight and strong disciplinary actions.
CARD OVERSIGHT
                                                                           ■   Caution managers to address systemic weaknesses and
On May 1, 2002, Inspectors General Johnnie Frazier, Janet                      problematic practices.
Rehnquist, and Gregory Friedman testified about oversight of the           ■   Go forward at full speed to implement best practices and
purchase card programs at Commerce, HHS, and Energy, respec-                   other proactive efforts that will prevent problems and
tively, before the U.S. House of Representatives’ Subcommittee                 promote efficiencies.
on Oversight and Investigations, Committee on Energy and
Commerce. In the past year, intense congressional and media
scrutiny of the government’s purchase card program tended to
focus on past abuses. In April 2002 the OMB director requested
that each agency review the adequacy of internal controls for pur-
chase and travel card expenditures and prepare separate remedial
purchase and travel card program action plans by June 2002.
OMB subsequently asked agency leaders to provide quarterly
reports on their program improvement plans.

During his testimony, IG Frazier shared with the subcommittee
some of “the good, the bad, and the ugly” things our reviews
revealed about Commerce’s program.
    ■   The good: The overwhelming number of Commerce and
        other federal employees use their government purchase
        cards responsibly—following appropriate procedures,
        avoiding improper purchases, and staying alert to best         IGs Frazier, Friedman, and Rehnquist being sworn in to testify before
        practices that can help the program operate efficiently.       the congressional Committee on Purchase Card Oversight.
    ■   The bad: The program still has a number of systemic
        weaknesses and problematic practices that needlessly           In 1995 this office began conducting audits and reviews of pur-
        leave it open to fraud, waste, and abuse.                      chase card use and related activities within the Department. Since
    ■   The ugly: Reports in the media and from OIGs and               then we have issued 11 audit reports dealing specifically with the
        other oversight organizations have highlighted                 purchase card program. Our audits included headquarters opera-
        irresponsible and illegal use of government purchase           tions at MBDA, NTIA, and USPTO, as well as overseas posts,
        cards, and as a result have given the purchase card            certain NIST laboratories, NOAA science centers, and regional
        program a negative image.                                      offices. Our primary objective was to determine whether
                                                                       purchase card use was in compliance with the Federal
Mr. Frazier noted that government employees have relied on pur-        Acquisition Regulation, the Commerce Acquisition Manual, and
chase cards for more than 15 years to expedite making small            the Department’s Personal Property Management Manual.
purchases, obtain training, and otherwise streamline unwieldy
federal procurement procedures. As Commerce and other agen-            We also covered purchase card use in a number of inspection
cies push for greater efficiency in the process, purchase cards will   reports as part of overall reviews of administrative services at the



September 2002/Semiannual Report to Congress                                                                                          57
OIG Highlights: Special Items of Note



offices inspected. We have found that these proactive reviews are    INSPECTION AND EVALUATION
especially useful in identifying systemic weaknesses in internal     COMMITTEE
controls designed to safeguard the program.
                                                                     A primary function of the Inspection and Evaluation (I&E)
We are conducting a Department-wide audit of the purchase            Committee is to share and develop better ways to communicate
card program in accordance with our audit goals for 2002-2003.       inspection and evaluation findings on crosscutting issues. The
Based on our reviews, we believe the vast majority of                goals of the PCIE Inspection and Evaluation Committee are to
Commerce’s 6,000 cardholders are using the cards responsibly
and adhering to guidelines. We also know that our work, along            ■   provide positive contributions to the inspector general
with that of Commerce officials and managers, must continue                  community as well as the federal government as a whole
as we look for ways to improve the program and implement best                in improving the management of federal programs;
practices to resolve problems, prevent and detect fraud, and             ■   improve the methodologies of inspection and evaluation
encourage efficiencies. A number of proactive efforts deserve                by sharing effective practices and insights; and
special emphasis:                                                        ■   improve the analytic and administrative skills of OIG
    ■   Properly train and support approving officials                       inspectors and evaluators by providing training in a
        and cardholders.                                                     variety of pertinent topics.
    ■   Publicize common problems and their solutions.
                                                                     Recently, building on the work of the OIGs at Education,
    ■   Look for problems before the problems find you.              Commerce, and other agencies, the committee completed its pur-
    ■   Maintain sufficient and constant oversight.                  chase card project with the publication of A Practical Guide for
                                                                     Reviewing Government Purchase Card Programs (see below).
The Subcommittee on Oversight and Investigations plans to hold       The committee developed and published the report as an adjunct
additional hearings this spring, as do other oversight committees,   to individual agency purchase card review programs, to aid the
signifying a continued high level of congressional interest.         IG community in addressing the increasingly important issue of
                                                                     purchase card use and abuse.

                                                                     Other important issues—emergency preparedness, the status of
THE PRESIDENT’S COUNCIL                                              foreign nationals working for government agencies, procurement
                                                                     and acquisitions—are concerns all or several OIGs must grapple
ON INTEGRITY AND                                                     with and have been offered as future project areas. The commit-
EFFICIENCY                                                           tee proposes projects to the PCIE and develops procedures and
                                                                     methodologies to achieve project goals.
The President’s Council on Integrity and Efficiency (PCIE), com-
prised of the presidentially appointed inspectors general, was
established to address integrity, economy, and effectiveness
issues that transcend individual government agencies and to          A PRACTICAL GUIDE FOR
increase the professionalism and effectiveness of IG personnel       REVIEWING GOVERNMENT
throughout the government. To accomplish their mission, PCIE
members meet regularly to address concerns pertinent to their
                                                                     PURCHASE CARD
oversight responsibilities. They also conduct interagency audits,    PROGRAMS
inspections, and investigations to prevent fraud, waste, and abuse
and promote economy and efficiency in federal programs and           In June this office published PCIE’s A Practical Guide for
operations. By combining their efforts, they are able to more        Reviewing Government Purchase Card Programs, a collaborative
effectively address government-wide issues of fraud, waste, and      effort with the Department of Education OIG and several other
abuse as well as inefficiency and ineffective management.            Offices of Inspector General. It is a helpful addition to the grow-
Council members also develop policies, standards, and approach-      ing number of tools federal IGs have already developed to use in
es to aid in establishing a well-trained and highly skilled          overseeing purchase card activities in their agencies.
IG workforce.
                                                                     Government-wide, purchase cardholders spent $13.7 billion in
Commerce Inspector General Johnnie Frazier is a member of the        FY 2001—a 12 percent increase over the previous year. This
PCIE and chair of the PCIE Inspection and Evaluation Committee.      timely guide has been a high priority for the I&E Committee




58                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                      OIG Highlights: Special Items of Note



because of its focus on so critical an area for IG review. Much       Census 2000 Report, Improving Our Measure of America: What
effort went into making this document a useful reference tool         Census 2000 Can Teach us in Planning for 2010: Chuck Tegeler,
for all PCIE members as well as others who oversee or manage          Lisa Pearson, Heidi Alves, Jill Haflich, Patricia Derr, Karen
purchase card activities. Staff at the Department of Education        DePerini, and Rita Dettmar—for their landmark work in
OIG took the lead in developing this project but the effort was       providing timely and critical guidance for improving future
truly a collaborative one. The purchase card guide will help IGs      decennial operations.
more effectively focus their efforts and serves as yet another
example of the commitment of the inspectors general to work           Emergency Preparedness and Physical Security Inspection:
collectively to promote efficiency and effectiveness throughout       Lisa Parker, Sharon Seymore, and former employees Erika
the federal government.                                               Lang, Tim Crowe, Nellie Wild, Peter Han, and Jon Shifrin—for
                                                                      their comprehensive and timely review of emergency prepared-
                                          The guide is intended       ness and physical security at 27 Commerce facilities, which
                                          to supplement existing      revealed a number of troubling weaknesses that needed to
                                          federal law, regulations,   be rectified.
                                          and internal agency
                                          guidelines and to be        False Claims: Allison Lerner, Greg Sebben, and Daniel
                                          used in conjunction         Buchtel—for their handling of an investigation into fraudulent
                                          with other audit, inspec-   claims by the recipient of an Advanced Technology Program
                                          tion, or investigative      award that resulted in a significant financial settlement in the
                                          tools. But A Practical      Department’s favor.
                                          Guide for Reviewing
                                          Government Purchase         Grants and Cooperative Agreement Manual: Bill Bedwell,
                                          Card Programs also          Jerry McMahan, Thelma Amos, Kathleen McKevitt, and
                                          provides commonsense        Belinda Riley—for their role in developing the Grants and
                                          advice based on experi-     Cooperative Agreement Manual, which has greatly enhanced
                                          ence and includes           financial and operational soundness in the Department’s finan-
                                          practical features to aid   cial assistance programs.
                                          in the review process
                                          such as questionnaires
and templates. In addition, the guide contains a multiagency          Interagency Teams
resource list of OIG reviews, providing examples of how differ-
ent agencies—including Agriculture, Commerce, Education,              September 11 Response: Ken Clair, James Blake, Robert Brent,
Energy, GSA, Interior, State, Transportation, and VA OIGs and         and George Chiamulera, who, along with special agents from
GAO—conduct and present reviews of the purchase card pro-             other agency OIGs, voluntarily participated in recovery, inves-
gram. It comes at a most opportune time as many IG offices            tigative, and security operations related to the terrorist attacks in
continue their important work in this critical area.                  New York and Washington.

                                                                      PCIE Purchase Card Guide: Irene Lewkowicz, Belinda
                                                                      Robinson, and the Office of Inspections and Program
SPECIAL AWARDS                                                        Evaluations, along with members of the Department of Education
                                                                      OIG—for development, design, and production of A Practical
                                                                      Guide for Reviewing Purchase Card Programs.
2002 PCIE AWARDS
FOR EXCELLENCE
                                                                      Special Recognition
Each year, PCIE surveys the work of the IG community and
honors particularly outstanding efforts that singularly or col-       George Grob, who recently concluded a 9-year tenure as chair of
lectively advance the council’s mission. This year 27 members         the Inspections and Evaluation Roundtable, an adjunct to the I&E
of our staff and one entire office were honored. In every case,       Committee, received the Individual Achievement Award for his
their efforts enhance the entire OIG’s reputation for commit-         outstanding leadership and the roundtable’s significant accom-
ment to excellence and exemplify the professionalism and              plishments under his watch. Mr. Grob was nominated for this
rewards inherent in true teamwork. Recognition is accorded            award by the I&E Committee, chaired by IG Frazier.
as follows:




September 2002/Semiannual Report to Congress                                                                                         59
OIG Highlights: Special Items of Note




PRESIDENTIAL MERITORIOUS                                                acquisition management issues. A recognized expert in the field
RANK AWARD                                                              of federal information systems management, she is frequently
                                                                        invited to represent OIG as a speaker at conferences and meet-
Each year, the President recognizes a small group of career sen-        ings. Articles about her work have appeared in the Federal
ior executives with the President’s Rank Award for exceptional          Times, Government Computer News, Federal Computer Week,
long-term accomplishments. Winners of this award are chosen             and other publications.
through a rigorous selection process—nominated by their agency
heads, evaluated by boards of private citizens, and approved by
the President. This year, Judith Gordon of this office was honored      COMMERCE’S SILVER
with this prestigious award.                                            MEDAL AWARD

Judith Gordon, Assistant Inspector General for Systems                  The Silver Medal is one of the highest honors bestowed by the
Evaluation, is responsible for planning, managing, and provid-          Secretary of Commerce, given to those select few employees
ing technical contributions to a work program that evaluates and        whose exemplary achievements have directly enhanced depart-
actively promotes improvements in the design, acquisition,              mental operations. Allen Crawley and Kenneth Clair are OIG’s
development, management, and security of the many complex               two most recent recipients of this award.
computer systems and related information technology invest-
ments throughout the Department.                                        Allen Crawley, Deputy Assistant Inspector General for
                                                                        Systems Evaluation, was recognized for the key role he played
Ms. Gordon was instrumental in forging an important role for OIGs       in establishing OIG’s information security evaluation capability,
in overseeing and evaluating information technology investments in      a highly effective method for assessing the security of the
the federal government. Recognizing both the importance and             Department’s critical information assets. With his guidance,
increasing complexity of information technology at the Department,      OIG’s systems evaluation staff successfully implemented a pro-
Ms. Gordon provided the concept and leadership for establishing         tocol that identifies and offers solutions for IT security issues,
OIG’s Office of Systems Evaluation in 1994. The systems evaluation      greatly enhancing the Department’s efforts to protect its many
capability she introduced to OIG and the Department was unique in       critical information assets. The program has had a positive
government and demonstrated that OIGs have and must play a criti-       impact on every information security program and system
cal role in ensuring maximum performance in the critical, costly, and   assessed. Mr. Crawley’s capability and professionalism are well
problem-prone area of information technology. The oversight pro-        respected by his peers both in OIG and throughout
gram Ms. Gordon leads has also promoted improvements in the             the government.
development, acquisition, and management of information technol-
ogy throughout Commerce, including for the 2000 Decennial               Special Agent Kenneth Clair, selected on the basis of his work
Census, USPTO, and National Weather Service.                            ethic, attitude, and skills, served as a Federal Air Marshal with
                                                                        the Federal Aviation Administration from October 2001 through
Ms. Gordon’s ability to define critical issues and develop practi-      March 2002. Because of the terrorist incidents on September 11,
cal, constructive solutions for resolving them has earned her           2001, the FAA augmented the Federal Air Marshal program with
widespread admiration and respect throughout the Department             law enforcement officers from other federal agencies until the
and the federal government. In addition to being a crucial source       positions could be staffed with full-time employees. The FAA
of independent review and recommendations for improving sys-            Federal Air Marshal program is integral to assuring the safety of
tems acquisition, Ms. Gordon and her staff are also an extremely        the flying public by preventing and thwarting hijackings and ter-
valuable resource for advice and consultation on technical and          rorist attacks on U.S. civilian aircraft.




60                                                                                 U.S. Department of Commerce/Office of Inspector General
TABLES AND STATISTICS

STATISTICAL OVERVIEW                                                  INVESTIGATIVE OPERATIONS
                                                                      AND STATISTICS
AUDIT RESOLUTION AND
FOLLOW-UP                                                             The Office of Investigations (OI) has authority to investigate
                                                                      alleged or suspected fraud, waste, abuse, or mismanagement by
                                                                      Department of Commerce employees, contractors, recipients of


T       he Inspector General Act Amendments of 1988 require
        us to present in this report those audits issued before the
        beginning of the reporting period (April 1, 2002) for
which no management decision had been made by the end of the
period (September 30, 2002). One NOAA audit report remains
                                                                      financial assistance, and others involved in the Department’s pro-
                                                                      grams and operations. These investigations typically result in
                                                                      criminal and/or civil prosecution, as well as administrative sanc-
                                                                      tions for violation of Department regulations and employee
                                                                      standards of conduct.
unresolved for this reporting period.
                                                                      OI is composed of special agents and support staff strategically
Department Administrative Order 213-5, Audit Resolution and           located in Atlanta, Georgia; Denver, Colorado; Silver Spring,
Follow-up, provides procedures for management to request a            Maryland; and Washington, D.C. OI special agents are deputized
modification to an approved audit action plan or for a financial      as special deputy U.S. marshals pursuant to a memorandum of
assistance recipient to appeal an audit resolution determination.     understanding (MOU) with the Department of Justice and the
The following table summarizes modification and appeal activi-        Federal Bureau of Investigation. This MOU provides all special
ty during the reporting period.                                       agents with full law enforcement authority while engaged in the
                                                                      performance of their duties, including the authority to carry a
Audit Resolution Follow-Up                                            firearm, make arrests, and execute search warrants.
  Report Category             Modifications            Appeals
                                                                      During the past 6 months OI has conducted outreach within
  Actions pending                                                     Commerce that focused on informing and educating Department
  (April 1, 2002)                    0                     6          personnel to recognize and report suspected fraudulent activity
                                                                      related to their specific programs. OI is also beginning to proac-
  Submissions                        0                     6
                                                                      tively pursue issues that may be appropriate for investigation or
  Decisions                          0                     4          referral to a cognizant office or bureau. This approach is designed
                                                                      to enhance our ability to prevent and detect fraud and will allow
  Actions pending                                                     us to identify potential vulnerabilities in Department programs
  (September 30, 2002)               0                     8          and operations. In addition, OI is continuing to partner with the
                                                                      various operating units in both Commerce and OIG to ferret out
Audit and Inspection Statistical Highlights                           fraud and address systemic problems that impede the efficacy of
for this Period                                                       departmental programs.
  Questioned costs                                 $11,885,325
  Value of audit recommendations
  that funds be put to better use                  $11,167,739
  Value of audit recommendations
  agreed to by management                            $9,198,142
  Value of inspection recommendations
  that funds be put to better use                              $0




September 2002/Semiannual Report to Congress                                                                                       61
OIG Tables and Statistics



Investigative Statistical Highlights                          REPORTING REQUIREMENTS
for this Period

  Investigative Activities                                    Index
    Cases opened                                        63    The Inspector General Act of 1978, as amended (1988), specifies
    Cases closed                                        45    reporting requirements for semiannual reports. The requirements
                                                              are listed below and indexed to the applicable pages of this report.
    Complaints received                                130
  Criminal Investigative Activities                             Section         Topic                                           Page

    Indictments/informations                             3      4(a)(2)         Review of Legislation and Regulations              62

    Convictions                                          3      5(a)(1)         Significant Problems, Abuses,
                                                                                and Deficiencies                               14-56
    Sentencings                                          3
                                                                5(a)(2)         Significant Recommendations
    Jail                                         6 1/2 mos.                     for Corrective Action                          14-56

    Probation/supervised release                 132 mos.       5(a)(3)         Prior Significant Recommendations
                                                                                Unimplemented                                      63
    Criminal judgments/restitutions/fines         $42,687
                                                                5(a)4           Matters Referred to Prosecutive
    Criminal matters referred for prosecution           14                      Authorities                                    14-56
    Criminal matters accepted for prosecution           11      5(a)(5) and     Information or
    Criminal matters declined                            3      6(b)(2)         Assistance Refused                                 63

  Civil Investigative Activities                                5(a)(6)         Listing of Audit Reports                       64-69

    Civil matters referred for prosecution               2      5(a)(7)         Summary of Significant Reports                 14-56

    Civil matters accepted for prosecution               1      5(a)(8)         Audit Reports—Questioned Costs                     64

    Civil matters declined for prosecution               1      5(a)(9)         Audit Reports—Funds to Be
                                                                                Put to Better Use                                  65
    Civil recoveries in dollars (minimum
    amount, to be paid over time)                $700,000       5(a)(10)        Prior Audit Reports Unresolved                     61

  Administrative Investigative Activities                       5(a)(11)        Significant Revised Management
                                                                                Decisions                                          63
    Matters referred for administrative action          20
                                                                5(a)(12)        Significant Management Decisions
    Employee suspensions                                 1                      with which OIG Disagreed                           63
    Reprimands/counseling                                1
                                                              OIG is also required by section 804(b) of the Federal Financial
    Other personnel actions                              1    Management Improvement Act of 1996 to report on instances and rea-
    Downgrades                                           1    sons when an agency has not met the dates of its remediation plan. We
                                                              discuss this matter in the March 2003 issue as part of our financial state-
    Procurement remedies                                 1    ments audit reporting.

    General policy actions                               4
                                                              4(a)(2): REVIEW OF LEGISLATION
                                                              AND REGULATIONS

                                                              This section requires the inspector general of each agency to
                                                              review existing and proposed legislation and regulations relating
                                                              to that agency’s programs and operations. Based on this review,
                                                              the inspector general is required to make recommendations in the



62                                                                         U.S. Department of Commerce/Office of Inspector General
                                                                                                                OIG Tables and Statistics



semiannual report concerning the impact of such legislation or        agement decision has been made by the end of the reporting peri-
regulations on the economy and efficiency of the management of        od (including the date and title of each such report), an
programs and operations administered or financed by the agency        explanation of why a decision has not been made, and a statement
or on the prevention and detection of fraud and abuse in those        concerning the desired timetable for delivering a decision on
programs and operations. Comments concerning legislative and          each such report.
regulatory initiatives affecting Commerce programs are dis-
cussed, as appropriate, in relevant sections of the report.           As of September 30, 2002, the following single audit summary
                                                                      relating to a NOAA grant was unresolved for more than 6 months:

SECTION 5(a)(3): PRIOR                                                Questioned Costs for North Pacific
SIGNIFICANT                                                           Marine Science Foundation (Washington)
                                                                      Total $177,527
RECOMMENDATIONS
UNIMPLEMENTED                                                         An OIG desk review of this NOAA single audit report (listed in
                                                                      our March 2002 issue, page 111, ATL-09999-2-0430) questioned
This section requires identification of each significant recom-       a total of $177,527 in relation to undocumented in-kind contribu-
mendation described in previous semiannual reports for which          tions, unapproved indirect costs, costs claimed that were
corrective action has not been completed. Section 5(b) requires       excessive because an incorrect exchange rate was used for con-
that the Secretary transmit to Congress statistical tables showing    version, undocumented costs on federal reports, duplicate costs
the number and value of audit reports for which no final action       claimed for federal reports, and unallowable travel. The report
has been taken, plus an explanation of the reasons why recom-         also contained some nonfinancial findings. NOAA has not yet
mended action has not occurred, except when the management            submitted to OIG an audit resolution proposal for this report.
decision was made within the preceding year.

To include a list of all significant unimplemented recommenda-        SECTION 5(a)(11): SIGNIFICANT
tions in this report would be duplicative, costly, unwieldy, and of
limited value to Congress. Any list would have meaning only if
                                                                      REVISED MANAGEMENT
explanations detailed whether adequate progress is being made to      DECISIONS
implement each agreed-upon corrective action. As this semian-
nual report was being prepared, management was in the process         This section requires an explanation of the reasons for any sig-
of updating the Department’s Audit Tracking System as of              nificant revision to a management decision made during the
September 30, 2002, based on annual status reports due from the       reporting period. Department Administrative Order 213-5, Audit
bureaus in mid-October. An accurate database was therefore not        Resolution and Follow-up, provides procedures for revising a
available to OIG for reference here. However, additional infor-       management decision. For performance audits, OIG must be con-
mation on the status of any audit recommendations can be              sulted and must approve in advance any modification to an audit
obtained through OIG’s Office of Audits.                              action plan. For financial assistance audits, OIG must concur
                                                                      with any decision that would change the audit resolution propos-
                                                                      al in response to an appeal by the recipient. The decisions issued
SECTIONS 5(a)(5) AND 6(b)(2):                                         on the four appeals of audit-related debts were finalized with the
                                                                      full participation and concurrence of OIG.
INFORMATION OR
ASSISTANCE REFUSED

These sections require a summary of each report to the Secretary      SECTION 5(a)(12): SIGNIFICANT
when access, information, or assistance has been unreasonably         MANAGEMENT DECISIONS WITH
refused or not provided. There were no such instances during this     WHICH OIG DISAGREED
semiannual period and no reports to the Secretary.
                                                                      This section requires information concerning any significant
                                                                      management decision with which the inspector general disagrees.
SECTION 5(a)(10): PRIOR AUDIT                                         Department Administrative Order 213-5 provides procedures for
REPORTS UNRESOLVED                                                    elevating unresolved audit recommendations to higher levels of
                                                                      Department and OIG management, including their consideration
This section requires a summary of each audit report issued           by an Audit Resolution Council. During this period no audit
before the beginning of the reporting period for which no man-        issues were referred to the council.




September 2002/Semiannual Report to Congress                                                                                       63
OIG Tables and Statistics




TABLES AND APPENDIXES                                                            governing the expenditure of funds; (2) a finding that, at the time
                                                                                 of the audit, such cost is not supported by adequate documenta-
     TABLES                                                       PAGE           tion; or (3) a finding that an expenditure of funds for the intended
                                                                                 purpose is unnecessary or unreasonable.
     1. Audits with questioned costs                                 64
                                                                                 Unsupported cost: a cost that, at the time of the audit, is not
     2. Audits with recommendations that funds                                   supported by adequate documentation. Questioned costs include
        be put to better use                                         65          unsupported costs.
     APPENDIXES
                                                                                 Recommendation that funds be put to better use: a recom-
     A. Report types this period                                     65          mendation by OIG that funds could be used more efficiently if
       A-1. Performance audits                                       65          Commerce management took action to implement and complete
       A-2. Financial-related audits                                 66          the recommendation, including (1) reductions in outlays; (2)
       A-3. Inspections and Systems Evaluations                      67          deobligation of funds from programs or operations; (3) with-
     B. Processed reports                                            68          drawal of interest subsidy costs on loans or loan guarantees,
       B-1. Processed financial-related audits                       69          insurance, or bonds; (4) costs not incurred by implementing rec-
                                                                                 ommended improvements related to Commerce, a contractor, or
                                                                                 a grantee; (5) avoidance of unnecessary expenditures identified
                                                                                 in preaward reviews of contracts or grant agreements; or (6) any
Definitions of Terms Used in the Tables                                          other savings specifically identified.

Questioned cost: a cost that is questioned by OIG because of (1)                 Management decision: management’s evaluation of the findings
an alleged violation of a provision of a law, regulation, contract,              and recommendations included in the audit report and the issuance
grant, cooperative agreement, or other agreement or document                     of a final decision by management concerning its response.



Table 1. Audits with Questioned Costs

                          Report Category                                                Number              Questioned                Unsupported
                                                                                                               Costs                      Costs
     A. Reports for which no management decision had been made
        by the beginning of the reporting period                                             28            $ 4,759,762                   $ 799,192
     B. Reports issued during the reporting period                                           35              11,885,325                   4,858,281
        Total reports (A+B) requiring a management decision during
        the reporting period1                                                                63              16,645,087                   5,657,473
     C. Reports for which a management decision was made during
        the reporting period2                                                                33               5,902,996                     915,432
             i. Value of disallowed costs                                                                     3,269,494                     293,653
             ii. Value of costs not disallowed                                                                3,151,167                     631,528
     D. Reports for which no management decision had been made
        by the end of the reporting period                                                   30            $10,742,091                   $4,742,041

1
 Eleven audit reports included in this table are also included among reports with recommendations that funds be put to better use (see table 2).
However, the dollar amounts do not overlap.
2
    In Category C, lines i and ii do not always equal the total on line C because resolution may result in values greater than the original recommendations.




64                                                                                            U.S. Department of Commerce/Office of Inspector General
                                                                                                                                  OIG Tables and Statistics



Table 2. Audits with Recommendations That Funds Be Put to Better Use

                               Report Category                                                                Number                         Value
    A. Reports for which no management decision had been made by the
       beginning of the reporting period                                                                          6                      $ 1,177,145
    B. Reports issued during the reporting period                                                               12                         11,167,739
       Total reports (A+B) requiring a management decision during
       the reporting period1                                                                                    18                        12,344,884
    C. Reports for which a management decision was made during the
       reporting period2                                                                                        10                          2,440,055
            i. Value of recommendations agreed to by management                                                                             5,928,648
            ii. Value of recommendations not agreed to by management                                                                            180,196
    D. Reports for which no management decision had been made by the
       end of the reporting period                                                                              10                       $ 9,904,829

1
 Eleven audit reports included in this table are also included in the reports with questioned cost (see table 1). However, the dollar amounts do not overlap.
2
 In Category C, two reports had funds to be put to better use identified during the resolution process. Also, in Category C, lines i and ii do not always
equal the total on line C because resolution may result in values greater than the original recommendations.




Appendix A. Report Types this Period

             Type                            Number         Appendix
    Performance audits                             3             A-1
    Financial-related audits                     19              A-2
    Inspections and Systems Evaluations            9             A-3
    Total                                        31



Appendix A-1. Performance Audits

    Agency      Date Issued                            Report Title                               Report Number                   Funds to Be Put
                                                                                                                                   to Better Use
    NOAA         06/28/02         Program for Acquiring Fisheries Research
                                  Vessels Needs Stronger Management Controls                     STD-14428-2-0001                           –
    NOAA         09/30/02         Internal Controls for Travel Cards at OAR's
                                  Environmental Technology Laboratory Can
                                  Be Strengthened                                                BTD-14908-2-0001                           –
    NOAA         09/30/02         Northwest Fisheries Science Center Needs
                                  Improved Research Management Processes to
                                  Better Implement Its Salmon Research Plan                      STD-14440-2-0001                           –




September 2002/Semiannual Report to Congress                                                                                                           65
OIG Tables and Statistics



  Appendix A-2. Financial-Related Audits

    Agency/Auditee                Report Number      Date      Questioned       Unsupported       Funds to Be Put
                                                    Issued      Costs             Costs            to Better Use
    EDA
    Eastern Oklahoma
    Development District         ATL-14301-2-0002   07/18/02                                          $300,000
    Detroit Economic Growth
    Corporation, MI              DEN-14963-2-0001   07/22/02                                          $749,430
    City of East Cleveland, OH   DEN-14962-2-0001   07/31/02                                          $513,480
    Northwest Arkansas
    Economic Development
    District, Inc.               DEN-15019-2-0001   08/28/02                                          $400,899
    Philadelphia Authority for
    Industrial Development, PA   ATL-15123-2-0001   08/30/02                                          $521,743
    East Arkansas Planning and
    Development District         DEN-14884-2-0001   08/30/02                                          $808,229
    City of New York             ATL-15125-2-0001   09/05/02     $57,977           $57,977          $3,457,049
    City of Seattle, WA          STL-14837-2-0001   09/05/02                                        $1,067,265
    U.S. Virgin Islands          ATL-15126-2-0001   09/23/02                                          $974,378
    City of Milwaukee, WI        DEN-14885-2-0001   09/30/02                                        $1,492,626
    City of Los Angeles, CA—
    Audit of Three EDA Grants
    for ACBOP                    STL-14900-2-0002   09/30/02     $97,897           $28,682
    MBDA
    City of Los Angeles, CA—
    Audit of the MBDA Award
    for the LAMBOC               STL-14900-2-0001   09/30/02    $499,746          $120,647
    NIST
    TriQuint Semiconductor
    Texas, Inc., TX              DEN-14517-2-0001   07/08/02
    Minnesota Technology,
    Inc., MN                     DEN-14879-2-0001   07/22/02    $813,631          $813,631            $652,334
    Facilichem, Inc., CA         DEN-14886-2-0001   09/12/02    $483,065
    H Power Corporation, NJ      DEN-14978-2-0001   09/13/02    $181,819                              $230,306
    BioTrove, Inc., MA           DEN-14989-2-0001   09/18/02
    Allegheny-Singer Research
    Institute, PA                ATL-13993-2-0001   09/26/02    $843,015          $435,988
    NOAA
    Pacific States Marine
    Fisheries Commission, OR     STL-14956-2-0001   09/30/02    $428,695          $255,616



 66                                                             U.S. Department of Commerce/Office of Inspector General
                                                                                             OIG Tables and Statistics



Appendix A-3. Inspections and Systems Evaluations

  Agency     Date Issued                       Report Title                  Report Number     Funds to Be Put
                                                                                                to Better Use
  BIS          09/30/02      Annual Follow-Up Report on Previous Export
                             Control Recommendations, as Mandated by the
                             National Defense Authorization Act for Fiscal
                             Year 2000, as Amended                             IPE-15290               –
  NOAA         09/30/02      NWS Weather Forecast Offices Generally
                             Perform Well, but Regional Oversight and
                             Management at Some Offices Need to
                             Be Improved                                       IPE-14577               –
  O/S          04/23/02      Stronger Management Controls Will Improve
                             Planning and Control of CAMS                      OSE-14129               –
  O/S          05/15/02      Information Security Requirements Need to Be
                             Included in the Department's Information
                             Technology Service Contracts                      OSE-14788               –
  O/S          09/30/02      The Office of Administrative Services Needs
                             Stronger Internal Controls and Management
                             Oversight                                         IPE-15131               –
  O/S          09/30/02      Independent Evaluation of the Department's
                             Information Security Program Under the
                             Government Information Security Reform Act        OSE-15260               –
  TA/NIST      09/16/02      Additional Improvements Needed to Strengthen
                             NIST's Information Security Program               OSE-15078               –
  USPTO        08/22/02      Stronger Management Controls Needed for
                             Patent Application Capture and Review
                             Automated Information System                      OSE-14926               –
  USPTO        09/30/02      Independent Evaluation of USPTO's Information
                             Security Program                                  OSE-15250               –




September 2002/Semiannual Report to Congress                                                                    67
OIG Tables and Statistics



Appendix B. Processed Reports


The Office of Inspector General reviewed and accepted 161 financial-related audit reports prepared by independent public accountants
and local, state, and other federal auditors. The reports processed with questioned costs, recommendations that funds be put to better
use, and/or nonfinancial recommendations are listed in Appendix B-1.
                                                    Agency                                            Audits
                            Economic Development Administration                                         44
                            National Institute of Standards and Technology                              71*
                            National Oceanic and Atmospheric Administration                              8
                            National Telecommunications and Information Administration                   2
                            Multiagency                                                                 34
                            Agency not identified                                                        2
                            Total                                                                      161
  *Includes 59 ATP program-specific audits.




68                                                                              U.S. Department of Commerce/Office of Inspector General
                                                                                     OIG Tables and Statistics
Appendix B-1. Processed Financial-Related Audits

        Agency/Auditee                         Report Number       Date      Questioned    Unsupported
                                                                  Issued      Costs           Costs
EDA
        City of Columbia, SC                   ATL-09999-2-1123   09/26/02   $1,008,942
        City of Watertown, NY                  ATL-09999-2-1149   09/30/02     $706,566
        City of Rio Vista, CA                  ATL-09999-2-1194   09/30/02     $788,838        $788,838
        Macon County, MO                       ATL-09999-2-1222   09/30/02     $466,800
NIST
        Vitria Technology, Inc., CA            ATL-09999-2-0989   04/09/02     $191,349
        ETEC Systems Inc., CA                  ATL-09999-2-1066   04/09/02      $17,328
        Caterpillar Inc., IL                   DEN-09999-2-0739   04/10/02     $207,782         $34,488
        U.S. Steel, PA                         DEN-09999-2-0698   04/18/02
        The Budd Company, MI                   DEN-09999-2-0704   04/18/02
        E.I. DuPont de Nemours, DE             DEN-09999-2-0741   04/18/02     $245,540         $70,673
        Electro Scientific Industries,
        Inc., OR                               ATL-09999-2-1063   04/19/02      $13,405         $13,405
        Ebert Composites
        Corporation, CA                        ATL-09999-2-1065   04/19/02      $15,944
        DaimlerChrysler
        Corporation, MI                        DEN-09999-2-0696   05/03/02
        Eastman Chemical
        Company, TN                            DEN-09999-2-0828   05/23/02       $4,062
        Walter Juda Associates,
        Inc., MA                               DEN-09999-2-0949   05/23/02      $10,041
        Chevron Research and
        Technology Center, CA                  DEN-09999-2-0816   06/19/02     $111,975
        CoorsTek, Inc., CO                     DEN-09999-2-0871   06/19/02     $131,621        $131,621
        Sun Microsystems, Inc., CA             ATL-09999-2-0859   06/24/02      $17,437
        Synquiry Technologies,
        Ltd., MA                               ATL-09999-2-1198   07/28/02      $28,782
        Saginaw Machine Systems,
        Inc., MI                               DEN-09999-2-0784   07/30/02      $21,300
        Imaging Therapeutics, Inc.,
        CA (formerly OsteoNet.
        Com, Inc.)                             DEN-09999-2-1081   08/14/02      $39,972
        VitalWorks, Inc., CT                   ATL-09999-2-0982   08/26/02    1,404,505      $1,404,505
        KLA-Tencor Corporation, CA             DEN-09999-2-1238   08/28/02   $1,632,747
        State of Nebraska                      ATL-09999-2-1114   09/12/02     $616,611        $616,611
        Florida Manufacturing
        Technology Center                      ATL-09999-2-1154   09/12/02     $167,928         $20,192
        Chicago Manufacturing
        Center, IL                             ATL-09999-2-0630   09/25/02      $14,689
        Chicago Manufacturing
        Center, IL                             ATL-09999-2-0818   09/25/02       $1,928
        Chicago Manufacturing
        Center, IL                             ATL-09999-2-1074   09/25/02     $480,756         $19,611
        3M Company, MN                         ATL-09999-2-1192   09/25/02     $101,382         $45,796
NOAA
        State of Connecticut                   ATL-09999-2-1099   09/20/02      $31,250

September 2002/Semiannual Report to Congress                                                            69
ACRONYMS
ACBOP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Alameda Corridor Business Outreach Program
ATP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Advanced Technology Program
BEA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Bureau of Economic Analysis
BIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Bureau of Industry and Security (formerly Bureau of Export Administration)
CAMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Commerce Administrative Management System
CFIUS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Committee on Foreign Investment in the United States
CFO/ASA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Chief Financial Officer and Assistant Secretary for Administration
CIO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .chief information officer
CIRT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .computer incident response team
CIYA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Cash-in-Your-Account
CCL       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Commerce Control List
COOP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .continuity of operations plans
COTR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .contracting officers’ technical representative
CSC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .CAMS Support Center
DOT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .U.S. Department of Transportation
ECASS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Export Control Automated Support System
EDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Economic Development Administration
EEZ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . exclusive economic zone
ESA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Economics and Statistics Administration
ETL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Environmental Technology Laboratory
FAR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Acquisition Regulation
FRV . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .fisheries research vessel
GAO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .General Accounting Office
GISRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Government Information Security Reform Act
GPRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Government Performance and Results Act
GSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .General Services Administration
GWAC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .government-wide agency contract
IA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Import Administration
IG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .inspector general



70                                                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                                                                                                 Acronyms



IT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .information technology
ITA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .International Trade Administration
ITL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Information Technology Laboratory
LAMBOC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Los Angeles Minority Business Opportunity Committee
LTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Long-Term Economic Deterioration
MASC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Mountain Administrative Support Center
MBOC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Minority Business Opportunity Committee
MEP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Manufacturing Extension Partnership
MOU . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .memorandum of understanding
NDAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Defense Authorization Act
NIST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Institute of Standards and Technology
NMFS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Marine Fisheries Service
NOAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Oceanic and Atmospheric Administration
NRFU . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .nonresponse follow-up
NTIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Telecommunications and Information Administration
NTIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Technical Information Service
NWS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Weather Service
OAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Acquisition Management
OAS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of the Secretary
OEAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Executive Assistance Management
OEP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Occupant Emergency Plans
OFPP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Federal Procurement Policy
OHRM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Human Resources Management
OI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Investigations
OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Inspector General
OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Management and Budget
PACR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Patent Application Capture and Review System
PWP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Public Works Program
RLF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .revolving loan fund
SSED        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Sudden and Severe Economic Dislocation
US&FCS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .U.S. and Foreign Commercial Service
USPTO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .U.S. Patent and Trademark Office
WFO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .weather forecast office




September 2002/Semiannual Report to Congress                                                                                                                                           71
TYPES OF OIG REVIEWS

For the federal government, OIGs must ascertain program via-          INSPECTIONS
bility from a variety of perspectives. The various kinds of audits,
evaluations, inspections, and investigations at our disposal afford   Inspections are reviews of an activity, unit, or office, or a con-
the IG's office a comprehensive view of Commerce programs             tractor or other nonfederal entity that receives funds from the
and operations. Thus we are able to provide program managers          Department. They focus on an organization, not a whole pro-
with reviews and recommendations that are both objective and          gram, and are often designed to give agency managers timely and
inclusive and can be used to aid them in ensuring the most effi-      useful information about operations, including current and fore-
cient and effective use of taxpayer dollars.                          seeable problems.



AUDITS                                                                EVALUATIONS
Performance Audits address the efficiency, effectiveness, and         Program Evaluations are in-depth reviews of specific manage-
economy of the Department's programs, activities, and informa-        ment issues, policies, or programs.
tion technology systems. They may check a unit's compliance
with laws and regulations, and evaluate its success in achieving      Systems Evaluations review system development, acquisitions,
program objectives.                                                   operations, and policy, focusing on computer systems and other
                                                                      technologies.
Financial-Related Audits review the Department's contracts,
grants, cooperative agreements, loans, and loan guarantees.
They assess compliance with laws, regulations, and award
terms; adequacy of accounting systems and internal controls;          INVESTIGATIONS
allowance of costs; and the degree to which projects achieved
the intended results.
                                                                      Criminal/Civil/Administrative Investigations are conducted
                                                                      based on alleged or suspected wrongdoing by Department
Financial Statements Audits determine whether (1) a reporting         employees, contractors, recipients of financial assistance, and
entity's financial statements are presented fairly and in accor-      others responsible for handling federal resources. Investigations
dance with generally accepted accounting principles; (2)the enti-     that expose violation of Department rules and regulations or acts
ty has an internal control structure that provides reasonable         of fraud committed against the U.S. government can result in
assurance of achieving the control objectives set forth by OMB;       administrative sanctions and/or criminal or civil prosecution.
and (3) the entity complied with laws and regulations that could
have a direct and material effect on the financial statements, the
Federal Financial Management Improvement Act, and other laws
and regulations.




September 2002/Semiannual Report to Congress                                                                                      73
